<html>
<title> - THE WAY FORWARD ON HOMELAND SECURITY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



 
                  THE WAY FORWARD ON HOMELAND SECURITY

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2021

                               __________

                            Serial No. 117-5

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        

                               __________
                               
  
                 U.S. GOVERNMENT PUBLISHING OFFICE 
44-522 PDF                WASHINGTON : 2021                              
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     8
The Honorable August Pfluger, a Representative in Congress From 
  the State of Texas:
  Prepared Statement.............................................    13

                                Witness

Hon. Alejandro Mayorkas, Secretary, United States Department of 
  Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Appendix

Questions From Chairman Bennie G. Thompson for Honorable 
  Alejandro N. Mayorkas..........................................    85
Questions From Ranking Member John Katko for Honorable Alejandro 
  N. Mayorkas....................................................    87
Question From Honorable Clay Higgins for Honorable Alejandro N. 
  Mayorkas.......................................................    88
Questions From Honorable Kat Cammack for Honorable Alejandro N. 
  Mayorkas.......................................................    93
Questions From Honorable August Pfluger for Honorable Alejandro 
  N. Mayorkas....................................................    95


                  THE WAY FORWARD ON HOMELAND SECURITY

                              ----------                              


                       Wednesday, March 17, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:50 a.m., via 
Webex, Hon. Bennie G. Thompson (Chairman of the committee) 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Correa, Slotkin, Cleaver, Green, Clarke, Swalwell, 
Titus, Watson Coleman, Rice, Demings, Barragan, Gottheimer, 
Luria, Malinowski, Torres, Katko, McCaul, Higgins, Guest, 
Bishop, Van Drew, Norman, Miller-Meeks, Harshbarger, Clyde, 
Gimenez, LaTurner, Meijer, Cammack, Pfluger, Garbarino.
    Also present: Representatives Escobar and McClintock.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``The Way Forward on Homeland Security.''
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    I ask unanimous consent for Members not on the committee to 
sit and question the witnesses.
    The gentlelady from New Jersey, Mrs. Watson Coleman, shall 
assume the duties of the Chair in the event that I run into 
technical difficulties.
    I now recognize myself for an opening statement.
    The Committee on Homeland Security is meeting today to 
examine ``The Way Forward on Homeland Security.'' We are joined 
by Secretary of Homeland Security Alejandro Mayorkas, who is 
testifying before Congress for the first time since being sworn 
in last month. We look forward to speaking to him about the 
administration's vision for the future of the Department of 
Homeland Security.
    To be sure, Secretary Mayorkas has inherited a Department 
damaged by the previous administration and its failed homeland 
security policies. For years, President Trump left DHS without 
a lawfully-appointed, confirmed Secretary and kept critical 
positions vacant so he could exploit the Department for 
political gain.
    I am pleased that President Biden has made some key 
nominations and look forward to competent Senate-confirmed 
leadership now that Secretary Mayorkas has been sworn in and 
the administration is moving forward with filling leadership 
positions across the Department.
    Just as President Trump made DHS less able to carry out its 
mission, his failed policies also made the homeland less 
secure. He downplayed the threat of COVID-19, despite the 
warnings of doctors and scientists, left States to fend for 
themselves to obtain testing supplies and PPE, and failed to 
implement a National vaccine distribution plan.
    He sided with Putin and Russia over our own intelligence 
community, even though our adversary meddled in our elections 
and hacked into our computer systems. He helped fuel the rise 
of domestic terrorism in America and incited right-wing violent 
extremists to attack the United States Capitol.
    Americans continue to pay the price for these failures, 
with over half a million dead from COVID-19, experts struggling 
to understand the scope of the SolarWinds hack, and an 
unprecedented surge in domestic terrorism.
    Secretary Mayorkas and the 240,000 dedicated, hard-working 
men and women of DHS are left to deal with the mess the last 
administration left behind. This will be no easy task, and 
Congress should be focused on ensuring the Department has the 
resources and authorities to do so.
    Unfortunately, some are so desperate to make Americans 
forget Trump's failures, they have resorted to fear-mongering 
about the challenges we face at the border. That rhetoric is 
shameful and does nothing to improve the situation on the 
ground.
    Others are engaging in revisionist history, saying that all 
was well at the border under the last administration. Nothing 
can be further from the truth.
    During the 2019 surge at the border, President Trump ripped 
thousands of children from their parents, hundreds of whom have 
still not been reunited, and only stopped when the American 
people rejected his immoral policy. He implemented policies to 
discourage family members from coming forward to sponsor 
unaccompanied children and left kids to languish in Government 
shelters for months.
    He squandered billions in taxpayers' money on a politically 
motivated border wall that is useless for responding to an 
influx of children and families. He cut off lawful means of 
immigration, dismantled our immigration infrastructure, and 
refused to address the underlying cause of migration.
    Let me be clear, the Trump administration's cruel, 
shortsighted policies directly contributed to the situation at 
the border now.
    The Biden administration is taking action. Administration 
officials have announced repeatedly that people should not come 
to the border now. The administration is increasing capacity to 
shelter unaccompanied kids humanely while testing them for 
COVID-19. It is restarting the Central American Minors program 
to allow vulnerable children to apply to come to the United 
States in a safe and orderly way.
    Meanwhile, DHS is reluctantly continuing to use its 
authority to expel adults and family units from the United 
States in order to manage increased flows in the near term. In 
fact, the Biden administration is expelling more people than 
the previous one. Our borders are not open.
    Clearly, more will have to be done to respond to this 
situation while upholding our values. What we must not do is 
return to the morally bankrupt policies of the last 
administration toward children.
    Rest assured, this committee will continue to conduct 
careful oversight of the Department's actions at the border. I 
want to hear from Secretary Mayorkas about how the Department 
is responding.
    Meanwhile, we must not take our eyes off homeland security 
threats, like terrorism, cyber attacks, and disaster 
preparedness and response.
    For its part, the Biden administration is working to 
rebuild DHS, reform our Nation's homeland security policy, and 
address the situation at the border while upholding our values. 
However, it cannot be expected to repair in a matter of weeks 
everything President Trump destroyed over 4 years.
    I look forward today to hearing from Secretary Mayorkas 
about his vision for the way forward on homeland security.
    With that, I recognize the Ranking Member, the gentleman 
from New York, Mr. Katko, for an opening statement.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 17, 2021
    The Committee on Homeland Security is meeting today to examine 
``The Way Forward on Homeland Security.'' We are joined by Secretary of 
Homeland Security Alejandro Mayorkas, who is testifying before Congress 
for the first time since being sworn in last month. We look forward to 
speaking to him about the administration's vision for the future of the 
Department of Homeland Security.
    To be sure, Secretary Mayorkas has inherited a Department damaged 
by the previous administration and its failed homeland security 
policies. For years, President Trump left DHS without a lawfully-
appointed, confirmed Secretary and kept critical positions vacant so he 
could exploit the Department for political gain. I am pleased that 
President Biden has made some key nominations and look forward to 
competent, Senate-confirmed leadership now that Secretary Mayorkas has 
been sworn in and the administration is moving forward with filling 
leadership positions across the Department.
    Just as President Trump made DHS less able to carry out its 
mission, his failed policies also made the homeland less secure. He 
downplayed the threat of COVID-19 despite the warnings of doctors and 
scientists, left States to fend for themselves to obtain testing 
supplies and PPE, and failed to implement a National vaccine 
distribution plan. He sided with Putin and Russia over our own 
intelligence community even though our adversary meddled in our 
elections and hacked into our computer systems. And, he helped fuel the 
rise of domestic terrorism in America and incited right-wing violent 
extremists to attack the U.S. Capitol.
    Americans continue to pay the price for these failures, with over 
half a million dead from COVID-19, experts struggling to understand the 
scope of the SolarWinds hack, and an unprecedented surge in domestic 
terrorism. Secretary Mayorkas and the 240,000 dedicated, hard-working 
men and women of DHS are left to deal with the mess the last 
administration left behind. This will be no easy task, and Congress 
should be focused on ensuring the Department has the resources and 
authorities to do so.
    Unfortunately, some are so desperate to make Americans forget 
Trump's failures, they have resorted to fear-mongering about the 
challenge we face at the border. That rhetoric is shameful and does 
nothing to improve the situation on the ground. Others are engaging in 
revisionist history, saying that all was well at the border under the 
last administration. Nothing could be further from the truth.
    During the 2019 surge at the border, President Trump ripped 
thousands of children from their parents, hundreds of whom have still 
not been reunited, and only stopped when the American people rejected 
his immoral policy. He implemented policies to discourage family 
members from coming forward to sponsor unaccompanied children and left 
kids to languish in Government shelters for months.
    He squandered billions in taxpayer money on a politically-motivated 
border wall that is useless for responding to an influx children and 
families. He cut off lawful means of immigration, dismantled our 
immigration infrastructure, and refused to address the underlying 
causes of migration. Let me be clear--the Trump administration's cruel, 
short-sighted policies directly contributed to the situation at the 
border now.
    The Biden administration is taking action. Administration officials 
have announced repeatedly that people should not come to the border 
now. The administration is increasing capacity to shelter unaccompanied 
kids humanely, while testing them for COVID-19. It is restarting the 
Central American Minors program to allow vulnerable children to apply 
to come to the United States in a safe and orderly way.
    Meanwhile, DHS is reluctantly continuing to use its authority to 
expel adults and family units from the United States in order to manage 
increased flows in the near term. In fact, the Biden administration is 
expelling more people than the previous one. Our borders are not open. 
Clearly more will have to be done to respond to the situation while 
upholding our values. What we must not do is return to the morally 
bankrupt policies of the last administration toward children. Rest 
assured this committee will continue to conduct careful oversight of 
the Department's actions at the border.
    I want to hear from Secretary Mayorkas about how the Department is 
responding. Meanwhile, we must not take our eyes off homeland security 
threats like terrorism, cyber attacks, and disaster preparedness and 
response.
    For its part, the Biden administration is working to rebuild DHS, 
reform our Nation's homeland security policy, and address the situation 
at the border while upholding our values. However, it cannot be 
expected to repair in a matter of weeks everything President Trump 
destroyed over 4 years.
    I look forward today to hearing from Secretary Mayorkas about his 
vision for the way forward on homeland security.

    Mr. Katko. Thank you, Mr. Chairman. Thank you very much for 
holding this important hearing today.
    Thank you to our witness, Secretary Mayorkas, for appearing 
as well. We had a nice discussion yesterday, and I am glad to 
see that we are getting off on the right foot, Mr. Secretary.
    To everybody out there, my mother would kill me if I didn't 
say this, Happy St. Paddy's Day.
    I can't think of a more important time for both sides of 
the aisle to work together on threats facing the homeland. The 
issues we face each and every day are more complex and severe 
than I have ever seen, and we will only be successful by 
working together. I must say, engaging in divisive rhetoric is 
not the answer and never will be.
    In just the first few months of the 117th Congress, we have 
faced the on-going pandemic, a deadly winter storm in the 
South, an attack on the U.S. Capitol, fallout from cyber 
attacks that have had significant impacts on both individuals 
and corporations, and the burgeoning crisis along our Southern 
Border, not to mention threats from authoritarian nation-states 
like China and Russia that are only getting more emboldened in 
their malign activities.
    Just over a week ago, a cyber attack on Microsoft's 
Exchange email server is believed to have infected tens of 
thousands of entities across Government and industry alike. 
Much like the SolarWinds cyber campaign, we probably will not 
know the extent or the damage caused by this attack for a 
while.
    Mr. Chairman, I know that you and I are in lockstep on this 
issue, as is the Secretary. I truly believe that cybersecurity 
is the preeminent threat to our National and homeland security, 
and if we don't act swiftly and decisively, we will come to 
regret it.
    Additionally, we are now facing a crisis on our Southern 
Border that should have and could have been avoided. Through 
irresponsible rhetoric and actions by this administration, we 
are seeing an unprecedented crisis unfold during a pandemic.
    The situation at the border continues to get worse every 
day, with inadequate action or even proper acknowledgment of 
the severity of the situation.
    I just returned from the border, where I started my career 
as a Federal organized crime prosecutor in the mid-1990's, and 
I can tell you without hesitation that it is indeed a crisis 
that continues to deepen each and every day.
    One thing that deeply disturbed me was the number of 
children being encountered along the border, exposed to the 
elements and having experienced a dangerous, traumatic journey 
from their home countries.
    As we quickly approach peak levels of unaccompanied 
children crossing the border, I am very concerned that the 
administration's rhetoric and policies are encouraging more to 
attempt this dangerous journey. There is just no question about 
that based on my conversations with the Customs and Border 
Patrol agents and other experts along the border.
    Mr. Secretary, as I said during our phone call a few weeks 
ago and again yesterday, I want to find ways to work together 
with you and to keep the homeland safe. It is not about who 
gets credit or blame. It is about doing the right thing for 
America.
    I also told you that I would be frank and transparent with 
you when I believe that the Department and administration is 
not living up to its end of the bargain. Regrettably, that is 
where we find ourselves today.
    I am deeply concerned that this administration has created 
a border crisis through predictably misguided policies and 
Executive Orders, denied the reality of the situation, and 
dodged accountability.
    At the same time that American schools remain closed across 
the country, the United States border is open to foreign 
nationals.
    After taking office, President Biden wasted no time. In 
fact, one of his first acts was to pull out his pen and unravel 
our border security and immigration enforcement posture by, 
among other things, halting construction of the border wall 
system, which the CBP agents say works; implementing selective 
enforcement of our immigration laws; ending the Remain in 
Mexico policy, allowing the entry of thousands of migrants 
waiting in Mexico into the country; reimplementing Catch and 
Release; and canceling the Asylum Cooperative Agreements with 
Central American partners. It is no wonder we have this issue 
we have at the border.
    While the President's overdue message yesterday to migrants 
to not make the journey to our Southern Border is certainly 
better late than never, words alone cannot undo the impact of 
his policies. The statistics simply do not lie about the impact 
of these policies.
    In February 2021, CBP encountered the highest number of 
migrants recorded in the month of February in over 7 years, 
100,441 people, a whopping 173 percent increase compared to 
February 2020; a 163 percent increase in family units from 
January 2021; a 61 percent increase in unaccompanied children 
from January 2021.
    CBP officials are projecting a peak of 13,000 unaccompanied 
children crossing the border per month by May, which would 
exceed unaccompanied children encounters at the height of the 
2019 crisis.
    Just as an aside, at the Border Patrol facility that houses 
unaccompanied children in El Paso, they are already over 
capacity, and we have more coming.
    Hundreds of Border Patrol agents are being diverted from 
interior drug checkpoints in the Northern and Coastal Borders 
to respond to this surge.
    DHS has asked for volunteers to help manage the 
overwhelming number of migrants at the border. Some members of 
FEMA have been taken away from dealing with the pandemic and 
vaccinating Americans to deal with the crisis.
    We are clearly in the midst of a humanitarian security and 
public health crisis that the administration refuses to 
acknowledge and is not being transparent about.
    This is also a crisis that has to be costing millions of 
dollars a day, and I expect more specificity from the 
Department in the weeks ahead on the exact magnitude of this 
preventable financial burden.
    I know from going to the border this week that CBP agents 
have told me that they are taking money from future payments 
for Customs and Border Patrol agents later this year and that 
if there is not a supplemental, they won't have money at the 
end of the year to pay their agents. That is how bad it is.
    Mr. Secretary, going back to the beginning of my statement, 
I do not want to simply throw stones, I just don't. I would 
sincerely like to work with you and the administration on this 
issue and come to the table with solutions.
    Today, I would like to propose several measures the 
administration can take in short order to get this crisis under 
control.
    We can restart already appropriated wall funding. There is 
nothing more bipartisan than keeping our country safe, and the 
CBP agents are screaming for this, and strong border security 
is part of that.
    Reimpose the Remain in Mexico policy, end Catch and 
Release, and protect Title 42 authorities.
    Listen to our front-line workers and continue to invest in 
more barriers, technology, access roads, and resources for 
personnel.
    Work with our foreign partners once again to prevent more 
migrants from reaching our border in the first place.
    Prioritize the need to test and vaccinate the front-line 
Customs and Border Patrol and ICE workforce.
    Help me finalize legislation to follow a Homeland Security 
Advisory Council recommendation to create a trust fund for 
border surges so we can deal with them in a more timely manner.
    I sincerely hope that, despite the rhetoric, the 
administration is taking this crisis seriously and that we can 
work together to find solutions that are good for the country.
    I really sincerely mean that, Mr. Chairman and Mr. 
Secretary.
    Mr. Chairman, I want to thank you again for holding this 
hearing. I look forward to the testimony of our witness.
    With that, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you for holding this important hearing, today, Mr. Chairman, 
and thank you to our witness, Secretary Mayorkas, for appearing, as 
well.
    I can't think of a more important time for both sides of the aisle 
to work together on threats facing the homeland. The issues we face 
each and every day are more complex and severe than I have ever seen, 
and we will only be successful by working together.
    In just the first few months of the 117th Congress, we have faced 
the on-going pandemic, a deadly winter storm in the South, an attack on 
the U.S. Capitol, fallout from cyber attacks that have had significant 
impacts on both individuals and corporations, and a burgeoning crisis 
along our Southern Border. Not to mention threats from authoritarian 
nation-states like China and Russia that are only getting more 
emboldened in their malign activities.
    Just recently, a cyber attack on Microsoft's Exchange email server 
is believed to have infected tens of thousands of entities across 
Government and industry alike. Much like the SolarWinds cyber campaign, 
we probably will not know the extent or the damage caused by this 
attack for a while. Mr. Chairman, I know that you and I are lockstep on 
this issue, as is the Secretary. I truly believe that cybersecurity is 
the preeminent threat to our National and homeland security and if we 
don't act swiftly and decisively, we will come to regret it.
    Additionally, we are now facing a crisis on the Southern Border 
that could have and should have been avoided. Through irresponsible 
rhetoric and actions by this administration, we are seeing an 
unprecedented crisis unfold during a pandemic.
    The situation at the border continues to get worse every day, with 
inadequate action, and no proper acknowledgement of the severity of the 
situation. I just returned from the border where I started my career as 
a Federal organized crime prosecutor in the mid-90's, and I can tell 
you without hesitation that it is indeed a crisis that continues to 
deepen each and every day.
    One thing that deeply disturbed me was the number of children being 
encountered along the border, exposed to the elements and having 
experienced a dangerous, traumatic journey. As we quickly approach peak 
levels of unaccompanied children crossing the border, I am concerned 
that the administration's rhetoric and policies are encouraging more to 
attempt this dangerous journey.
    Mr. Secretary, as I said during our phone call a few weeks ago and 
again just yesterday, I want to find ways to work together to keep the 
homeland safe. It's not about who gets credit. It's about doing the 
right thing for America. I also told you that I would be frank and 
transparent with you when I believe that the Department and 
administration is not living up to its end of that bargain.
    Regrettably, that is where we find ourselves today. I am deeply 
concerned that this administration has created a border crisis through 
predictably misguided policies, denied the reality of the situation, 
and dodged accountability.
    At the same time that American schools remain closed across the 
country, the United States border is open to foreign nationals.
    After taking office, President Biden wasted no time in pulling out 
his pen and unraveling our border security and immigration enforcement 
posture by:
  <bullet> Halting construction of the border wall system;
  <bullet> Implementing selective enforcement of our immigration laws;
  <bullet> Ending the ``Remain in Mexico'' policy, allowing the entry 
        of thousands of migrants waiting in Mexico in to the country;
  <bullet> Reimplementing ``catch and release''; and
  <bullet> Cancelling Asylum Cooperative Agreements with Central 
        American partners.
    While the President's overdue message yesterday to migrants to not 
make the journey to our Southern Border is certainly better late than 
never--words alone cannot undo the impact of these policies.
    The statistics simply do not lie about the impact of these 
policies:
  <bullet> In February 2021, CBP encounters the highest number of 
        migrants recorded in the month of February in over 7 years--
        100,441--a whopping 173 percent increase compared to February 
        2020;
  <bullet> 163 percent increase in family units from January 2021;
  <bullet> 61 percent increase in unaccompanied children from January 
        2021;
  <bullet> CBP officials are projecting a peak of 13,000 unaccompanied 
        children crossing the border per month by May, which would 
        exceed UAC encounters at the height of the 2019 crisis;
  <bullet> Hundreds of Border Patrol agents are being diverted from 
        interior drug checkpoints and the northern and coastal boarders 
        to respond to this surge.
  <bullet> DHS has asked for volunteers to help manage the 
        ``overwhelming'' number of migrants at the border.
    We are clearly in the midst of a humanitarian, security, and public 
health crisis that the administration refuses to acknowledge and is not 
being transparent about. This is also a crisis that has to be costing 
millions of dollars a day. I expect more specificity from the 
Department in the weeks ahead on the exact magnitude of this 
preventable financial burden.
    Mr. Secretary, going back to the beginning of my statement--I do 
not want to simply throw stones. I would sincerely like to work with 
you on this issue and come to the table with solutions. Today, I would 
like to propose several measures the administration can take in short 
order to get this crisis under control:
  <bullet> Re-start already appropriated wall funding--there is nothing 
        more bipartisan than keeping our country safe, and strong 
        border security is part of that.
  <bullet> Re-impose the Remain in Mexico policy.
  <bullet> End catch-and-release.
  <bullet> Protect Title 42 authorities.
  <bullet> Listen to our front-line workers and continue to invest in 
        more barriers, technology, access roads, and resources for 
        personnel.
  <bullet> Work with our foreign partners to prevent more migrants from 
        reaching our border in the first place.
  <bullet> Prioritize the need to test and vaccinate the front line CBP 
        and ICE workforce.
  <bullet> Help me finalize legislation to follow a Homeland Security 
        Advisory Council recommendation to create a trust fund for 
        border surges.
    I sincerely hope that despite the rhetoric, the administration is 
taking this crisis seriously and that we can work together to find 
solutions that are good for the country.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to the testimony of our witness.

    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    [The statements of Honorable Jackson Lee and Pfluger 
follow:]
               Statement of Honorable Sheila Jackson Lee
                             March 17, 2021
    Chairman Thompson, and Ranking Member Katko thank you for convening 
this opportunity for the Homeland Security Committee to hear from the 
sixth Secretary of Homeland Security Alejandro N. Mayorkas.
    I join my colleagues on the committee in welcoming the Secretary of 
Homeland Security Alejandro N. Mayorkas to receive his testimony, which 
will give Members an opportunity to examine the way forward on homeland 
security after 4 years of the Trump administration's failed homeland 
security policies.
    My thoughts and prayers are with the families of the 8 people 
killed and 1 person wounded in yesterday's horrific attacks in Georgia, 
a tragedy that reminds us all how much work must be done to protect 
people from those who should not have access to firearms.
    My focus for today's hearing is on 3 areas:
  <bullet> Vaccine delivery to the most at-risk;
  <bullet> Cybersecurity of our Federal and private-sector assets; and
  <bullet> The care and safety of unaccompanied children arriving at 
        our borders.
    As a senior Member of this committee I have learned a great deal 
about the capacity and strength of the men and women who work at the 
Department of Homeland Security.
    I hold them in the highest regard for their dedication and service 
to our country.
    This Nation depends on the men and women of the Department of 
Homeland Security (DHS) to protect citizens from those who wish to do 
them harm.
    Because of the dedication of DHS professionals, we are better 
prepared to face these challenges as one Nation united against a common 
foe.
    The Department of Homeland Security was not created to protect the 
Nation from desperate people escaping violence and poverty, seeking 
asylum in our country or the ravages of a virus attacking and killing 
over half a million Americans.
    It was created to prevent attacks against our Nation such as the 
one carried out by foreign terrorists who used commercial planes as 
missiles to destroy the World Trade Center Towers, and a section of the 
west side of the Pentagon, and would have killed more if not for the 
heroic acts of the passengers on Flight 93 to stop the attackers from 
reaching their ultimate destination right here at our Nation's Capitol.
    On Januacy 6, 2021, our Nation was once again threatened, but it 
was from an enemy found on our own shores led by the former President 
of the United States to attack the Capitol building during the transfer 
of power function reserved for the Legislative branch the counting of 
electors ballots.
    Our Nation faces multiple crisis at the same time that are 
challenging our way of life, values, and resolve, but the American 
people are will and prepared to face and overcome.
    As Americans we are best when we are true to the values we hold 
dear, beginning with fidelity to the Constitution and the laws of the 
United States.
    COVID-19 arrived on our Nation's shores in early 2020 and by March 
12, 2020 diagnosed cases of COVID-19 in the United States exceeded a 
thousand.
    The CDC reports that 533,057 persons in our Nation have died from 
COVID-19 and over 29,319,457 confirmed cases have occurred, but the 
crisis will not end until every eligible person can be vaccinated to 
aid the Nation in reaching a 70 to 80 percent inoculation rate.
    The high mortality rate can be attributed to the insistence on 
politicizing the most basic defenses against the spread of COVID-19, 
the wearing of masks and social distancing.
    Based on the 336,000 deaths that occurred in 2020, the CDC 
announced in January 2021 a reduction in the life expectancy of 
Americans due to COVID-19 deaths over the last year. Americans' life 
expectancy at birth is projected to shorten by 1.13 years, the largest 
single-year decline in at least 4 decades, according to University of 
Southern California researchers.
    The declines in life expectancy are likely even starker among 
African American and Latino communities.
    For African Americans, the researchers project their life 
expectancy would shorten by 2.10 years to 72.78 years, and for Latinos, 
by 3.05 years to 78.77 years.
    We are still at war with COVID-19 while must at the same time 
battle the war within to undermine any gains made in saving lives.
    Governor Abbott's announcement on March 2, Texas Independence Day 
is a death sentence for tens of thousands of Texans as he lifts COVID-
19 State occupancy limits for all businesses so that they can resume 
serving 100 percent of their customers, effective March 10.
    On the day of the Governor's announcement 271 more Texans died of 
COVID-19, and it is reported that all known variants have been detected 
in the State.
    On March 16, 2021, the CDC reports that 72,135,616 or 21 percent of 
Americans had received at least 1 dose of a 2-dose vaccination and 
39,042,345 or 10 percent of the population had been received the needed 
full immunization.
    The Nation now understands what an administration with a plan and 
the competence and capacity to implement it can do with the power of 
the Federal Government being welled with precision and boldness the 
American people know that victory over COVID-19 is achievable.
    Let me be very clear, in my view there is no over-reaction to a 
deadly respiratory virus that is easily transmitted to others.
        congresswoman jackson lee's efforts to address covid-19
    I first saw news reports in early January on the novel 
Coronavirus's rapid spread and the numbers of infected were increasing 
so quickly, that I knew this was not something to be taken lightly, so 
I began to monitor the situation more closely.
    On February 10, 2020, I held the first press conference on the 
issue of the novel coronavirus at Houston Intercontinental Airport.
    I was joined by public health officials, local unions, and 
advocates to raise awareness regarding the virus, and the implications 
it might have for travel to the United States from China and to combat 
early signs of discrimination targeting Asian businesses in the United 
States.
    On February 24, 2020, I held a second press conference on the 
International Health Regulations Emergency Committee of the World 
Health Organization declaration of a ``public health emergency from the 
outbreak of the Coronavirus.''
    On February 26, 2020, I sent a letter to the Chair and Ranking 
Member of the Committee on Homeland Security seeking a meeting with 
then-Acting Secretary of Homeland Security Chad Wolf to gain insight 
into the preparedness of the agency to address a possible pandemic.
    On February 28, 2020, I spoke on the floor of the House and 
announced plans to form a bipartisan Congressional Coronavirus Task 
Force.
    On March 2, 2020, I, Congressmen Brian Fitzpatrick and Raul Ruiz, 
MD wrote the House Committee on Administration to register the 
Congressional Coronavirus Caucus as an official entity recognized by 
the 116th Congress, which was approved.
    On March 16, 2020, I held a press conference to inform the public 
on the Federal response, mobilize community engagement in the fight 
against COVID-19 spread, and raise public awareness on the actions 
taken to protect the public and provide much-needed resources to State 
and local public health offices.
    On March 16, 2020, I wrote a letter to Dr. Rick Bright, deputy 
assistant secretary and office director of the Biomedical Advances 
Research and Development Authority in the Department of Health and 
Human Services to bring the agency's attention to the existence of 
Baylor College of Medicine's possible clinical trials, with respect to 
a vaccine for COVID-19.
    I have opened over 50 testing sites in Houston, Texas and 
surrounding area.
    I have begun to hold vaccination events making vaccine available to 
low-income and at-risk populations in my Congressional District.
    This past weekend, at a vaccination event an estimate 1,000 people 
received vaccinations, without prior registration at a site that was 
easy to access.
    What this Nation received in the form of a COVID-19 response from 
the previous administration was policy and administrative malpractice 
that cost over a half million American lives.
    Today we are seeing through the work of the Biden administration 
COVID-19 economic, testing, and vaccine access relief to the American 
public.
                   the covid-19 vaccine delivery act
    On January 15, 2021, I was joined by Congressmen Donald Payne, Jr., 
Anthony Brown and Mondaire Jones in introducing the Vaccine Delivery 
Act.
    On February 8, 2020, the legislation was reintroduced with an 
update that elevated the authority of FEMA to assess the vaccination 
profile of States and communities within States and take action to 
address deficiencies.
    The legislation establishes:
    1. FEMA as the National coordinator of vaccine transport and 
        delivery;
    2. Safe and effective supply chain transport, delivery, and site 
        use of vaccines;
    3. Broad stakeholder engagement;
    4. No picking business winners or losers; and
    5. Implementing CDC COVID-19 Vaccine Recommendations.
                            bill highlights
  <bullet> FEMA will be authorized and directed to lead the effort for 
        vaccine delivery from the receipt from manufacturing facilities 
        to delivery to designated inoculation sites (hospital, clinic, 
        doctors' offices, school, places of worship, community centers, 
        parks, or neighborhood gathering locations, etc.)
  <bullet> FEMA will develop and deploy a fully staffed and resourced 
        24/7 advanced real-time tracking system that allows FEMA to 
        monitor shipments of vaccine units that can provide end-to-end 
        transparency on the temperature, real-time location, origin, 
        and destination data, anticipated time of arrival, and report 
        on changes and update recipients on the progress of their 
        delivery and report on changes that may impact expected 
        delivery or the viability of the vaccine while in transit;
  <bullet> FEMA will provide an advanced communication system that 
        allows public health departments to communicate their vaccine 
        readiness, capability of receiving vaccines, delivery 
        locations, details of facility capability of storing, securing, 
        personnel authorized to receive deliveries, logistics for 
        delivering vaccines to patients, report on vaccine receipts, 
        condition of vaccines, patient reactions, feedback on how to 
        improve the process;
  <bullet> FEMA will design custom apps for use by public health 
        agencies, doctors' offices, etc. to be provided to patients to 
        communicate information on the vaccine being received and the 
        date of a second and location of the dose if required, the app 
        should generate a token that corresponds to their vaccination 
        record to ensure that the right vaccine is administered should 
        a second inoculation be required and to ensure that a person is 
        not vaccinated with different vaccines, additional information 
        such as vaccine effectiveness period may be addressed as more 
        it learned about this;
  <bullet> FEMA will secure transportation for delivery or use of 
        vaccines, and, when requested, security for the vaccine 
        delivery sites or inoculation locations to ensure the life and 
        safety of personnel and patients who seek to provide or receive 
        vaccinations are free of interference or threat;
  <bullet> FEMA will provide public education and patient engagement 
        through the provision of inoculations of persons in areas and 
        locations where vulnerable populations are under-performing in 
        getting vaccinations;
  <bullet> FEMA will waive authority of the States to share vaccination 
        data with HHS;
  <bullet> FEMA will provide HHS with the capacity to manage the 
        inoculations data on persons and tracking the second 
        vaccination to ensure full immunity and to determine when 
        sufficient vaccinations have been administered to unique 
        persons to achieve herd immunity. HHS shall protect Vaccination 
        Data as HIPAA protected data, and under the Privacy Act, which 
        shall not allow waiver of any provision of that law; and the 
        Freedom of Information Act shall not apply to the records 
        maintained.
  <bullet> FEMA will provide civil $10,000 per violation per instance; 
        and criminal penalties of 5 years in prison for violation of 
        this section; or use of the information outside the specific 
        purpose of that data collection which is to assure full 
        inoculation of individuals; and determination for herd immunity 
        goals being achieved. Data retention limitation--all records 
        shall be destroyed after 5 years--sunset this provision afters 
        years.
  <bullet> FEMA will provide an ombudsman to support public and 
        stakeholder input on the work being done, provide advocacy and 
        advice for those who elect not to be vaccinated, and champion 
        the privacy, civil liberty rights on behalf of the American 
        people.
  <bullet> FEMA will waive State laws regarding management of 
        inoculation data.
  <bullet> FEMA will provide HHS with the capacity to manage the 
        inoculations data on persons for the purpose of tracking the 
        second vaccination to ensure full immunity and the management 
        of National inoculation goals.
    Under the leadership of the Biden administration the Nation is off 
to a great start in vaccinating the Nation, but we must and can do more 
to reach the hard-to-reach especially with the added flexibility 
offered by the one shot Johnson and Johnson vaccine.
    cybersecurity risks and federal network vulnerability to attacks
    The SolarWinds breach and the related malicious cyber campaign, 
which has affected 9 Federal agencies and approximately 100 private-
sector entities.
    At a joint hearing with the Committee on Oversight and Reform we 
heard from private-sector witnesses will provide an overview of their 
roles in the discovery and response to the malicious cyber campaign as 
well as recommendations to better defend against such attacks in the 
future.
    On December 8, 2020, FireEye, a notable cybersecurity firm, 
announced that it had been compromised ``by a nation with top-tier 
abilities,'' and that the actor had stolen its red-team tools.
    FireEye shared details of the attack, indicators of compromise, and 
countermeasures.
    Five days later, on December 13, 2020, initial reports surfaced 
that a sophisticated actor breached the U.S. Departments of Treasury 
and Commerce by inserting malicious code into the SolarWinds Orion 
platform, which agencies use to automate certain network monitoring 
activities. Approximately 18,000 SolarWinds customers downloaded the 
malicious code, but not all installed it.
    As the investigation into the malicious cyber campaign progressed, 
additional attack vectors unrelated to SolarWinds were identified.
    Federal agencies and about 100 companies have been impacted by the 
campaign, though investigations are on-going.
    On January 5, 2021, a joint statement issued by the Cybersecurity 
and Infrastructure Security Agency (CISA) of the Department of Homeland 
Security (DHS), the Federal Bureau of Investigation (FBI), the Office 
of the Director of National Intelligence (ODNI), and the National 
Security Agency (NSA) indicated the campaign was ``likely'' carried out 
by a Russian Advanced Persistent Threat (APT) actor.
    A scenario heard too often heard--it was a zero-day vulnerability 
in Microsoft's software that was exploited.
    The Solarwind attack involved a Microsoft software vulnerability 
that was exploited resulting in an attack that was not detected by 
DHS's Cybersecurity and Infrastructure Security Agency (CISA), which is 
the Federal agency charged with protecting Federal civil agencies and 
private-sector entities network security.
    CISA is the Nation's risk advisor, working with partners to defend 
against today's threats and collaborating to build more secure and 
resilient infrastructure for the future.
    This is troubling because of the billions in funding made available 
to make DHS the premier Federal agency to address cyber threats to 
Federal civilian agency networks and the private sector.
    In the 116th Congress I introduced H.R. 3710, the ``Cybersecurity 
Vulnerability Remediation Act,'' which is introduced in the 117th 
Congress under bill number H.R. 118. The bill directs DHS to prioritize 
efforts to help network operators address known vulnerabilities by:
  <bullet> Requiring DHS's Cybersecurity and Infrastructure Security 
        Agency (CISA) to widely share mitigation protocols to counter 
        cybersecurity vulnerabilities;
  <bullet> Authorizing the DHS Science and Technology Directorate to 
        establish an incentive-based program to allow industry, 
        individuals, agencies, and academia to compete in providing 
        remediation solutions for the highest priority cybersecurity 
        vulnerabilities; and
  <bullet> Requiring CISA to report to Congress on its efforts to share 
        mitigation protocols and coordinate vulnerability disclosures 
        with its partners.
    In the 115th Congress, I introduced H.R. 3202, Cyber Vulnerability 
Disclosure Reporting Act, which addresses the Federal Government's 
sharing of cyber vulnerability disclosures to critical infrastructure 
owners and operators.
    H.R. 3710, goes further to address the remediation of identified 
cybersecurity threats by incentivizing work to patch or find solutions 
for cyber threats inherent in legacy systems.
    The reason this bill is needed is because of the Federal Government 
documented use computing technology for over 120 years.
    The Federal Government's first use of computing technology occurred 
in 1890 when an automated tabulation method was used to organize that 
year's census data encoded on punch cards.
    Since that modest beginning in 1890, the Federal Government has 
blazed a path for adoption of computing technology throughout the 
Federal Government, which established an unprecedented pace for 
innovation in the private sector that transformed our world from 
analogue to digital in 129 years.
    One of the consequences of Federal Government use of computing 
technology over the last 129 years are the challenges of operating 
legacy systems that use outdated software, which cannot be quickly 
upgraded to eliminate known cybersecurity vulnerabilities.
    Federal Government offices are vulnerable to cyber attacks, with 
the number of cyber incidents reported by Federal agencies increasing 
more than 1,300 percent between 2006 and 2015.
    In 2015, a hacker exploited access provided by a Government agency 
contractor to break into Government databases to gain access to 22 
million security clearance files from the Office of Personnel 
Management.
    In 2017, Federal agencies reported more than 35,000 cyber 
incidents, some of which targeted old operating systems that were no 
longer supported by a vendor.
    According to the National Security Agency, it has not responded to 
a zero-day attack on Government systems in the last 4 years, largely 
because hackers have found better success through basic attack methods.
    H.R. 3710 will provide much-needed structure around a Federal 
Government-wide effort to address cybersecurity vulnerabilities in 
Federal civilian agency networks.
    I have made cybersecurity one of my highest priorities in my work 
on this committee out of concern shared by my colleagues on this 
committee on the consequences for the safety and reliability of 
critical infrastructure.
    I will work with the committee on getting H.R. 118 before the 
committee in a markup and ultimately to the House floor for a vote.
                  unaccompanied children at the border
    The saddest, most tragic situation is the plight of tens of 
thousands of unaccompanied children or those who were taken from their 
parents or removed from the care of responsible adults.
    The image of children in cages will haunt our Nation for decades to 
come, but when this was occurring too many of my friends on the other 
side of the aisle found no fault with the past administration's crisis 
generating border policies that caused so much suffering from children 
and their parents.
    The same border challenges are part of our mission as a committee 
and we are as much to blame as any administration that we under-
resource or allow to pursue policies that cause injury and harm to 
asylum seekers or refugees seeking assistance.
    As a former Ranking Member of the Homeland Security's Subcommittee 
on Border Security, my commitment to securing our Nation's borders and 
protecting the homeland from terrorist attacks remains unwavering.
    The United States has a Federal policy supported by laws that 
govern how non-citizens are to be treated, and the rights and well-
being of the most vulnerable are to be met when in U.S. custody.
    I visited CBP facilities when tens of thousands of unaccompanied 
children were arriving at the border weekly during the previous 
administration and observed how DHS met the challenge of receiving 
them, feeding them, and placing them safely in the custody of the 
Department of Health and Human Services was routinely met.
    I was shocked to learn in December 2018, that 2 children died in 
separate incidents while in the custody of the U.S. Border Patrol, 
which were the first deaths of children in Border Patrol custody in 
more than a decade.
    Following the deaths of the 2 children in 2018, U.S. Customs and 
Border Protection, the Border Patrol's parent agency, issued an interim 
directive in January 2019 establishing new medical screening and 
assessment procedures for children taken into custody.
    I look forward to your testimony and the testimony for today's 
hearing.
    Thank you.
                                 ______
                                 
                 Statement of Honorable August Pfluger
    Thank you, Chairman Meeks and Ranking Member Katko, for holding 
this important hearing today. Secretary Mayorkas, thank you for 
appearing before us today.
    Our Nation is facing a complete crisis on our Southern Border with 
illegal crossings nearing an over 20-year high, and the levels of 
unaccompanied minors nearing an all-time high.
    This is not only an illegal immigration crisis, but also a 
humanitarian one.
    Right now, thousands of unaccompanied migrant children are coming 
across our borders illegally every single day, trafficked and 
transported by coyotes, drug cartels, and other bad actors intent on 
exploiting these children for money. We have also seen the safety and 
security of our own citizens put on the line, with Border Patrol 
confirming that individuals on the terror watch list have been 
apprehended coming across the border, and hundreds of agents being 
pulled off their important missions to staff processing facilities and 
mitigate the surge.
    I traveled to the Southern Border on Monday and surveyed the 
facilities there on the ground. What I saw, and what was confirmed to 
me by Border Patrol officers, is a complete and utter overwhelming of 
our facilities, resources, and manpower.
    We toured the central processing facility in El Paso, which was 
built only last year to house 1,040 migrants. On Monday, that facility 
reached capacity for the first time. This is only one facility of many 
along our border that are filled to the brim with illegal migrants, 
encouraged by the rhetoric and dangerous policies espoused by this 
administration.
    These facilities along the border are so overwhelmed that children 
are being bused hundreds of miles to holding spots within the interior 
of the United States. One of these is in the heart of my district, in 
Midland, Texas.
    Secretary, during the middle of the night just this last Sunday, 
the U.S. Department of Health and Human Services made the surprise 
decision to move up to 700 unaccompanied migrant children into Midland, 
Texas without consulting, coordinating, or properly notifying city and 
State officials.
    Our sheriff, mayor, police, and fire departments were completely 
blindsided. We had no time to prepare, no opportunity to provide input 
and advice, and were given no answers as to how long they will be 
there, if more are on the way, implications of spread of coronavirus, 
and more.
    This is completely unacceptable and an indication of this 
administration's lack of transparency and willingness to accept 
accountability for this crisis.
    I am imploring you and President Biden to reverse course on this 
administration's dangerous rhetoric and reinstate the policies that 
were in place and working: Re-start building on already appropriated 
wall funding, re-impose the Remain in Mexico policy, end catch-and-
release, protect Title 42 authorities, and most importantly, properly 
invest in the tools and resources our brave Border Patrol and ICE 
agents need to secure our border and provide for the safety of our 
citizens as well as the migrants.
    The security of our border should not be partisan. It is in the 
best interest of every American, and I implore you to work in good 
faith to secure our border and get this crisis under control.

    Chairman Thompson. Members are also reminded that the 
committee will operate according to the guidelines laid out by 
the Chairman and Ranking Member in our February 3 colloquy 
regarding remote procedures.
    Without objection, the witness' full statement will be 
inserted in the record.
    I now recognize Secretary Mayorkas for his opening 
statement.

  STATEMENT OF HON. ALEJANDRO N. MAYORKAS, SECRETARY, UNITED 
             STATES DEPARTMENT OF HOMELAND SECURITY

    Secretary Mayorkas. Thank you and good morning, Chairman 
Thompson, Ranking Member Katko, and distinguished Members of 
the committee. Thank you for the invitation to join you today.
    At the very outset I should recognize the tragic event that 
took place in the surrounding areas of Atlanta yesterday. Our 
thoughts and prayers are with the victims of that tragic event, 
those who lost their lives, as well as those who were injured.
    We are tracking that event very carefully. I have already 
been briefed on it, and I know that the Federal Bureau of 
Investigation is working to understand all of the facts and 
that the individual who is a suspect of that event is in 
custody.
    More than 240,000 individuals dedicate their talent and 
energy each day to protecting our homeland security. It is an 
honor to appear before you to represent them in the critical 
work they perform in the service of the American people.
    DHS personnel protect our country from foreign and domestic 
terrorism while also protecting our privacy, civil rights, and 
civil liberties. They secure and manage our borders while also 
restoring America as a place of refuge.
    They support a whole-of-Government effort to defeat a 
pandemic that has impacted every part of American life, while 
also facilitating the legitimate trade and travel needed for a 
strong economy.
    The challenges we face are great, but we do not face them 
alone. The Department of Homeland Security is fundamentally a 
department of partnerships.
    Congress, all of you, is one of our essential partners. I 
commit to working with this committee on a bipartisan basis to 
ensure the success of our homeland security mission.
    Forty-three days into my tenure as Secretary, I look 
forward to sharing what we have done and where we are headed. I 
will start with what is top of mind for every American, which 
is our effort to defeat the COVID-19 pandemic.
    On the first day of this administration, President Biden 
challenged FEMA to stand up 100 Federally-supported community 
vaccination centers in only 30 days. In fact, FEMA did not 
stand up 100 Federally-supported community vaccination centers 
in 30 days. It stood up 441. Today that number is well over 900 
and growing by the day.
    President Biden also challenged us to deliver 100 million 
vaccinations across the country in 100 days. Last week we 
passed 90 million doses and are on track to reach the 
President's ambitious goal.
    Another top priority for our Department is increasing the 
Nation's cybersecurity resilience and protecting our critical 
infrastructure, especially in light of the recent campaigns 
exploiting SolarWinds and Microsoft Exchange and the growing 
threat of ransomware.
    As a first step, I have directed grant funding that will 
provide an additional $25 million for State and local entities 
across the country to improve their cybersecurity, raising the 
total minimum amount they must devote together to this critical 
mission to $77 million.
    The Department's Cybersecurity and Infrastructure Security 
Agency, or CISA, remains laser-focused on protecting and 
providing assistance to Federal civilian agencies and working 
with the private sector to improve our defenses.
    Thank you very much to all of you for your leadership in 
recognizing the importance of this issue and for the $650 
million you recently appropriated for CISA to enhance our 
ability to protect the Nation against cyber attacks.
    As the United States approaches the 20th anniversary of 9/
11, we face a threat landscape that has significantly evolved. 
While we remain vigilant about the threat of foreign terrorism, 
ideologically-motivated domestic violent extremism now poses 
the most lethal and persistent terrorism-related threat to the 
homeland today.
    The January 6 attack on the U.S. Capitol and on American 
democracy is a searing example of this threat. With our Federal 
partners and our own Offices of Intelligence and Analysis, 
Civil Rights and Civil Liberties, and Privacy, we are working 
to assess the linkage between extremists' exploitation of 
social media and their acts of violence.
    We are expanding our intelligence and information-sharing 
capabilities, again consistent with privacy rights, civil 
rights, and civil liberties, as part of a whole-of-Government 
effort to combat domestic violent extremism.
    We are also equipping local communities with the tools to 
better address this threat. This year and for the first time, I 
directed our Homeland Security grant programs to make domestic 
violent extremism a National priority area, requiring 
recipients to spend at least 7.5 percent of their grant awards 
on combating domestic violent extremism.
    Across the Nation this year, States and urban areas will 
spend at least $77 million to prevent, prepare for, protect 
against, and respond to acts of domestic violent extremism.
    There is, of course, a great deal of attention focused on 
the Southwest Border where we are experiencing a surge of 
individuals attempting to cross the border. Most are single 
adults who are expelled within hours back to Mexico pursuant to 
the CDC's public health authority.
    Families who are apprehended at the border are also 
immediately expelled under the same public health authority 
unless we confront at times a limitation on Mexico's capacity 
to receive them.
    We are also encountering many unaccompanied children, 
children who arrive without a parent or legal guardian with 
them. Their families made the heart-wrenching decision to send 
them on a journey across Mexico to provide them with a better, 
safer future.
    The previous administration was expelling these 
unaccompanied children, some who are girls under the age of 12, 
for example, back to Mexico. We ended that practice.
    Unaccompanied children can make their claims for 
humanitarian relief in immigration proceedings as the law 
provides. If it is determined that they do not have a valid 
claim, they will be returned in a safe manner.
    We have taken a series of actions to address the increase 
in the number of unaccompanied children at the border. We have 
increased our capacity to hold the children until HHS can 
shelter them while it identifies and vets the children's 
sponsors. We are increasing HHS's capacity and I directed FEMA 
to support this effort.
    We have instituted the safe, orderly, and legal pathway for 
children's asylum claims to be heard so that they do not have 
to take the dangerous journey to our border. That pathway, the 
Central American Minors program, was torn down by the prior 
administration.
    These actions and more that we are taking are part of our 
plan to manage the arrival of individuals at our Southwest 
Border. The situation is undoubtedly difficult. We are working 
around the clock to manage it, and it will take time, but we 
will not waiver in our commitment to succeed. That is our job.
    We will also not waiver in our values and our principles as 
a Nation. In the Department of Homeland Security, we can and we 
will tackle the many challenges we face while complying with 
our legal obligations and honoring our Nation's values and 
principles.
    Thank you again for the opportunity to appear before you 
today and for your support of our Department. I look forward to 
working with you and to taking your questions.
    Thank you.
    [The prepared statement of Secretary Mayorkas follows:]
              Prepared Statement of Alejandro N. Mayorkas
                             March 17, 2021
                              introduction
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the committee, it is an honor to appear before you today as the 
Secretary of Homeland Security. It is a privilege to return to the 
Department and lead the more than 240,000 employees who dedicate 
themselves every day to the safety and security of our Nation.
    The Department of Homeland Security (DHS) confronts grave 
challenges, both seen and unseen, on behalf of the American people. The 
challenges include a deadly pandemic that has thrown every part of 
American life off its axis. Cyber attacks that target the Federal 
Government, our Nation's critical infrastructure, companies, and 
individuals alike. Terrorism, both foreign and domestic, that endangers 
our communities and our way of life. Extreme weather events and other 
impacts of the climate crisis that threaten lives and livelihoods. At 
the same time, we are rebuilding an immigration system that was 
systematically dismantled during the prior administration. We are 
making risk-based investments in our border management system to create 
safe, legal, and humane pathways to asylum and humanitarian protection.
    DHS is, fundamentally, a department of partnerships. Having been 
back at the Department for approximately 45 days, I continue to witness 
first-hand the importance of those partnerships. DHS interacts more 
with the American public on a daily basis than any other Federal 
department or agency. To succeed in our mission, the Department must 
forge close relationships with State, local, Tribal, and territorial 
(SLTT) governments and law enforcement stakeholders, international 
partners, other Federal agencies, the private sector, non-governmental 
organizations, and Congress.
    The Department must do this important work while always remaining 
faithful to the law, our mission, and our country's values. Upon 
entering office, I made a commitment to issue a long-delayed regulation 
to implement the bipartisan STOP Act, a law that will help reduce the 
flow of opioids into this country and save lives. I am pleased to say 
that we already have issued the regulation. I thank Members of 
Congress, on both sides of the aisle, for their leadership and support. 
The work of homeland security is not political.
    During my testimony today, I will highlight DHS's broad and diverse 
mission and the talented individuals throughout the Department who keep 
our country safe.
                    defeating the covid-19 pandemic
Supporting the Federal Response
    On the first day of his administration, President Biden challenged 
the Federal Emergency Management Agency (FEMA) to stand up 100 
Federally-supported Community Vaccination Centers in only 30 days. FEMA 
stood up 441 within the time period. Today, that number is almost 690 
and growing each day. President Biden also challenged us to deliver 100 
million vaccinations across the country in 100 days. We are well past 
79 million and on track to reach our goal.
    We are particularly focused on ensuring vaccine equity. FEMA is 
working with its partners to provide a supplemental allocation of 
vaccines above and beyond State allocations to accelerate access, and 
it is developing mobile vaccination sites that can more effectively 
reach vulnerable and rural populations. As a condition of FEMA's 
assistance, FEMA is requiring communities to gather the data needed to 
equitably distribute vaccines and ensure that no one is left behind. 
Further, FEMA is providing direct technical assistance to improve 
access to the vaccine by leveraging resources such as the Centers for 
Disease Control and Prevention's (CDC) Social Vulnerability Index when 
deciding where to locate vaccine sites. The President has committed to 
providing the vaccine to our entire population regardless of race, 
ethnicity, access to transportation, or immigration status. Those who 
lack legal status in this country should know that U.S. Immigration and 
Customs Enforcement (ICE) and U.S. Customs and Border Protection will 
not conduct immigration enforcement operations at or near vaccine 
distribution sites or clinics.
    To protect the traveling public and those who work in the 
transportation industry, the Transportation Security Administration 
(TSA) issued guidance to require mask use on commercial airlines and 
various modes of surface transportation effective February 1, 2021. It 
will do so pursuant to President Biden's Executive Order on Promoting 
COVID-19 Safety in Domestic and International Travel.
    ICE Homeland Security Investigations (HSI) also launched Operation 
Stolen Promise to protect the homeland from COVID-19-related fraud and 
criminal activity. Criminal organizations will undoubtedly continue to 
adapt and attempt to capitalize on the public demand for access to 
personal protective equipment such as N95 masks, vaccines, and other 
COVID-19 treatments as they are developed and approved or authorized, 
and will attempt to illegally introduce counterfeit or otherwise 
illicit versions into U.S. and global marketplaces. HSI, the U.S. 
Secret Service (USSS), and other Department resources are dedicating 
their skills and resources to identify and take down these criminal 
organizations.
Vaccinating the DHS Workforce
    As Secretary, I have no greater obligation than that of ensuring 
the health and safety of the DHS workforce, 80 percent of whom are 
front-line or public-facing employees. Five days into the Biden-Harris 
administration, DHS launched Operation Vaccinate Our Workforce (VOW) to 
accelerate the administration of COVID-19 vaccines to DHS employees on 
a voluntary basis and in accordance with CDC recommendations. Operation 
VOW is working with the Veterans Health Administration (VHA) to provide 
National access to vaccines for DHS front-line employees, pursuing SLTT 
partnerships to complement VHA options, and ensuring personnel are 
provided the time and resources necessary to get vaccinated. On the 
first day of the Biden-Harris administration, less than 2 percent of 
our front-line workforce had been vaccinated. Today, that share has 
grown to more than 26 percent.
        strengthening cybersecurity and critical infrastructure
    The recent cyber attack campaigns exploiting SolarWinds and 
Microsoft highlight the significant cybersecurity challenges our Nation 
faces. Beyond cyber espionage, cyber attacks can paralyze companies and 
entire cities and are among the most serious security threats our 
country confronts.
    The Department's Cybersecurity and Infrastructure Security Agency 
(CISA) leads Federal efforts to mitigate cybersecurity risks to the 
United States. Through the U.S. Coast Guard and TSA, DHS focuses on the 
cybersecurity of transportation, from aviation and rail to maritime and 
pipelines. The USSS and HSI combat 21st Century crimes, many of which 
are cyber-enabled. They play a pivotal role in identifying and 
apprehending the perpetrators of computer network breaches, ransomware 
attacks, and other cyber-enabled financial and cross-border crimes.
    In February, DHS announced initial steps to implement the Biden-
Harris administration's commitment to elevating cybersecurity across 
every level of government. The Department's immediate focus will be on 
securing Federal civilian networks, supporting SLTT governments to be 
more resilient, and protecting the Nation's critical functions. To do 
so effectively, DHS will further strengthen its partnerships with the 
private sector and invest in the infrastructure and people required to 
defend against malicious cyber attacks as part of a whole-of-Government 
effort.
Securing Federal Civilian Networks
    The recent cyber intrusion campaigns affecting Federal agencies and 
private-sector organizations are a clarion call to urgently improve our 
National cybersecurity and resilience. One of these malicious campaigns 
was undertaken by a highly sophisticated adversary, likely of Russian 
origin, that used unique techniques and skilled tradecraft to remain 
hidden for an extended period. DHS, through CISA, is leading the 
National effort to help impacted entities understand the scope of both 
compromises, remove adversaries from impacted networks, and provide 
guidance to reduce the likelihood of further compromise.
    DHS's own networks were compromised by the campaign exploiting 
SolarWinds, but the Department was able to continue to execute its 
mission. Since we first learned about the breach in early December 
2020, our teams have worked around the clock to respond. Since I became 
Secretary, we have also provided additional guidance to the DHS 
workforce on best practices. While our public-facing services were not 
affected and we no longer see indicators of compromise on our networks, 
we have more work to do to fully secure our network against future 
attacks. DHS networks and cybersecurity best practices should be a 
model for other civilian agencies.
    This campaign illuminated gaps in the cybersecurity posture of 
Federal and civilian networks. We must use this moment as an 
opportunity to make significant improvements. Congress recently 
appropriated $650 million in funding to strengthen CISA and ensure it 
has the resources and capacity to effectively implement its 
authorities, including those provided by Congress to CISA in the fiscal 
year 2021 National Defense Authorization Act. We are grateful to this 
committee for its support.
Supporting SLTT Partners to Increase Security and Resiliency Against 
        Malicious Cyber Activity
    The Department invested significant resources in helping SLTT 
officials secure the 2020 election through close collaboration. As this 
work continues, we must remain focused so election officials have the 
resources, training, and information necessary to safeguard our 
democracy against cybersecurity threats. We must also urgently protect 
the COVID-19 supply chain and health care facilities from malicious 
cyber activity. To meet this need, CISA launched a major effort to 
provide targeted cybersecurity assistance and support in coordination 
with the Department of Health and Human Services (HHS) and other 
Federal partners. CISA is also directly engaging with companies 
supporting vaccine clinical trials and manufacturing to help secure 
their networks.
    Ransomware also poses an increasing threat to public and private 
networks and our National security. SLTT governments, in particular, 
face unprecedented cybersecurity risks. DHS supports our SLTT partners 
by sharing information about these risks, providing assessments and 
guidance, and offering incident response or threat-hunting services 
upon request.
    Finally, the recent intrusion into a water treatment plant in 
Florida demonstrates a critical need to secure industrial control 
systems that underpin many essential functions. It is a top priority to 
ensure that owners and operators of facilities that rely on industrial 
control systems employ cybersecurity best practices, protect their 
critical infrastructure, and reduce malicious cyber activity. CISA is 
constantly working with businesses, communities, and governments at 
every level to make the Nation's critical infrastructure more resilient 
to both cyber and physical threats.
  rebuilding a fair and efficient immigration system and managing our 
                                borders
    The Biden-Harris administration is committed to rebuilding a safe, 
orderly, and humane immigration system. Let me be clear that the 
Department continues to enforce our immigration laws and responsibly 
manage our border, while we restore fairness and efficiency in our 
immigration system, which was systematically dismantled during the last 
4 years.
    The situation at our Southern Border cannot and will not be 
transformed overnight, due in large part to the damage done over the 
last 4 years. Our primary responsibility is to keep our homeland and 
the American people safe. We are safer when we take a more 
comprehensive and sustainable approach to border management, ensuring 
that policies and procedures at the border are consistent with American 
values, immigration laws, and regulations.
Addressing the Current Challenges at the Border
    The Department is responding to historic and unprecedented 
challenges at the border, including the arrival of record levels of 
unaccompanied children. DHS has deployed multi-faceted strategies to 
address the need at the border, including tapping FEMA resources, 
activating our volunteer workforce to assist with DHS's response, 
engaging our chief medical officer and his team on ensuring COVID-19 
safety at every step of the process, and expanding DHS's processing 
capacity. We are also working with HHS, which has the responsibility 
for care and custody of unaccompanied children, to ensure that HHS 
increases its capacity and fulfills its responsibilities more 
efficiently and expeditiously.
    The Biden-Harris administration is fully committed to addressing 
long-standing migration challenges in the region and at the border. 
There is no single solution that will adequately address these 
challenges. First, the most sustainable solution is to address the root 
causes that drive people to migrate in the first place. We must engage 
with regional governments and other partners to alleviate the 
insecurity, violence, corruption, and systemic poverty that drives 
migrants from their homes. Second, we must work with regional 
governments and international humanitarian organizations to provide 
potential migrants with meaningful opportunities to seek protection, 
including through potential migration avenues, from as close to home as 
possible. These opportunities should include refugee resettlement and 
family reunification programs in the United States and other countries 
in the region, and regional relocation and integration programs. Third, 
we must ensure shared responsibility with other countries in the region 
by supporting their efforts to improve their asylum adjudication 
capabilities and protect migrants. Finally, we must dramatically 
improve our system for processing migrants at the border and 
adjudicating their asylum claims in a fair and timely way.
    While these efforts will dramatically improve migration management 
in the region and help to restore safe and orderly processing at the 
border, they will take time, as the President noted. Addressing long-
standing challenges after the dismantling of the system cannot be 
accomplished overnight.
Reunifying Families
    President Biden has made one of his top priorities reversing the 
effects of the previous administration's cruel immigration policies 
that separated parents from their children to deter others from seeking 
to enter this country. Families belong together. The Biden-Harris 
administration will protect family unity and ensure that children 
entering the United States are not separated from their parents for the 
purpose of reducing immigration flows. Separations will only occur when 
it is unavoidably necessary, such as for the safety and well-being of 
the child or as required by law. Under the leadership of Executive 
Director Michelle Brane and guided by a statement of principles that I 
issued on March 1, 2021, the Family Reunification Task Force will 
urgently reunite separated families and make recommendations regarding 
the provision of services to support their recovery from the trauma of 
separation. The Task Force is exploring how best to support these 
efforts. We will work closely with this committee, the other Members of 
Congress, and our partners in the private sector to achieve this moral 
imperative through an all-of-society effort.
Ending the Migrant Protection Protocols (MPP)
    On February 19, DHS began winding down MPP by paroling certain 
individuals into the United States through a phased strategy developed 
in close coordination with the Department of State and the Department 
of Justice (DOJ), the Government of Mexico, international humanitarian 
organizations, and domestic non-governmental organizations. In 
conjunction with these agencies and organizations, DHS has established 
a triaging system in northern Mexico to identify, prioritize, and 
funnel MPP cases to select U.S. ports of entry consistent with our 
capacity to safely process individuals at those ports. This process 
includes testing and other robust COVID-19 protocols and close 
coordination with local stakeholders, including SLTT governments. In 
this initial phase, we are processing individuals who are enrolled in 
MPP, have cases pending before DOJ's Executive Office for Immigration 
Review, and do not pose a National security or public safety risk. This 
is part of our broader plan to address the challenges at our Southern 
Border.
Improving our Asylum System
    We are working to dramatically improve the time spent processing 
and adjudicating certain asylum claims made at the Southern Border. The 
asylum program was dismantled over the last 4 years, in both DHS and 
DOJ. Rebuilding the system will address many of the operational issues, 
along with the on-going processing delays. DHS's U.S. Citizenship and 
Immigration Services and the DOJ's Executive Office for Immigration 
Review, the 2 agencies that share responsibility for processing asylum 
cases, are significantly overloaded with cases and straining under 
significant backlogs, making it extremely difficult to hear cases and 
adjudicate claims efficiently and effectively. In some locations, there 
is a more than 4-year waiting period for a final hearing.
    We are exploring the various options for increasing the fairness 
and efficiency in processing asylum claims. We are also exploring the 
option, in consultation with DOJ, of building a system that will allow 
asylum officers to consider more cases in the first instance. We 
believe this change could result in cases being heard and adjudicated 
more efficiently.
Strengthening Enforcement and Removal Policies
    Last month, ICE issued interim guidance to its workforce to focus 
its law enforcement efforts and resources on threats to National 
security, border security, and public safety. These priorities have 
enabled our limited resources to be expended most effectively. I will 
assess the results of this interim guidance to inform the issuance of 
longer-term enforcement and removal priorities.
Immigration Reform
    I look forward to working with Congress on restoring humanity and 
American values to our immigration system, including through 
legislative action that:
  <bullet> provides pathways to citizenship for hard-working people who 
        enrich our communities every day and who have lived in the 
        United States for years, in some cases for decades;
  <bullet> allows undocumented individuals to apply for temporary legal 
        status, with the ability to apply for lawful permanent 
        residency after 5 years if they pass criminal and National 
        security background checks and pay their taxes;
  <bullet> modernizes our immigration system, and prioritizes keeping 
        families together;
  <bullet> clears employment-based visa backlogs, recaptures unused 
        visas, reduces lengthy wait times, and eliminates per-country 
        visa caps;
  <bullet> protects workers from exploitation, ensures fairness for 
        U.S. workers, and improves the employment verification process;
  <bullet> codifies and funds the President's $4 billion 4-year 
        interagency plan to address the underlying causes of migration 
        in the region; and,
  <bullet> creates safe and legal channels for people to seek 
        protection.
           stopping the threat of domestic violent extremism
    Terrorist threats to the United States have evolved and become more 
diverse since the attacks on September 11, 2001. Pernicious threats, 
both foreign and domestic, remain. Currently, the most significant 
terrorist threat facing our Nation comes from lone offenders and small 
groups of individuals who commit acts of violence that are motivated by 
a broad range of extreme racial, political, religious, anti-Government, 
societal, and personal ideological beliefs.
    Domestic violent extremism is typically fueled by false narratives, 
conspiracy theories, and extremist rhetoric usually spread through 
social media and other on-line platforms. The lethality of this threat 
is evidenced by the attack on the U.S. Capitol on January 6, 2021, and 
other recent attacks across the United States, including against 
Government buildings and personnel and minority groups. Combatting this 
violence requires a whole-of-Government approach, which I have already 
initiated at DHS in collaboration with key partners, including DOJ, to 
help ensure the violence and assault on democracy that occurred on 
January 6 does not occur again.
    This year, and for the first time, I designated ``combating 
domestic violent extremism'' as a National Priority Area for the fiscal 
year 2021 State Homeland Security Program (SHSP) and Urban Area 
Security Initiative (UASI) grant programs. Recipients of these grants 
will be required to spend at least 7.5 percent of their awards on 
combating domestic violent extremism, resulting in at least $77 million 
in grant funding being spent on building the capability to detect and 
protect against threats from domestic violent extremism. Additionally, 
the $20 million Targeted Violence and Terrorism Prevention Grant 
Program supports the implementation and evaluation of innovative 
community-based prevention programs and identifies efforts that are 
demonstrably effective to replicate them across the country. The 
Department also continues to increase support for establishing and 
enhancing local prevention programs through the provision of financial, 
educational, and technical assistance services.
    I have directed an expansion of our analytic focus, including to 
more comprehensively assess how extremist actors exploit and leverage 
social media and other on-line platforms, and how those on-line 
activities are linked to real-world violence. The Department will share 
related findings with SLTT government and law enforcement partners.
    The Department will also expand its intelligence and information-
sharing capabilities, particularly with SLTT and international 
partners, including to more comprehensively assess the transnational 
elements associated with certain domestic extremist movements.
    Further, DHS will continue to disseminate intelligence to the 
broadest audience, at the lowest classification level possible, while 
protecting privacy, civil rights, and civil liberties. In January, the 
Department issued the first National Terrorism Advisory System (NTAS) 
Bulletin in more than a year. It warned the American public about the 
threat from ideologically-motivated violent extremists. The Department 
will continue to leverage the NTAS as a critical tool, among others, 
for communicating with the public.
    Continued support from the public is essential to identifying and 
reporting suspicious activity and threats of violence, especially on-
line. DHS is enhancing its public awareness campaigns and resilience to 
disinformation and other false narratives that inspire domestic 
extremist violence by updating its ``If You See Something, Say 
Something'' campaign and refreshing its Nation-wide Suspicious 
Activity Reporting Initiative to facilitate our partners' ability to 
identify, evaluate, and report tips related to terrorism, regardless of 
ideology. DHS is also working to support the efforts of technology 
companies and other private-sector partners to curb on-line recruitment 
and radicalization to violence.
    To ensure the Department is able to adequately address the evolving 
threat in this area longer-term, I look forward to working with 
Congress to examine our current legal authorities to access, collect, 
integrate, and share information posted on social media and other on-
line platforms and consider whether there may be opportunities to 
enhance DHS's ability to take actions that would protect the public, 
consistent with privacy, civil rights, and civil liberties.
               building and championing the dhs workforce
    Ensuring that DHS reflects the public it serves is a top priority. 
It is the right thing to do and it also helps us successfully meet our 
mission. Although the Department's workforce is among the most diverse 
across the Federal Government, our work to ensure diversity, equity, 
and inclusion across DHS remains far from over. DHS will invest in 
recruiting, training, and retaining more women, people of color, and 
minorities, including in leadership positions across the Department. 
DHS will also develop innovative solutions to hiring, including through 
existing programs and new initiatives that expand our recruitment 
footprint in underrepresented and underserved communities.
    Having served at the Department before, I know what a privilege it 
is to work alongside the passionate and mission-driven employees at 
DHS. On my first day, I committed to supporting this workforce with 
everything I have, including by providing them the resources they need 
and the opportunities they deserve.
    This past year has presented immense challenges for our workforce. 
As of March 12, 58 of our beloved DHS colleagues have lost their lives 
due to COVID-19. In the recently released Federal Employee Viewpoint 
Survey, DHS lags behind Government-wide averages for concern about 
employees' health and safety during the COVID-19 pandemic. On my watch, 
that will change.
    I look forward to directly engaging with DHS employees to fully 
understand what they need to accomplish our critical mission. I will 
also work closely with our unions as key partners to achieve our shared 
goal of protecting and advancing the well-being of our personnel.
                               conclusion
    Thank you for the opportunity to appear before you today and for 
this committee's continued support of our Department. As the Department 
tackles near- and long-term priorities, I am committed to partnering 
with Congress in service of the American people.
    Thank you.

    Chairman Thompson. I thank the Secretary for his testimony.
    I remind each Member that he or she will have 5 minutes to 
question the witness.
    I now recognize myself for questions.
    Mr. Secretary, the majority of this committee was here on 
January 6 when the insurrection occurred. You were not 
Secretary, but you have had a chance to, I am sure, review some 
of the reports that have been generated.
    Can you tell us, in your review of what occurred and what 
led up to the January 6 insurrection, are you reviewing that 
process right now?
    Secretary Mayorkas. Mr. Chairman, thank you very much for 
your question. I just want to start on a personal note.
    I was brought to this country by my parents because of 
everything that the Capitol represents to the American people 
and because of everything that all of you on this committee do, 
which is serve and represent the American people. We came 
because of the democracy that we learned so quickly to cherish. 
What occurred on January 6 was heartbreaking, and I know some 
of you experienced it personally in great fear.
    I certainly am reviewing the events that led up to that 
horrible day. I am also mindful of the fact that there are 
criminal investigations under way to address individuals who 
broke the law and perpetrated the crimes of January 6. So I 
conduct my review and I receive my briefings mindful of the 
sensitivities of pending criminal investigations and 
prosecutions.
    It is very much a focus of the Department of Homeland 
Security, of mine personally. As I mentioned in my opening 
remarks, domestic violent extremism is one of the gravest and 
most persistent threats that we as a country face, and we are 
fully engaged in addressing it.
    Chairman Thompson. Thank you very much.
    Since we will probably hear a lot of discussion about the 
border, what is the status of children who are separated from 
their parents on the border?
    Secretary Mayorkas. Mr. Chairman, the children who were 
separated from their parents under the Trump administration are 
the subject of an intense effort and an all-of-Government 
effort directed by President Biden to find the parents and 
reunite the families and restore our Nation to its core 
principles and values.
    We appointed an incredibly talented and dedicated executive 
director, Michelle Brane, to lead the task force. I am the 
chair, along with the Secretaries of State, Health and Human 
Services, and the Attorney General of the United States. This 
is a full-time effort by talented and dedicated individuals not 
only in the Department of Homeland Security, but in the other 
departments that I mentioned.
    We look forward to working with this committee, with other 
Members of Congress, and harnessing the talent and resources of 
the private sector and community-based organizations in this 
effort. We have an obligation to find the parents and to 
reunite those families.
    Chairman Thompson. Thank you very much.
    Earlier this month, while visiting a FEMA vaccination 
center in Philadelphia, you expressed the view that a person's 
socioeconomic status, race, ethnicity, access to 
transportation, or immigration status should not impact their 
ability to receive a vaccine. I could not agree with you any 
more.
    Can you share with the committee how you are making that a 
reality?
    Secretary Mayorkas. Mr. Chairman, the issue of equity is a 
core foundation of the all-of-Government effort to address and 
tackle the challenge of the COVID-19 pandemic.
    FEMA uses a Social Vulnerability Index that addresses the 
vulnerabilities that you identify in ensuring that the 
placement of the community vaccination centers address the 
issue of equity and equality of access to the vaccines.
    I will share with you that I participate, along with other 
Cabinet members, in a weekly meeting led by Jeffrey Zients, who 
leads the all-of-Government effort on behalf of President 
Biden, and the issue of equity and the emphasis on equity 
begins our discussions every week. It is uppermost in our 
minds, and that too is a core obligation of ours.
    Chairman Thompson. Thank you very much.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. Katko, for his questions.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for the way you have been 
accessible and have reached out to me several times. We have 
had several good discussion already, and I appreciate us 
getting off on the right foot.
    I want to commend all of the men and women at the 
Department of Homeland Security and all the components for the 
great work they do every day.
    I encountered many of those this week, this weekend in El 
Paso, where I started my career as a prosecutor and where I 
went after cartels. I know from then and I know now that they 
are the front-line people, they are the front-line workers, and 
the discussions you have with them really ring true.
    After discussing things with them, it became that much more 
apparent about what is going on at the border. As we discussed 
yesterday in our phone call, I have got a series of questions 
that really require just a yes-or-no answer, and I would 
appreciate it if you would just go through those quickly and if 
you could confirm some of these for me.
    First of all, do you agree that President Biden signed 
multiple Executive actions on his first day in office to, No. 
1, halt border wall construction; No. 2, end the Remain in 
Mexico policy; and, No. 3, cancel asylum agreements with 
Central American partners?
    Secretary Mayorkas. I do. If I may, Mr. Ranking Member, I 
appreciated our 2 conversations thus far and the spirit of 
partnership to which we are both committed. I share your 
background as a Federal prosecutor, and I know we will 
accomplish a great deal together.
    May I just say one quick thing about the men and women----
    Mr. Katko. If you can, sir--yes, you can, but just be very 
brief because I have several questions.
    Secretary Mayorkas. I will, because I share your tremendous 
pride in the men and women of the Border Patrol and in the men 
and women across the Department of Homeland Security.
    When I took office on February 2, 2 percent of the front-
line Border Patrol personnel had been vaccinated. What I heard, 
first and foremost, was the fact that their health and well-
being had not been taken care of.
    We launched Operation VOW, Vaccinate our Workforce, and 
over 26 percent of the front-line personnel are now vaccinated.
    Mr. Katko. Thank you, Mr. Secretary.
    Secretary Mayorkas. Thank you.
    Mr. Katko. I don't mean to cut you off, but I do have many 
questions. I do appreciate you taking care of the agents. That 
is very commendable.
    Secretary Mayorkas. Thank you.
    Mr. Katko. Also, do you agree that Customs and Border 
Protection encountered more than 100,000 individuals in 
February, which was a 173 percent increase from February 2020? 
Just yes or no.
    Secretary Mayorkas. The numbers with respect to February of 
this year are accurate, Mr. Ranking Member.
    Mr. Katko. Thank you. Can you confirm that----
    Secretary Mayorkas. And 2020 is not the----
    Mr. Katko. Can you confirm that Customs and Border 
Protection's Donna facility was recently at over 700 percent 
capacity?
    Secretary Mayorkas. I don't have the precise figure. It was 
certainly over capacity, Mr. Ranking Member.
    Mr. Katko. Thank you.
    Secretary Mayorkas. We are addressing that.
    Mr. Katko. Thank you.
    Can you confirm that Homeland Security has asked for 
volunteers to help manage the ``overwhelming'' number of 
migrants at the border?
    Secretary Mayorkas. I am sorry, can you repeat the 
question, Mr. Ranking Member?
    Mr. Katko. Sure.
    Secretary Mayorkas. Thank you.
    Mr. Katko. Can you confirm that Homeland Security has asked 
for volunteers to help manage the ``overwhelming'' number of 
migrants at the border?
    Secretary Mayorkas. We have certainly called upon the 
volunteer work force to assist in managing the border----
    Mr. Katko. Thank you.
    Secretary Mayorkas [continuing]. As we have done before and 
we have done in many circumstances to address the varied 
mission of the Department of Homeland Security. I am 
extraordinarily proud of our volunteers.
    Mr. Katko. Thank you, sir.
    Can you confirm that over the weekend you directed FEMA to 
help receive, shelter, and transfer unaccompanied children from 
the Southwest Border?
    Secretary Mayorkas. Yes, indeed.
    Mr. Katko. Thank you.
    FEMA was the same agency who is charged with the first 
Nation-wide disaster order in handling the pandemic and 
distributing vaccines?
    Secretary Mayorkas. It most certainly is, and it is 
extraordinarily capable in addressing the many challenges that 
we throughout the Department of Homeland Security and 
throughout the Nation confront.
    Mr. Katko. Thank you.
    Secretary Mayorkas. This is not the first time that we have 
deployed the fantastic people of FEMA to address different 
challenges throughout the country.
    Mr. Katko. I understand, sir. Thank you.
    Can you confirm that in order to pay for the response to 
the surge at the border, it is highly likely that you are going 
to need supplemental appropriations from Congress?
    Secretary Mayorkas. That is not certain by any means, Mr. 
Ranking Member, and I certainly will stay in close touch with 
you with respect to the financial impacts of the work that we 
are performing, not only in this mission set but across the 
Department.
    Mr. Katko. OK. Now, a couple quick questions.
    If you agree with the facts that we have set out, and I 
appreciate your candor, and you said earlier in your testimony 
that the situation at the border is undoubtedly difficult. 
Given the tremendous rise in surge of individuals coming to the 
border, wouldn't it be fair to call it a crisis? Because that 
is what your agents are calling it.
    Secretary Mayorkas. Mr. Ranking Member, first of all, if I 
may, I didn't necessarily agree with all of the stats, the 
statistics that you cited.
    Mr. Ranking Member, I am not spending any time on the 
language that we use. I am spending time on operational 
response to the situation at the border.
    Mr. Katko. OK. Just 2 quick questions, Mr. Chairman. I know 
I am almost done here.
    Secretary Mayorkas. That is what I am focused on.
    Mr. Katko. Despite our disagreements and despite language 
characterizations, I want to talk about solving problems, and I 
just want to get a commitment from you on 2 things.
    No. 1 is that you are open to working with Members of 
Congress, regardless of whether they are Democrats or 
Republicans, to reverse the disorder at the border?
    Secretary Mayorkas. I will be a partner of Members of 
Congress, regardless of party.
    Mr. Katko. OK. Last--Mr. Chairman, thank you for your 
indulgence--will you commit to encouraging the President to 
accept Leader McCarthy's well-intentioned invitation to discuss 
the border crisis--and I would like to be there too if I 
could--on how we could come together to fix it?
    Secretary Mayorkas. Mr. Ranking Member, I will defer to the 
President to how he believes he should conduct the meetings 
that he hosts.
    Mr. Katko. Thank you, Mr. Secretary.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes other Members for questions they 
may wish to ask the witness. I will recognize Members in order 
of seniority, alternating between Majority and Minority.
    Members are reminded to unmute themselves when recognized 
for questioning and then mute themselves once they have 
finished speaking and to leave their cameras on so they are 
visible.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much for 
your leadership.
    To the Secretary, it is good to see you again. We have 
worked together before.
    My time is short. My questions will try to be as short as 
possible, if your answers could be likewise.
    I am outraged about the shootings in Atlanta. Thank you for 
starting out. We offer our deepest sympathy. Six of those 
individuals seem to be Asian out of 8.
    What is the Department going to be doing about, even though 
the investigation has not proceeded, what may be domestic 
terrorism or hateful acts, violent acts against communities 
like Asian Americans which have seen a surge in hateful acts?
    Mr. Secretary, very quickly.
    Secretary Mayorkas. Congresswoman, it is nice to see you 
again as well.
    I won't comment on the tragedy of yesterday because it is 
under investigation, but we are intensely focused on the 
greatest threat that we face in the homeland from a terrorism 
perspective, as I mentioned at the outset, and that is domestic 
violent extremism, violence that is motivated by different 
ideologies, including ideologies of hate against particular 
social groups.
    Ms. Jackson Lee. I appreciate it. I hope that we will focus 
on Asian Americans as we have done on other groups, and 
certainly we know that African Americans have been the targets 
of White supremacy and White racism.
    Let me move quickly to the border and indicate to you, Mr. 
Secretary, that this administration has a border policy. I 
congratulate you for it. It is not a policy of putting children 
in cages, which we had to suffer for year after year of the 
Trump administration. There are no children in cages.
    So I would simply ask this. I applaud the utilization of 
FEMA, and I applaud the utilization of a policy. Can you 
succinctly say what that policy is as it relates to the border 
and your policy for moving children, who are now moving to 
temporary sites like Midland and Dallas, to a process where 
they can seek asylum and/or go to their custodial 
representative in this country?
    Mr. Secretary.
    Secretary Mayorkas. Congresswoman, the border is secure and 
the border is not open. We are expelling, under the CDC's 
public health authority in light of the pandemic, single 
individuals who arrive at the border. We are expelling families 
under that same public health authority, limited only by the 
capacity of Mexico to receive them.
    We are not expelling children who arrive unaccompanied, 
without a parent or legal guardian, and we are caring for their 
custody and their sheltering in HHS's responsibility to place 
them with sponsors so that they can proceed with their 
immigration proceedings and their claims for humanitarian 
relief under the laws of this country in a safe and orderly 
way.
    Ms. Jackson Lee. Thank you, Mr. Secretary.
    As it relates to COVID-19, our State has always been a 
hotspot, Texas. Let me quickly cite legislation that I have, 
the COVID Delivery Act of 2020 and 2021. I just want to 
emphasize the value of FEMA, want to acknowledge Tony Robinson, 
Region 6 administrator, and the Texas Department of Emergency 
Management, they have been working beautifully. But I want to 
emphasize that I think FEMA can stand up and do more as it 
relates to monitoring shipments. I think they can do more by 
establishing an app that would help, working with HHS, to sort-
of monitor the vaccines as they are coming forward.
    So I just want to be able to work with you on ideas of how 
FEMA can be more effective in the COVID-19 fight. Would you 
work with me on that?
    Secretary Mayorkas. I most certainly will, and I appreciate 
the recommendation and the request.
    Ms. Jackson Lee. Finally, we are all aware of the horrible 
breach that came about through SolarWinds, and you mentioned it 
in your presentation.
    So I would really like you to answer the question regarding 
the importance of having shared vulnerabilities, meaning that 
we have a system--and I, of course, have legislation, but I 
want to just focus on the concept of making sure that we know 
the private vulnerabilities and the public vulnerabilities and 
that they are shared under the umbrella of CISA.
    Would you comment on that? We need to know the 
vulnerabilities so that we can begin to address the 
vulnerabilities? We can't have that kind of major breach.
    Secretary Mayorkas. Congresswoman, thank you so much for 
that question because it returns to a statement that I made at 
the very outset, and that is that the Department is a 
Department of partnerships, and the public-private partnership 
is especially important in enhancing our Nation's 
cybersecurity.
    The Cybersecurity and Infrastructure Security Agency, CISA, 
within the Department of Homeland Security, is on point for 
enhancing that partnership, and critically important to that 
partnership is the sharing of information both by the private 
sector and the Federal Government.
    By understanding the vulnerabilities, by the attacks that 
individual organizations suffer, by learning from them 
collectively, we will enhance our Nation's cybersecurity, and 
that is one of our critical mission sets.
    Ms. Jackson Lee. Thank you so very much. Thank you for the 
work of the men and women of the Department of Homeland 
Security. Look forward to working with you.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. McCaul.
    Mr. McCaul. Congratulations to you on your recent 
confirmation.
    You know, you and I, I think, have seen this movie before. 
In 2014, when I was Chairman of this committee and you were 
deputy secretary of DHS, Obama called the surge of migrants at 
the Southern Border a humanitarian crisis, and he was right. 
Today we are seeing another surge at our Southern Border.
    We have both seen this movie before, and we know the plot, 
and we know the outcome.
    As chief of counterterrorism and National security for the 
U.S. attorney in Texas, I learned that deterrence does work 
first-hand. In fact, Mr. Secretary, you were a Federal 
prosecutor in a border State yourself.
    I believe that words do matter. I know you mentioned that 
maybe the language doesn't matter. I think words do matter. I 
think you sent exactly the wrong message when you stated, ``We 
are not saying don't come; we are just saying don't come now.'' 
That is not a message of deterrence.
    The Trump administration, in my judgment, did a masterful 
job in negotiating the Remain in Mexico policy and the Asylum 
Cooperative Agreements with Central America. It was actually a 
foreign policy achievement, and it worked. Migrants would have 
to wait in Mexico for their asylum trial and the border was 
under control.
    However, with the stroke of a pen on Inauguration Day by 
President Biden, these policies have been suddenly reversed and 
canceled. Cartels and traffickers see that the green light is 
on at our Southern Border and the United States is open for 
business again. Again, the message is: Come on in.
    Just like that, Catch and Release has returned as a policy 
of this Nation, and so, Mr. Secretary, has the threat. Migrants 
are given a date to appear in court and suddenly disappear. The 
children are the victims, and the cartels are celebrating this 
victory.
    So, with all due respect, this administration has created 
this crisis by rescinding these agreements. Just yesterday you 
said, ``We are on pace to encounter more individuals on the 
Southwest Border than we have in the last 20 years.''
    That is staggering. But I appreciate your honesty. I agree 
with you, it is going to be the most we have seen in 20 years. 
You may call that only a challenge, but I call that a crisis.
    So I must ask this question: Why in the world did this 
administration and President Biden basically shred the Trump 
administration's asylum agreements with Mexico and Central 
America?
    This administration's actions have had a direct cause and 
effect on this humanitarian and border crisis. What was this 
administration and the President thinking?
    Secretary Mayorkas. Congressman, it is nice to see you 
again, and I am very proud of the work that we did together 
when I was the deputy secretary and you were the Chairman of 
this very esteemed committee.
    Sometimes the tools of deterrence defy values and 
principles for which we all stand, and one of those tools of 
deterrence that the Trump administration employed was 
deplorable and absolutely unacceptable.
    If we want to speak of language, then let me speak of 
language. I will share with you how I define a crisis.
    A crisis is when a Nation is willing to rip a 9-year-old 
child out of the hands of his or her parent and separate that 
family to deter future migration. That to me is a humanitarian 
crisis.
    What the President has committed to, and what I am 
committed to and execute, is to ensure that we have an 
immigration system that works and that migration to our country 
is safe, orderly, and humane.
    Mr. McCaul. I was against separation of families as well. 
But let me just say this. By rescinding these, I think--you 
know, I am now the Republican leader of the Foreign Affairs 
Committee, so I look at this also from a foreign policy 
standpoint. I think it was a blunder to rescind these 
agreements which have created this exact problem and have put 
these children in jeopardy and you are seeing the separation 
again.
    Again, I think what is happening down there--and I have 
been--you and I have been down there so many times--the kids, 
children, babies down there, what a humanitarian crisis it is.
    I don't think it is a coincidence that on Inaugural Day, 
the President rescinded this foreign policy, and then all of a 
sudden, within February, we have hundreds of thousands of 
people coming in and have projected a million by the end of the 
year.
    Secretary Mayorkas. Congressman, let me, if I may, make 2 
points.
    No. 1, in fact we have seen migration surges before; 2019 
was extraordinary; 2014; and before then.
    The bottom line is--and this is something about which we 
all agree--the immigration system is broken, and it is in need 
of legislative reform. The President presented a bill, and 
there are bills pending before the House.
    Hopefully this year--and I am confident and optimistic--
that we will actually begin, once and for all, to fix a system 
that everyone agrees is broken.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from Rhode Island for 5 
minutes, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
for convening this hearing.
    Mr. Secretary, happy St. Patrick's Day. Welcome before the 
committee. I want to congratulate you on taking over as the 
Secretary of Homeland Security. I certainly look forward to 
working with you going forward.
    Secretary Mayorkas, I appreciate certainly my colleagues' 
concern about border security, though I have to say I wish they 
had raised them with the prior administration instead of 
focusing myopically on a wall.
    But I am concerned that we are losing real sight of the 
real threat that we face. Physical borders aren't the only 
thing that we have to be concerned with. We have seen in the 
last several months some of the most persuasive cyber incidents 
in our Nation's history.
    What is more, these incursions into our cyber space are at 
the behest of our greatest adversaries, particularly China.
    So, Mr. Secretary, I want to start off by asking you how 
you view cyber threats that we face as a Nation.
    Secretary Mayorkas. Congressman, I want to thank you for 
your focus and your leadership on this important mission set. 
As I mentioned before, I want to thank the committee for its 
support of our Department and the infusion of much-needed 
resources to CISA, Cybersecurity and Infrastructure Security 
Agency.
    This is one of my foremost urgent priorities, for the very 
reason you articulate. The cyber threats that our country faces 
from nation-state actors, as well as individual actors, cannot 
be overstated. The threat to critical infrastructure cannot be 
overstated, and we have seen that in a number of exploitations 
in recent months and over the past several years.
    We have incredibly dedicated and talented individuals who 
are focused on it. The President has identified this as well as 
a critical mission set. Anne Neuberger is an extraordinary 
appointment as the deputy national security advisor focused on 
cybersecurity. This too is an all-of-Government effort.
    Mr. Langevin. Thank you, Secretary, and I am glad you 
touched on critical infrastructure.
    I am a big proponent of the Cybersecurity and 
Infrastructure Security Agency's work on risk analysis. In 
fact, I authored a provision in last year's NDAA codifying 
responsibilities of sector risk management agencies to support 
that work.
    Now, recent events, whether the cyber incidents tied to 
SolarWinds or Microsoft Exchange Server or the frigid 
temperatures in Texas, have demonstrated how the failure of a 
few important assets supporting National critical 
infrastructure, National critical functions, can have cascading 
and often devastating effects.
    So the Cyberspace Solarium Commission, on which I serve as 
a commissioner, has suggested the concept of systemically 
important critical infrastructure, or SICI for lack of a better 
term, but as a framework for managing these risks.
    So, Secretary, do you believe that SICI, based as it is on 
work the Obama administration did as part of Executive Order 
13636, is a useful framework for managing risk, particularly 
cyber risks?
    Secretary Mayorkas. Congressman, thank you.
    I do, and that is very much a subject of our discussion. I 
really appreciate your focus on critical infrastructure. It is 
a subject that I discussed with the leadership in the 
Department of Homeland Security on cybersecurity just a few 
days ago, because that is indeed a critical, critical area upon 
which we all must focus. I truly appreciate your work on the 
commission.
    Mr. Langevin. Thank you, Secretary.
    Also, the Solarium Commission believes that DHS is really 
the linchpin in helping to mitigate risk before cascading 
failures occur. Do you agree with this assessment?
    How are you engaging with your fellow Cabinet Secretaries 
and the White House to better manage risks to systemically 
important entities?
    Secretary Mayorkas. Thank you, Congressman.
    Certainly the Department of Homeland Security, and CISA in 
particular, has a key role to play in the Federal Government 
architecture. As I mentioned earlier in response to the 
Congresswoman's question, the public-private partnership is 
key, and we are, of course, on point for that.
    I had a very important meeting with Ms. Neuberger just this 
past Monday morning, and we spoke about everything that we are 
doing across the Federal Government in executing the 
President's direction, that indeed we bring all resources to 
bear, because each one of us has different assets, different 
capabilities, and different responsibilities.
    This is really--it is not just an all-of-Government effort. 
I think as you have correctly noted in the past, it is an all-
of-Nation effort, because here in cybersecurity we say that we 
are only as strong as our weakest link.
    So I share your view that we must work, all of us together 
in partnership, to address the challenge.
    Mr. Langevin. Thank you, Mr. Secretary.
    I know that my time has expired. But I believe that 
Congress, and particularly this committee, are key partners 
with the Department to better protect SICI.
    I hope this committee, Mr. Chairman, would hold a hearing 
on this important topic.
    Secretary, I hope that you would commit to working with us 
to address this systemic challenge.
    Secretary Mayorkas. I most certainly will.
    Mr. Langevin. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service to our country.
    I have to say, though, that this meeting, this hearing, for 
many Americans watching this, has been quite nauseating thus 
far, the carefully-read scripted statements.
    I am not sure you are here to answer questions, sir. I 
suspect that you are here to present a prepared narrative to 
the inquiries of Congress.
    You have stated that we are not saying don't come; we are 
saying don't come now. I can tell you, my sources tell me they 
are coming now, and they are coming through the year. You are 
looking at the cartels have 2 million in the pipeline. We are 
absolutely looking at a 20-year high for illegal crossings at 
our Southern Border.
    My colleagues across the aisle not even mentioning the 
cartels. America is watching this. For God sakes, we are going 
to blame President Trump?
    You mentioned a 2019 surge. Yes, we had a surge in 2019 
because the cartels were paying attention to the election cycle 
in 2018 when the Democrats took the Majority. We had to use 
every available legal power to reestablish control in 2019. We 
did. We had this thing down to a manageable threat.
    What happened? We have a 2021 surge? Why? Let me just put 
it out there. What happened between the control that we had and 
what we have now? We had the election in November 2020, and 
President Biden was inaugurated on January 20.
    Americans know it. They get it. The cartels are paying 
attention. They have loaded up their pipeline. We have got 2 
million illegal immigrants headed our way, and I don't believe 
you have a plan to deal with it.
    Let me say regarding FEMA, if there is not a crisis or 
humanitarian disaster at the Southern Border, then may I please 
suggest we take our FEMA disaster response teams deployed there 
and send them somewhere where they are needed, like my district 
in southwest Louisiana, where there are still hurricane victims 
waiting on temporary housing.
    Let me ask you a question, and perhaps you can answer, Mr. 
Secretary. Do you agree that the world is currently 
experiencing a pandemic? Does the world include nations such as 
Mexico, Guatemala, Honduras, El Salvador, Colombia, Venezuela, 
Panama, Cuba, China, Iran? Is the world experiencing a 
pandemic?
    Secretary Mayorkas. Congressman, let me assure you of one 
thing before I answer your question, which is, despite our 
strong differences of opinion, I look forward to working with 
you toward shared goals.
    Mr. Higgins. That is very kind of you. Are we experiencing 
a pandemic?
    Secretary Mayorkas. Of course the world is experiencing a 
pandemic, Congressman.
    Mr. Higgins. OK. We are experiencing a pandemic, and we are 
experiencing massive surges of illegals crossing our Southern 
Border. You are the head of Department of Homeland Security. 
Are we testing individuals in the facilities prior to their 
release into the United States?
    Secretary Mayorkas. It is indeed----
    Mr. Higgins. Simple question.
    Secretary Mayorkas. I have a very direct answer. Thank you, 
Congressman.
    It is indeed our policy to test individuals before 
releasing them. We have a process----
    Mr. Higgins. Are we testing before or after they are 
processed?
    Secretary Mayorkas [continuing]. We have a process set up 
to do so. If you would like, I can explain that process. It has 
4 parts.
    Mr. Higgins. No. What I would like you to do is just tell 
us--I have several questions. Are we testing these illegal 
immigrants that are being released into our Nation, are we 
testing them before or after they are processed? You said they 
are being tested, that you have a plan in place. Are you----
    Secretary Mayorkas. We most certainly do. There are 4 ways 
in which we accomplish the testing. One----
    Mr. Higgins. OK. You are welcome to submit that in writing. 
I am reclaiming my time.
    To me, I think the American people are witnessing a 
question dodged. The bottom line is, illegal immigrants are 
being processed at the border and released into our Nation that 
have either not been tested or have tested positive for COVID. 
I don't think I am going to get a straight answer from you.
    I have another simple question. Do you believe that the 
policies initiated by President Biden since his inauguration 
have impacted the issues on the Southern Border and increased 
illegal crossings?
    Do you believe the cartels were paying attention all last 
year when then-candidate Biden was messaging that he was going 
to weaken the law enforcement mission, provide some kind of 
path toward amnesty or citizenship, process the illegal 
crossings in a manner that was more conducive to their 
reception in the United States? He messaged that again and 
again and again. Do you think the cartels heard that? Do you 
think that maybe has something to do with what we are dealing 
with right now?
    Secretary Mayorkas. Congressman, I share a background with 
Ranking Member Katko and Congressman----
    Mr. Higgins. My, goodness gracious. I am not going to get a 
``yes'' or ``no'' out of you. You know what I am going to do? I 
am going to submit my questions in writing, because you are not 
here to answer hard questions, sir. You are here to repeat 
narratives that have been prepared by staff and attorneys. I 
don't appreciate you dodging these questions.
    Mr. Chairman, I am going to yield my time and submit my 
questions officially in writing to the Secretary, and I am 
going to expect them to be answered. If they are not, we are 
going to make some noise.
    I yield.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    You know, I believe that, when a witness is before us, he 
should be given the opportunity to answer the question and not 
shouted over. So, in that vein, I will try to do that.
    Mr. Secretary, we have seen a lot of criminality-charged 
insurrectionists from the attack on January 6 cite President 
Trump's words as their reason for participating in the attack. 
For example, Garrett Miller, who was charged for his role in 
attacking the U.S. Capitol, said that ``I believed that I was 
following the instructions of President Trump.'' Robert 
Sanford, who has been indicted for attacking a Capitol Police 
officer, our law enforcement, the people that defend us, as was 
just stated by the previous Member, our law enforcement that he 
attacked, told the Federal agents that he followed the 
President's instructions and had gone to the Capitol for that 
day.
    Mr. Secretary, is it fair to say that extremist groups see 
President Trump as their leader of their movement?
    Secretary Mayorkas. Congressman, the events of January 6 
are the subject of criminal investigations and prosecutions, so 
I would prefer, out of respect for the integrity of that work, 
not to answer specifically with respect to the January 6 event.
    But what we are seeing, as I have mentioned before, is a 
growing and persistent threat, and that is domestic violent 
extremism that is born of different ideologies--ideologies of 
hate, ideologies of anti-Government sentiment, ideologies of 
racially-motivated individuals. That is what we are very much 
focused on here in the Department of Homeland Security, and 
their words do matter.
    Mr. Payne. But you can't say whether the impetus for 
January 6 was the insurrectionists following President Trump?
    Secretary Mayorkas. It is not, Congressman, something I 
will comment on right now, in light of the investigations that 
are under way and the evidentiary impact of anything I say.
    Mr. Payne. Ever since the November 20 election, we have 
seen political leaders echo former President Trump's baseless 
lie that the election was stolen. Can you please share with the 
committee how repeating and amplifying these lies inspires and 
encourages the same extremists who attacked the Capitol on 
January 6?
    Secretary Mayorkas. Those pronouncements, Congressman, are 
not fact-based. They are actually in defiance of the facts. I 
think Chris Krebs, who led the Cybersecurity Infrastructure 
Security Agency during the prior administration, who did a 
superb job--and I have seen the results of his great work each 
day--indicated that, based on evidence, based on data, that the 
election was conducted with integrity and that the votes were 
not manipulated.
    Mr. Payne. So, basically, the loser of the election was 
really just plain sour grapes and trying to sway the American 
people to believe that there was something inherently wrong 
with the election. Is that correct?
    Secretary Mayorkas. Congressman, I focus on election 
security with our State, local, Tribal, territorial partners. 
That is what I am focused on.
    Mr. Payne. OK. So the President's echoes are baseless.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Guest, for 5 minutes.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Secretary, the American people are deeply disturbed 
with the on-going crisis along our Southwest Border. CBP 
numbers just in February: So, encounters are over 100,000 
individuals, an increase of over 170 percent from the 36,687 
encounters in February 2020.
    This issue is of growing concern to the American public, 
and this is not a political issue. We are seeing calls by many 
members of the Democratic Party highlighting what we are seeing 
along the Southwest Border. Representative Cuellar said 
earlier, ``We are weeks, maybe even days, away from a crisis on 
the Southern Border. Inaction is simply not an option. Our 
country is currently unprepared to handle a surge of immigrants 
in the middle of a pandemic.''
    We have seen Democratic Representative Vicente Gonzalez 
say, ``I can assure you, it won't be long before we have tens 
of thousands of people showing up on the border, and it will be 
catastrophic for our country, for our region, and for our 
district.''
    We heard just this week Senator Joe Manchin. Senator 
Manchin said, ``Whatever message was sent, it was interpreted 
the wrong way. It is a crisis. Oh, it is a crisis.''
    I know in statements that you have recently made you talk 
about how we are on pace to encounter more individuals on the 
Southwest Border than we have in the last 20 years.
    In February, there was a letter signed by over 50 Members 
of Congress. That letter was sent to the President; a copy of 
that letter was sent to you. In that letter, the letter says, 
``We write today to bring attention to the rising immigration 
crisis that is already beginning at our Southern Border, a mere 
weeks into your administration.''
    That letter goes on to say, ``On your first day as 
President, you signed multiple Executive Orders aimed at 
dismantling the security of our border, rescinding policies 
from the Trump administration that were working as intended to 
halt the flow of illegal immigration.''
    The Biden administration directives on stopping the 
building of border infrastructure, revoking policies aimed at 
carrying out interior enforcement, halting deportations for 100 
days, and suspending the migrant policy protections, MPP, have 
all communicated that our borders are open.
    We know that the February numbers of 100,000 individuals 
over 28 days works out to an average encounter of over 3,500 a 
day. In 2019, at the surge of the crisis along our Southwest 
Border, former DHS Secretary Johnson, who was Secretary under 
the Obama administration, he was questioned about this. Just 2 
years ago, he said, ``I know that 1,000,'' being 1,000 cases a 
day, ``overwhelms the system. I cannot begin to imagine what 
4,000 a day looks like, so we are truly in a crisis.''
    Mr. Secretary, we are approaching that 4,000 number that 
Secretary Johnson described as a crisis in the summer of 2019.
    In the summer of 2019, both Republicans and Democrats came 
together. They recognized that what we were seeing, the surge 
across our border, was an immigration crisis and it was a 
humanitarian crisis and it was a crisis that must be addressed.
    We saw President Trump put forth policies that almost 
immediately began to address the overcrowding that we saw 
across our Southwest Border, and I will tell you, it is time 
that this administration do the same thing. In less than 60 
days, they have completely destroyed what was a successful 
policy--or rolled back those successful policies by the 
administration.
    Mr. Secretary, I will close my statement to you with a 
statement made by former Secretary of State Colin Powell. 
Secretary of State Colin Powell had what he referred to as the 
``Pottery Barn rule.'' The Pottery Barn rule said: You break 
it, you own it.
    Mr. Chairman, at this time, I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes for 5 minutes Mr. Correa.
    Mr. Correa. Can you hear me OK?
    Chairman Thompson. Yes.
    Mr. Correa. Thank you, Mr. Chairman, for this hearing.
    Mr. Secretary, welcome.
    Let me again touch upon an issue my colleague brought up, 
which is the issue of COVID-19 testing at the border.
    Are you testing all the refugees?
    For those refugees that are not turned away, for those 
refugees that may come into the United States for further 
evaluation of their case, if they test positive, do you isolate 
them for the requisite time to make sure that our communities 
are safe?
    I know you wanted to elaborate on those, the solutions that 
you have, so I wanted to ask you to please elaborate. Please be 
succinct, specific, and factual.
    Thank you, sir.
    Secretary Mayorkas. Thank you, Congressman.
    So we have 4 different ways in which we test individuals 
who come into the country who we do not expel.
    We work with community-based organizations and local 
officials. We release them into those community-based 
organizations so that they are tested and quarantined there. We 
provide 100 percent reimbursement through FEMA to the local 
entities and the community-based organizations, provided the 
State authority does not stand in the way.
    We work with States, when those States have the capacity, 
to test and quarantine.
    We are working now with funds appropriated by Congress to 
fund directly community-based organizations and local 
facilities to conduct the testing and quarantine.
    When those 3 options are not available, we are now 
retaining a vendor to test individuals who are in CBP custody. 
If, in fact, they test positive, we transport them to ICE 
facilities for quarantine before release.
    That is our 4-point architecture, and I appreciate the 
opportunity to share it with this committee.
    Mr. Correa. Thank you, sir.
    Mr. Secretary, let me follow up on the refugee issue on 
deterrence, following our Federal laws, values, principles, 
ending children in cages, the ending of children separation.
    I was watching Spanish news a few days ago. I watched an 
interview of a young lady, no more than 14 years old, that had 
gone to the border. She was stating that she had gotten raped 
by 7 men before she got to the U.S. border.
    We talk about deterrence. I can only imagine the drivers 
that push immigration north--the dangers at home, the hunger.
    So my question to you is: When are we going to start--what 
are the long-term solutions to this problem? All of us agree, 
this thing didn't happen 1 year, 2 years--it has been going on 
for a long time, more than a decade, two decades.
    What are the long-term solutions? When are we going to 
implement them?
    Thank you, sir.
    Secretary Mayorkas. Congressman, thank you very much. I 
think that Jorge Ramos put it very powerfully on Univision--
because I, too, listen to Spanish language television and 
radio--when he said that sometimes hunger is stronger than 
fear.
    There are 2 long-term solutions, both of which the 
President has acted upon, one of which is immediately before 
us, and that is to finally fix the immigration system in this 
country. The second is to address the root causes in the 
countries from which these individuals are fleeing, and 
specifically the Northern Triangle countries of Guatemala, 
Honduras, and El Salvador.
    We began to invest in those countries and address the root 
causes, and that funding was discontinued during the Trump 
administration. The President is committed to restarting that 
critical element of an overarching approach to our border and 
the issues of migration that have challenged our Nation for so 
many years.
    Mr. Correa. Thank you very much, Mr. Secretary.
    Mr. Chair, I yield.
    Chairman Thompson. The gentleman yields.
    The Chair recognizes the gentleman from North Carolina for 
5 minutes, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your appearance.
    Others have made reference to your remarks, one statement, 
``We are not saying don't come; we are saying don't come now.'' 
I would add to that that, in an ABC News interview that day, 
you refused the suggestion to say, ``Do not come, period.'' 
President Biden has said, ``Don't come. We're in the process of 
getting set up.''
    In answering Mr. McCaul, you spoke of the price of 
deterrence. Mr. Secretary, are you prepared to say right now 
that it is wrong for people to enter the United States 
illegally?
    Secretary Mayorkas. Of course I am.
    Mr. Bishop. So it is wrong to break the law, right?
    Secretary Mayorkas. Of course it is.
    Mr. Bishop. All right. So----
    Secretary Mayorkas. But we also, if I might, Congressman--
--
    Mr. Bishop [continuing]. There will never be a right time--
--
    Secretary Mayorkas. I am sorry.
    Mr. Bishop [continuing]. To do that or to incite migrants 
to do that. Am I right, sir?
    Secretary Mayorkas. Congressman, of course it is wrong to 
break the law, and I dedicated 12 years of my career to 
prosecute law breakers----
    Mr. Bishop. Mr. Secretary----
    Secretary Mayorkas [continuing]. But, Congressman----
    Mr. Bishop [continuing]. I didn't ask for elaboration. Here 
is the question that I last asked you, because you answered the 
question. My question is: So there can never be a right time to 
enter the country illegally or to incite migrants to do that; 
isn't that correct?
    Secretary Mayorkas. Congressman, if I may speak of the law 
to which you refer, because our country----
    Mr. Bishop. I didn't ask you to explain the law, sir. I 
just asked you whether or not it would be wrong----
    Chairman Thompson. Mr. Bishop, will you allow the Secretary 
to answer your question?
    Mr. Bishop. He is not answering my question, Mr. Chairman. 
He wants to go----
    Chairman Thompson. Well, I don't want you to debate him.
    Mr. Bishop. I am not trying to debate him. I just want him 
to answer my question.
    Chairman Thompson. Well----
    Secretary Mayorkas. If I may----
    Mr. Bishop. Let me put the question again, and then we will 
see if I can get an answer to my question.
    What I asked, Mr. Secretary, is: There cannot ever be a 
right time to enter the country illegally or to incite migrants 
to do that. Would you agree?
    Secretary Mayorkas. A claim of asylum--an individual 
fleeing persecution by reason of his or her membership in a 
particular social group--a claim of asylum is a claim that is 
recognized by law in the United States of America. An 
individual who makes a claim of asylum is not breaking the law 
by doing so.
    In fact, as a law enforcement----
    Mr. Bishop. He is not answering----
    Secretary Mayorkas [continuing]. As a law enforcement 
officer, I enforce the laws of accountability as well as the 
humanitarian laws that Congress passed.
    Mr. Bishop. All right, sir.
    It is, in fact--in fact, entering the United States between 
ports of entry is illegal. Isn't that right?
    Secretary Mayorkas. Yes, it is.
    Mr. Bishop. OK. So there would never be a right time for 
someone to do that or to incite migrants do that.
    Secretary Mayorkas. Congressman----
    Mr. Bishop. Agree?
    Secretary Mayorkas. Congressman, I believe that the 
Trafficking Victims Protection Reauthorization Act was passed 
unanimously by Congress, and it speaks of the right of an 
individual, a young person, to make a claim of asylum, and it 
provides for the process that we must accord that individual in 
making that claim. That is a law that Congress has passed and 
that I am duty-bound to enforce.
    Mr. Bishop. Are you saying that that justifies inciting 
migrants to enter the country between ports of entry illegally?
    Secretary Mayorkas. Of course I am not, Congressman.
    Mr. Bishop. All right.
    Secretary Mayorkas. But I just want to recognize--I just 
want to recognize our responsibility when a child under the age 
of 18, who is not accompanied by a parent or legal guardian, we 
encounter at the border and what our legal responsibilities 
are. Those are----
    Mr. Bishop. Mr. Secretary, after the signals that the 
administration has sent, your statement yesterday acknowledged 
that the surge of migrants encountered at the border is a 
crisis and may soon constitute a 20-year peak, correct?
    Secretary Mayorkas. Congressman, I believe my language was, 
in fact, that the numbers that we are seeing could be the 
greatest if, in fact, they materialize as they are trending, 
could be the largest numbers we have seen in 20 years.
    Mr. Bishop. Has this extraordinary surge taken you by 
surprise, or did you expect it?
    Secretary Mayorkas. Congressman, I am focused on 
galvanizing the talent and dedication of the men and women of 
the Department of Homeland Security to----
    Mr. Bishop. OK. That is not----
    Secretary Mayorkas [continuing]. Meet that challenge, and 
that is what we do.
    Mr. Bishop. I just want a ``yes'' or ``no'' to the question 
of whether you expected the surge that we have seen or you are 
surprised by it.
    Secretary Mayorkas. I don't know that I had any particular 
expectation one way or the other. I just knew what we needed to 
do when we confront a situation. In fact, we are doing it.
    Mr. Bishop. So if it took you--if you didn't have----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Michigan for 5 minutes, Ms. Slotkin.
    Ms. Slotkin. Hi, Secretary Mayorkas. Thanks for being here. 
I have 2 questions, one on immigration and one on domestic 
terrorism.
    I will say, as someone who is still relatively new to 
Congress and who sat and questioned Secretary Nielsen when she 
came in front of us 2 years ago, I have rarely seen an issue 
that is more politicized and used as a political weapon than 
immigration.
    I will say, as a former CIA officer and Pentagon official, 
there is no contradiction between providing significant 
security for our borders and treating people humanely. There is 
no contradiction between keying immigration to our economic 
needs and giving people a lawful way to come and work here so 
they don't have to cross the border illegally.
    All of these things are not--they don't contradict each 
other. You know, I just have a hard time with this idea that it 
is literally used as a political football.
    That being said, I think we need to be clear-eyed about the 
numbers that are coming over the border, just as we were 2 
years ago when the massive surge led the Trump administration 
to put children in cages as a way to deter them from coming, 
families from coming. We have large numbers coming over the 
border. We know larger numbers are coming over the border. We 
know that you are trying to deal with it, the men and women are 
working on it.
    But let me ask you about, going forward, comprehensive 
immigration reform. We all talk about it. We all use it as a 
talking point. The other side of the aisle had 4 years to 
propose something and never did.
    But can I ask you, do you believe that any immigration 
reform must address fundamental changes to our immigration 
system, not just sort-of turn people into citizens or give them 
a pathway without changing the system going forward?
    If so, what are the reforms to that system that you are 
going to push in your meetings with the White House to ensure 
we are not just going to be in this same situation 5 years, 10 
years from now?
    Secretary Mayorkas. Thank you very much, Congresswoman.
    I do believe in immigration reform and always have, and I 
think everyone agrees with the need for it. I believe that the 
President put forward on Day 1 a bill that set forth a vision 
to achieve exactly that which you speak of, which is 
fundamental reform to a system that we all know is broken.
    I know that there are critical elements of that bill that 
are before the House and upon which the House will soon vote. I 
think they strike at some of the core needs, the core fixes 
that the immigration system requires to move us forward in a 
better way.
    Ms. Slotkin. OK. I appreciate that.
    I would say, just an honest reading of the bill, it is hard 
for me to understand how, in a comprehensive way, we actually 
make it easier for these folks who are risking their lives to 
come across the border to instead apply to legally work here, 
and it is hard for me to understand how some of our 
businesses--our farm workers, our tourism industries--are going 
to actually have an easier time getting legal immigrants to 
come work here.
    That is what we all want. I would just ask you to make sure 
that any bill that comes across, any final bill, actually shows 
us how the system is going to reform, not just temporarily 
change.
    On the issue of domestic terrorism, your entire Department 
was created because of the attack on our homeland on 9/11. The 
Department wouldn't exist without that.
    Can you tell me today, on the issue of domestic terrorism--
you noted in your testimony that lone-wolf domestic terrorism 
was--or domestic violent extremism was your biggest worry. Are 
you currently more worried about domestic violent extremist 
lone wolves than you are about foreign terrorist lone wolves?
    Secretary Mayorkas. Congresswoman, the threat picture 
evolves. As you well know, given your past experience in the 
intelligence community, the threat picture is an evolving one. 
It is a very dynamic threat.
    When I started in the Department of Homeland Security back 
in----
    Ms. Slotkin. I just have very little time. I am sorry, Mr. 
Secretary.
    Secretary Mayorkas. Yes. Sorry.
    Ms. Slotkin. I think people deserve to understand----
    Secretary Mayorkas. Yes.
    Ms. Slotkin [continuing]. The order of magnitude of this 
threat.
    Secretary Mayorkas. It is a--right now--forgive me, 
Congresswoman. Right now, at this point in time, domestic 
violent extremism, the lone wolf, the loose affiliation of 
individuals following ideologies of hate and other ideologies 
of extremism that are willing and able to take those ideologies 
and execute on them in unlawful, illegal, violent ways is our 
greatest threat in the homeland right now.
    Ms. Slotkin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The gentlelady's time has expired.
    The Chair recognizes the gentleman from New Jersey, Mr. Van 
Drew, for 5 minutes.
    Mr. Van Drew. Thank you, Chairman.
    You know, there is an old saying, it isn't rocket science. 
Well, some of this isn't rocket science, and it is so obvious.
    I mean, quite frankly, 2 months ago, we didn't have 
problems. We had some problems, but they were certainly greatly 
diminished over time. We had agreements with Mexico, we had 
agreements with other countries, and we were able to make a 
very terrible situation much, much better and much safer.
    The increase in the flow of undocumented has been huge. The 
numbers are staggering. So, for anybody to say that we are not 
dealing with a crisis--and, by the way, it is just a matter of 
2 months. I guess it is amazing how much, when you change 
leadership, how much change can really occur. Sometimes, quite 
frankly, it is not good change.
    Single adult and family unit apprehensions have been 
increasing steadily since January 20. Under the previous 
administration, Customs and Border Protection saw fewer than 
1,000 family units per week attempt to enter our country 
illegally. Now, under President Biden's leadership, it is 
overwhelmed, CBP is overwhelmed. They are dealing with 6,000 
attempted family crossings per week.
    Mr. Secretary, don't tell me this isn't a crisis. It is. 
Folks may not want to admit it, they may not want to say that 
we have had a radical change in literally about 8 weeks, but we 
have. We have put a different message out, and when you put a 
different message out, you get a different result.
    Currently, the Department of Homeland Security does not 
have a comprehensive strategy to contain the spread of COVID-19 
that we are so worried about, and it is occurring through the 
release of migrants at the border. Additionally, many are not 
even being tested for COVID-19 while being released, which is 
mind-boggling, with all the time and work we have spent on 
this.
    The situation is not acceptable. The situation is not 
sustainable. We are a Nation of the rule of law, which demands 
strong borders. The previous speaker was right. With strong 
borders, then you can actually attempt to straighten out, to 
fix, this immigration problem. When you just have people 
pouring in, you can't.
    So my question is: Your Department is releasing thousands 
of migrants from CBP custody on their own recognizance with a 
notice to appear. You say there is a plan to test everyone, but 
senior officials from the Department told us in a briefing last 
week that you were not testing everyone in CBP custody and have 
no ability to quarantine people who test positive. So this is 
mind-boggling, when we have been so worried about this issue of 
COVID, and now what we are doing. We literally are going to 
create, possibly, another spike.
    We have heard from Government officials along the border 
that people are not being tested COVID-19 prior to their 
release, and people who are positive for COVID-19 are entering 
our public transportation systems. This is serious stuff. 
Besides the fact that we are not obeying the rule of law, 
besides the fact that people are just pouring into our borders, 
we are going to make people sick.
    I would like to know specifically how many people have been 
released on their own recognizance from CBP since January 20, 
2021. Will you commit to sharing those numbers on a weekly 
basis with this committee, yes or no?
    Secretary Mayorkas. Congressman, I will share the data with 
you. I very much look forward to speaking with you when we are 
not so limited in time, because I disagree with so many of the 
statements that preceded your question.
    Mr. Van Drew. Well, you know, I understand that, and maybe 
we will have that opportunity. I disagree with you disagreeing. 
How's that? Because all I know is--I am a simple guy. I look at 
2 months ago, and we had a certain situation and we were under 
control. I look now, with people crossing the border illegally 
in much larger numbers with shirts with our President's names 
on it. That means something, under anybody's standard.
    Of those released, how many have been COVID-19 tested and 
how many have not? That is a specific number.
    Secretary Mayorkas. Interestingly, Congressman, if we look 
at the 2019 numbers in February, we take a look at 
unaccompanied children and the numbers in 2021 are slightly 
greater than they were in February 2019. If we look at 
individuals and family units, the numbers were far greater in 
number in 2019 than they are in 2021.
    So it is a complex issue. Those of us who have studied 
migration for many years understand the episodic surges that 
can occur. We used to think that it was seasonal, and now our 
thinking is a bit different. I very much look forward to 
speaking with you about it.
    Mr. Van Drew. Yes, thank you, as I do you.
    How many----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Van Drew. Thank you, Chairman.
    Chairman Thompson. Yes.
    The Chair recognizes Mr. Cleaver, who is having technical 
difficulties, but I think we can hear you. Go ahead.
    Mr. Cleaver. Well, thank you, Mr. Chairman. Hopefully I 
will come through. I apologize for whatever this issue is. But 
thank you very much for holding this hearing.
    Thank you, Mr. Secretary, for being here.
    You know, if I had my choice, you know, when I wake up in 
the morning, the committee that I would like to serve on 
because of the issues that it deals with, it would be this 
committee. That is due, in part, to our Chair but also to the 
men and women, such as yourself, who work on these issues where 
there is very little praise.
    But, Mr. Secretary, congratulations on your confirmation. 
But I have a couple of questions.
    Is there intelligence to suggest that cartels have 2 
million human beings in the pipeline? I am trying to--the 
information was given earlier by one of our Members, and I am 
just trying to figure out where it came from and where I could 
do a little bit more research on it. Can you help me on that 
pipeline issue, please?
    Secretary Mayorkas. Congressman, I have not seen data to 
suggest that number.
    Mr. Cleaver. I haven't either. From the time I heard it 
today, I started going through everything I could find, and I 
can't find that number.
    My issue--you can't solve this, and I don't think Chairman 
Thompson can solve it either. It is a National issue we have, 
and I don't know how it surfaced. But that number will continue 
to encircle the Americas as, you know, a fact, and I can't find 
the fact, the source of the fact.
    So I am sitting here writing a note to you asking if you 
could help, and you are saying you don't know the source of 
that information. So----
    Secretary Mayorkas. I have never seen--I have never seen a 
figure like that. I don't know of its basis. I don't know of 
any reason to believe that that data that apparently was just 
expressed this morning is anywhere close to being true.
    I will say also, Congressman, if I may, because there have 
been statements made that we don't have a plan, and I haven't 
had an opportunity to respond to that. That is unequivocally 
false. Of course we have a plan. We have a short-term plan, we 
have a medium-term plan, and we have a long-term plan, and we 
are executing on all fronts.
    To address the situation at the border that is upon us 
right now takes time, and we are working around the clock to do 
it. This is what we do, and we will succeed. I believe in the 
men and women of the Department of Homeland Security, and I 
believe in our commitment, our capabilities, and we will get 
the challenge accomplished.
    Mr. Cleaver. Thank you, Mr. Secretary.
    My time is running out, but I wanted to ask you--so I guess 
the cartels are not sending out a press release telling how 
many people are in the pipeline?
    You don't have to answer that. But, I mean, I am just--that 
gave me my headache for today.
    The other one is, do you have any idea about the youngest 
individuals who have come into our custody from south of the 
border?
    Secretary Mayorkas. There are children, Congressman, who 
are infants to the age of 5 that come into the border. I 
confronted a situation of 3 young siblings under the age of 10, 
the youngest one being 2 years of age, whose mother didn't make 
it along the dangerous journey.
    That is why we communicate, as we do, not to take that 
dangerous journey as we build legal pathways that the law 
provides for people to seek humanitarian relief in our Nation.
    Mr. Cleaver. Thank you.
    Mr. Chairman, has my time run out yet?
    If not, my question was: This word ``Antifa,'' I have been 
looking it up. It goes all the way back to Spain, and it 
actually began to be used during the reign of Hitler, the 
fascism in Germany. It was in opposition to fascism.
    Until January, I didn't know Antifa from my Aunt Edna. That 
is my grandfather's sister down in Texas. So, at first, I 
thought it was a relative or something.
    But what is Antifa? Is it an organization, or is it a--what 
is it? I hear it everyday from everyone on one side.
    Secretary Mayorkas. ``Antifa'' is an abbreviation, if you 
will, for ``antifascist.''
    Congressman, there are different ideologies, different 
ideologies of extremism, that we are focused on to the extent 
that they manifest themselves in illegal conduct, to the extent 
that they manifest themselves in violent acts. As I mentioned 
before, domestic violent extremism is one of our most urgent 
threats to the homeland.
    Mr. Cleaver. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Norman, for 5 minutes.
    Mr. Norman. Thank you.
    Mr. Secretary, I have 2 brief questions.
    When an alien crosses a line into America on his own, 
didn't go through any checkpoint, is he illegal, deemed an 
illegal?
    Secretary Mayorkas. It is an illegal crossing when an 
individual crosses in between the ports of entry.
    Mr. Norman. Is he sent back to his country of origin?
    Secretary Mayorkas. Are you speaking of--right now, if it 
is a single adult, the individual is expelled under the 
authority of title 42 of the United States Code, which is the 
CDC's public health authority.
    Mr. Norman. So he is illegal, and he is sent back to the 
country that he was from.
    Secretary Mayorkas. The individual has made an illegal 
crossing, and he is expelled into Mexico, Congressman.
    Mr. Norman. OK.
    Second, what is the number of illegals that are testing 
positive for COVID, according to your records?
    Secretary Mayorkas. Congressman, I would be pleased to 
provide you with that data subsequent to the hearing. I don't 
have the figure before me, and I apologize.
    Mr. Norman. OK.
    The other thing, it has been reported you are going to be 
meeting, giving a briefing with the Congressional Hispanic 
Caucus. Is that true?
    Secretary Mayorkas. I believe that is this afternoon, 
Congressman.
    Mr. Norman. OK. Will you give the Republican caucus or the 
RSC or the Freedom Caucus a meeting as well?
    Secretary Mayorkas. Absolutely, Congressman. I have 
committed from Day 1 to approach my work and execute my 
responsibilities in a bipartisan manner.
    Mr. Norman. OK.
    I am going to yield 1 minute to Ranking Member Katko.
    Mr. Katko. Thank you very much.
    Mr. Secretary, I just want to have a point of 
clarification. We were in El Paso this weekend, and we were at 
the Customs and Border Protection facility there. There was 
1,000 people there; it was at capacity. I was told specifically 
by your staff there that they did not test any of those 1,000 
individuals--excuse me. I am sorry about the video issue--that 
they did not test any of those 1,000 individuals at that 
facility.
    That was a concern to me because they were all close 
together, and the Border Patrol agents had not all been 
vaccinated. In fact, less than half had been vaccinated. Then 
they are transferred elsewhere. So the time when they are in 
that facility, they are not tested or vaccinated, and then they 
are sent to another place.
    Are you saying they may be tested at another place? Because 
they are certainly not being tested there, and I want to make 
sure the record is clear on that.
    Secretary Mayorkas. Your question, if I may, Congressman, 
has 2 parts to it.
    No. 1, they were not test--if they are not tested at the 
Border Patrol station. As I outlined earlier, there are 
different capabilities upon which we are relying for the 
testing of individuals before they are released. We are 
instituting the capacity of Border Patrol stations to test, No. 
1.
    No. 2, as I indicated earlier, the number of front-line 
personnel who have been vaccinated has jumped from 2 percent at 
the beginning of February when I assumed office to over 26 
percent as of the end of February. Why? That is because of the 
commitment and dedication that we have made to protecting the 
well-being of our front-line personnel, and we have executed 
Operation Vaccinate Our Workforce.
    Mr. Katko. Thank you----
    Secretary Mayorkas. The first thing I heard----
    Mr. Katko [continuing]. Mr. Secretary, but I just want to 
make sure we are clear, sir. I just want to make sure we are 
clear and the record is clear. Not a single person was tested 
at that facility, and they were being--as we were there, there 
were people being transferred from that facility to elsewhere.
    They are there at least 72 hours. They are not being 
tested. The Border Patrol agents are being exposed. Then others 
are being exposed because of them being sent elsewhere before 
being tested.
    That is a fact. That is just a fact. I want to make sure 
people understand that.
    Mr. Norman. Mr. Secretary, reclaiming my time, I yield the 
balance of my time to Dan Bishop.
    Chairman Thompson. The gentleman from South Carolina 
recognized.
    Mr. Norman. I yield the balance of my time to Dan Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Secretary, are you aware of reports that 4 individuals 
on the terror watch list have been apprehended at the border 
recently?
    Secretary Mayorkas. I am.
    Mr. Bishop. You made reference earlier to the price of 
deterrence and the prospect of people coming into the United 
States illegally and their rights to seek asylum. Would a 
terrorist have the right to enter the United States to seek 
asylum?
    Secretary Mayorkas. Actually, sir, no.
    If I may, a known or suspected terrorist--``KST'' is the 
acronym that we use--individuals who match that profile have 
tried to cross the border, the land border, have tried to 
travel by air into the United States not only this year but 
last year, the year prior, so on and so forth. It is because of 
our multi-layered security apparatus, the architecture that we 
have built since the commencement of the Department of Homeland 
Security, that we are, in fact, able to identify and apprehend 
them and ensure that they do not remain in the United States.
    So we actually deny them entry based on our intelligence 
and based on our vetting procedures, which have only grown in 
sophistication throughout the years.
    Chairman Thompson. The gentleman's time has----
    Secretary Mayorkas. That is not a new phenomenon.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank you, Mr. Secretary, for joining us today. With your 
confirmation, I am eager and elated to turn the page on the 
cruel, inhumane, and morally bankrupt policies of the Trump 
administration. It is time we spend less money on border walls 
and more money on firewalls to protect our networks. Instead of 
fear-mongering about immigrants, I am looking forward to 
confronting the real threat of domestic terrorism, as evidenced 
by the attack on the Capitol.
    Mr. Secretary, tomorrow, the House will vote on the Dream 
and Promise Act, a bill I proudly co-lead that will provide a 
pathway to citizenship for Dreamers, TPS holders, and DED 
recipients. I am also proud to be co-leading the U.S. 
Citizenship Act, President Biden's plan to reform our 
immigration system to provide certainty to those already here 
and address the root causes of migration.
    As we work to pass this legislation, can you discuss what 
effort DHS is already undertaking to improve the lives of those 
who depend on DACA, TPS, and DED after 4 years of fear, 
uncertainty, and instability?
    Secretary Mayorkas. Thank you very much, Congresswoman.
    We have restarted the Deferred Action for Childhood 
Arrivals program, DACA, as it is commonly known. It is a 
program of which we are immensely proud. So many youth who 
actually are front-line personnel in the fight against the 
pandemic are DACA recipients and who will benefit tremendously 
from the legislation that you have proudly sponsored and for 
which I am grateful.
    The President has, in fact, used Deferred Enforced 
Departure as the law provides and as Presidents in the past of 
both parties have done. It is something we, too, are immensely 
proud of.
    We can be--we can be, and we are, both a Nation of laws and 
a Nation of immigrants.
    Ms. Clarke. Thank you so much, Mr. Secretary.
    I want to turn to some of the devastating humanitarian 
crises we are seeing both in Haiti, Yemen, nations like 
Cameroon, and elsewhere around the world. For years, I have 
fought for TPS designations for countries such as these, and I 
continue to believe these protections remain essential.
    Under your leadership, how will DHS determine whether 
countries qualify for redesignation?
    Secretary Mayorkas. Thank you, Congresswoman.
    We in the Department of Homeland Security, through U.S. 
Citizenship and Immigration Services, study the conditions of 
countries that have suffered disasters, that suffer violence, 
military strife, and the like. We study those conditions to 
determine whether temporary protected status is needed in the 
first instance or whether the country conditions militate in 
favor of the redesignation of a status previously provided.
    We do so in consultation with the Department of State that 
also studies those country conditions. That work is under way 
with respect to some of the countries that you have mentioned.
    Ms. Clarke. Thank you again, Mr. Secretary.
    I currently Chair the Subcommittee on Cybersecurity, and I 
appreciate the Department's renewed emphasis on its 
cybersecurity mission.
    Following the Solar Winds supply chain attack, many have 
suggested that hackers slipped through our Federal network 
security programs, including EINSTEIN. But EINSTEIN, a 
signature-based intrusion-detection program, was never designed 
to detect or prevent a SolarWinds-style supply chain attack.
    That said, for years, experts have warned about the 
security limitations of EINSTEIN, and recent breaches make 
clear that we must rethink our approach to Federal network 
security, move away from legacy technologies whose security 
benefits diminished and put resources into tools that will 
defend against modern threats.
    How is the Department planning to modernize its approach to 
the Federal network security?
    Secretary Mayorkas. Congresswoman, we are very focused on 
that.
    You are correct that EINSTEIN is a perimeter protective 
measure that addresses known threats and the SolarWinds 
exploitation was not something that EINSTEIN was designed for.
    Similarly, we have Continuous Diagnostics and Mitigation, 
which is a critical tool. We are looking intently at those 
tools and what other tools can complement them to address 
unknown vulnerabilities and zero-day threats.
    We spoke about this earlier this week within the Department 
of Homeland Security with our CISA leadership and our Senior 
Counselor for Cybersecurity. We are grateful----
    Ms. Clarke. Well, I looked forward----
    Secretary Mayorkas. We are grateful to this committee, 
actually, to fund CISA with $650 million. We now are resourced 
to explore and implement new technologies to supplement those 
we already have in place.
    Ms. Clarke. Well, my time has expired. I look forward to 
further conversation with you within this space.
    I yield back, Mr. Chairman.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentlelady from Iowa, Mrs. Miller-
Meeks, for 5 minutes.
    Mrs. Miller-Meeks. Thank you, Mr. Chair.
    Thank you, Secretary Mayorkas.
    Secretary Mayorkas, I am a former director of the Iowa 
Department of Public Health and a physician. During my duties 
as the director of public health, I visited all of my county 
public health agencies, and several of the counties had 
dramatic spikes in tuberculosis because of the effects of 
immigration, when they had not had an increase in tuberculosis 
or other infectious diseases in over 5 decades.
    I was at the border on Monday in El Paso, and yesterday I 
introduced my first piece of legislation, the REACT Act. This 
bill would require DHS to test for COVID-19 any migrant being 
released from CBP or ICE custody into the United States.
    I have heard conflicting things today about testing. When 
we were there, migrants were not being tested, and they were 
released into the community and often released into communities 
without knowledge of that community, or foreknowledge. What you 
said was that COVID-19 testing is required and then isolation 
or quarantine once they have reached a community-based 
organization or an NGO or a sponsor.
    So very simply put, do you support or require testing for 
migrants before release, be it catch-and-release, be it release 
to a phone number on the shirt of a 1-year-old unaccompanied 
minor who has been to the border, or released into a community 
or to an NGO?
    Secretary Mayorkas. Congresswoman, can I take a minute? 
Because I think there is a miscommunication here with respect 
to when that testing occurs.
    It is indeed our policy to test individuals who arrive into 
the United States or who are encountered at the border in 
between the ports of entry. It is our policy to test them.
    We did not have the capacity to test them at Border Patrol 
stations. We have since begun to build that capacity so that we 
can do the testing there, in addition to the other 3 means of 
testing individuals that I outlined in response to a 
Congressman's earlier question.
    We do support the testing of individuals, and that is 
indeed our policy, and we have implemented practices to execute 
on that policy.
    I hope I have answered your question.
    Mrs. Miller-Meeks. Thank you. You said you support but you 
don't require testing. We know that, in Brownsville, 108 
migrants showed up in Brownsville and tested positive for 
COVID.
    Your Department also recently announced it would be 
canceling an information-sharing agreement with the Department 
of Health and Human Services. Personally, from what I 
experienced on the border this week, I think that is a mistake.
    We have unaccompanied minors as young as--you even said 
some of them infants--but as young as 1 year old showing up 
with no adult supervision, with a phone number which HHS is to 
call and turn them over to a sponsor. We need to ensure that 
the sponsors of accompanied minors are not going to turn around 
and traffic those minors. We have seen cases of this happening. 
This was conveyed to us by the Border Patrol agents and by the 
Border Patrol union members.
    We know a small fraction of the unaccompanied minors self-
identified to HHS officials as gang members. For those that are 
teenagers and single, unaccompanied males, that their age may 
be under 18, but there is no verification of what age they are. 
Information not flowing to ICE officials that leads domestic 
gang forces--and partner with school resources.
    How are you going to ensure that, working with HHS, that 
these children are not handed over to traffickers? Is parentage 
or familial relationship being established by DNA testing or 
other documents vetted by DHS document fraud experts? Will you 
continue to share information with HHS?
    Secretary Mayorkas. Congresswoman, allow me to take a 
minute to clarify your misunderstanding of what is and is not 
occurring.
    Department of Health and Human Services runs background 
checks on individuals to ensure that the individuals in whose 
custody a child will be released are in fact capable of and 
responsible for that child. Individuals with criminal 
backgrounds, individuals who in fact are not who they say they 
are, individuals with other derogatory information that 
establishes that they are not responsible sponsors for 
children, the Department of Health and Human Services does not 
place those children in those individuals' custody, No. 1.
    No. 2, the memorandum that was on the books achieved 
precisely the problem of which you speak. Individuals who were 
responsible sponsors were reluctant to come forward because 
their information with respect to their presence in the United 
States was turned over to ICE, despite the fact that they might 
be lawfully present, despite the fact that they may be 
perfectly capable and responsible for the needs of the child, 
and despite the fact that they may be a close relative, even a 
parent or legal guardian of that child.
    That memorandum that existed on the books chilled the very 
responsible conduct that underscores your question as a 
physician, and it is precisely the reason why we did not 
continue with that memorandum. The concerns that underlie your 
question are our concerns as well.
    Mrs. Miller-Meeks. Thank you.
    If I have some additional time, we also found that the 
border wall construction had been funded----
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the witness for appearing. I have had hearings 
taking place at the same time, and my questioning in each 
hearing took place at the same time. So my apologies for being 
a bit tardy, and I may have missed some things that have been 
said.
    But I do want to speak briefly about Texas and the fact 
that the announcement by the Governor of the State of Texas to 
lift the State-wide COVID restrictions came at a time when the 
CDC director was urging Governors to keep some restrictions in 
place to decrease the amount of virus in circulation.
    I would also add that authorities in Houston found that the 
U.K. variant of COVID in Houston is in 31 of 37 wastewater 
treatment plants, suggesting, in their words, on-going and 
uncontrolled community spread of the more contagious strain of 
the virus.
    So, Mr. Secretary, your concerns that you might have about 
Governor Abbott and other Governors dismantling the public 
health measures contrary to the advice of public health 
experts, please?
    Secretary Mayorkas. Let me, if I may, Congressman, say the 
following 3 things.
    No. 1, we are encouraging individuals, organizations, 
Government officials to follow the CDC guidelines and to 
encourage everyone to do the same.
    We are advocating strongly to ensure that everyone in the 
United Sates is vaccinated for the sake of the public health. 
We are following the science and the data.
    Third, we are hopeful that State leaders will permit us to 
reimburse State and local organizations and community-based 
organizations that perform testing and quarantine individuals 
who have crossed the border so that we can ensure the public 
health of our communities and of the individuals themselves.
    Mr. Green. Thank you.
    Moving to another area quickly, the President has proposed 
a $4 billion, 4-year interagency plan. I would like to get your 
opinion as to just how important this plan is, because it is 
supposed to address underlying causes of the migration in the 
region.
    Secretary Mayorkas. It is very important. It is of critical 
importance. We are as I mentioned earlier, we are taking short-
term actions to address the situation at the border. We are 
taking medium-term actions, such as building lawful pathways 
that the laws of our country permit. We have long-term 
solutions to make lasting change.
    The infusion of resources in the countries of origin from 
which these individuals flee, the $4 billion of which the 
President has spoken and to which he is committed, is precisely 
that, to get to the root causes.
    Because we can talk about the pull factors, which certainly 
a number of us have referenced this morning, but we have to 
understand that the push factors are so extraordinary.
    Imagine loving parents willing to allow their young child 
under the age of 18 to leave home, traverse Mexico alone, to 
reach our Southern Border. That speaks of the level of 
desperation. We must address the root causes that lead a loving 
parent to do that, and that is what the $4 billion are designed 
to do.
    Mr. Green. Thank you, Mr. Chairman. I will yield back any 
remaining time that I have.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Tennessee, Mrs. 
Harshbarger.
    Mrs. Harshbarger. Thank you, Mr. Chairman.
    Thank you, Secretary, for being here to answer these 
questions.
    Last week your chief medical officer and assistant 
secretary for border, immigration policy told the committee in 
a Member briefing that CBP does not have the ability and is not 
testing everyone in their custody before they are released.
    How many have been released? Do you know that?
    Secretary Mayorkas. I am sorry, Congresswoman, I think I 
committed earlier to providing that number to a fellow Member 
of your committee, and I will certainly provide it to you as 
well.
    As I mentioned, U.S. Customs and Border Protection did not 
have the capacity to test in its facilities, and now we are 
entering into a contract with one vendor to begin, and we will 
expand as needed, so that we can test in a CBP facility when 
the other mechanisms of which I have spoken are not available.
    Mrs. Harshbarger. OK. So you do not know how many have been 
released.
    How many of those individuals were tested? Do you know 
that?
    Secretary Mayorkas. I am sorry, I will get the data to you, 
Congresswoman. I apologize, I don't have it before me this 
morning.
    Mrs. Harshbarger. OK.
    You know, as a U.S. citizen, we have to present with a 
negative COVID-19 test within 3 days to reenter the country if 
we have traveled internationally. You can't tell me how many 
have been released or how many were tested.
    We absolutely need to institute and carry out a valid 
COVID-19 testing program in order to be able to measure these 
results. So that is imperative.
    But I will go on. I am on the Cybersecurity and 
Infrastructure Subcommittee, sir, and I am really interested in 
the critical infrastructure designations of domestic supply 
chains. That is something as a pharmacist I have been talking 
about for 25 years, we are so reliant on adversarial nations, 
such as China.
    What do you see in the future with that?
    We worry about, we listened to a hearing about SolarWinds 
and how they infiltrated, and we don't even know how they 
infiltrated those entities. We upload apps every day and we try 
to keep on top of things, but it is unfathomable to me that we 
don't even know how that system was infiltrated.
    Like I say, as critical infrastructure goes, what are your 
plans to ensure that we have domestic supply chains for things 
like finished pharmaceuticals or chemicals, that we won't have 
to be relying on adversarial nations, such as China?
    Secretary Mayorkas. Congresswoman, your question is a very 
important one and touched on a number of different subjects.
    We have learned a great deal about the SolarWinds 
exploitation, I want to assure you of that. I would be pleased 
to share information with you in that regard outside of the 
context of this morning's hearing.
    Your question touches upon a number of very significant 
areas of focus of ours.
    No. 1, the supply chain and the security of the supply 
chain.
    No. 2, the fact that we do have nation-state actors that 
employ cyber capabilities to exploit our supply chain and our 
critical infrastructure and the importance of securing our 
critical infrastructure.
    Some areas of critical infrastructure are far more advanced 
in their cybersecurity than others, and that is one of our 
critical areas of focus, is it to make sure that we, frankly, 
raise the bar across the National landscape. It is so vitally 
important, and I think your focus on it is spot on.
    Mrs. Harshbarger. You know, I don't envy you in the 
position you are in right now because nobody wants these 
immigrants coming over. They don't want them to be hungry. They 
want to take care. We are a giving Nation.
    But we do, as Dan Bishop said, we are a Nation of laws, and 
lawlessness breeds lawlessness. Without the COVID testing, over 
a hundred people, from what I understand, have been released 
into these communities.
    Do these people know that these people have tested 
positive? I mean, do they know? Do the residents of those 
communities know?
    This is such a threat that we have to quarantine for 14 
days once we have been exposed to somebody. These people have 
no quarantine whatsoever.
    Secretary Mayorkas. Congresswoman, let me say, we are 
indeed a Nation of laws, and you are correct in that regard. We 
are also a Nation of immigrants, and we can and we are both. I 
appreciate your note on the humanitarian side at the very 
outset of your question.
    I must just repeat what I have said previously, which is we 
have--it is our policy to test individuals. It is our policy to 
see that those individuals who test positive are quarantined. 
We have implemented different mechanisms to achieve that 
policy.
    It is our responsibility to coordinate and communicate with 
our local communities so that they understand what is 
happening. We need to do that with local officials.
    There have been times when we have not met our 
responsibility as well as we should have. Those instances are 
brought to the attention of leadership, and they are addressed, 
and we improve based on the mistakes made. We are deeply 
committed to the mission.
    Mrs. Harshbarger. I just have one----
    Chairman Thompson. The gentlelady's time has expired.
    Mrs. Harshbarger. OK.
    Chairman Thompson. The Chair recognizes the gentleman from 
California for 5 minutes, Mr. Swalwell.
    Mr. Swalwell. Thank you, Chairman.
    Welcome, Secretary.
    Secretary, I appreciate the challenge you face on the 
border. What I don't appreciate, though, is the feigned concern 
of my colleagues about these being superspreader events.
    I mean, these are colleagues of mine who spent the last 
year going to superspreader events, a number of them at the 
White House. They mocked the mask mandates that we have here. I 
just don't believe that they had a genuine concern of the 
health of the people on the border presenting any superspreader 
threat.
    But I do wish you well and want to work with you to address 
real issues on the border, humanitarian issues.
    My question, though, as it relates to COVID is, do you 
consider COVID a--do you occur naturally-occurring biological 
diseases like COVID a threat to our homeland?
    Secretary Mayorkas. I certainly do, and we have an office 
that is dedicated to that particular threat stream. We have 
quite a bit of research and development in our Office of 
Science and Technology addressing biological threats, 
Congressman. It is an area of focus, and it was when I was the 
Deputy Secretary of Homeland Security.
    Mr. Swalwell. Secretary, does the office have a standing 
strategy to take on biological threats?
    Secretary Mayorkas. It does, Congressman, and I would be 
very pleased to share that strategy with you and to speak with 
you about it outside the context of this hearing.
    Mr. Swalwell. Great.
    Secretary, finally, what can we do--when we looked at the 
recent attribution to Russia and its desire in 2016, 2018, and 
again 2020 to interfere in the election, what can we do to make 
sure that we learn from the mistakes of the past and our 
responses and that, as we go into a midterm election, that they 
are nowhere near as successful as they have been in the past?
    I say that because I do think Chris Krebs and his team did 
the best job that we have seen in the last 4 years.
    But what can we do to still make sure that we attribute it 
to them, we publicly shame them, we stop the behavior, and we 
educate the American people about what their intent is?
    Secretary Mayorkas. Congressman, we have quite a number of 
tools in our toolbox to address adverse actions by State 
actors. Certainly we evaluate each threat to the homeland based 
on the facts and the dynamics that it presents. I know the 
National Security Advisor of the United States has spoken on 
this very subject and that we have met on it as a Government 
across the Federal Government. I don't want to speak further--
--
    Mr. Swalwell. Sure.
    Val Demings and I are headed into an Intelligence Committee 
hearing.
    Val, I am happy to yield to you if you want to get any 
questions in before you have to go.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Florida for the remaining time.
    Mrs. Demings. Thank you so much, Mr. Swalwell and Mr. 
Chairman. I am not sure how much time you have left.
    But, Secretary, thank you so much.
    Let me just make one thing clear. The safety of our Nation 
is our No. 1 concern. One of the things that I will not do, 
though, is to use law enforcement as political pawns like, 
unfortunately, I have seen too many times my colleagues on the 
other side of the aisle do.
    Since I have been on the committee, long before you and 
under a prior administration, I have heard about staffing 
shortages, I have heard about low morale, training challenges 
with Customs and Border Patrol officers and agents.
    So I know, Mr. Secretary, you just got there, but could you 
please update us on the status of the men and women on the 
front line, who regardless of the political games I see and 
hear too frequently on the other side, are doing the best job 
that they can do?
    Secretary Mayorkas. Congresswoman, thank you so much for 
that question.
    I walked into office on February 2 of this year with 
already tremendous pride in the men and women of the Department 
of Homeland Security and the men and women on the front lines. 
My pride has only swelled in the days since I took office.
    I will share with you that I was on the border a few weeks 
ago, and I saw the heroism, the true heroism of the men and 
women of the United States Border Patrol. I saw them undertake 
personal sacrifice to not only ensure that the border is 
secure, but that the needs of very young children are taken 
care of, and they accomplish both.
    I heard from them concerns about the fact that the 
leadership of the Department in the past had not addressed 
their public health and well-being. I heard that from their 
representatives.
    It is for that reason that we doubled down on Operation 
VOW, Vaccinate Our Workforce, and we have made the tremendous 
strides that we have. It is why I am pushing for the 
rightsizing of our work force and the funding we need to 
accomplish that.
    I will do everything in my power to fully support the men 
and women of the Department of Homeland Security because they 
do everything in their power to serve the American people and 
to do so nobly and ably.
    Mrs. Demings. Mr. Secretary----
    Chairman Thompson. The gentlelady's time from Florida has 
expired.
    Mrs. Demings. Thank you. I yield back.
    Chairman Thompson. The Chair recognizes the gentleman from 
Georgia, Mr. Clyde, for 5 minutes.
    Mr. Clyde. Secretary, it is a pleasure to see you here 
today.
    Do you agree that we have a crisis on the Southern Border? 
Yes or no?
    Secretary Mayorkas. Congressman, we have a very serious 
challenge, and I don't think the difficulty of that challenge 
can be overstated. We also have a plan to address it. We are 
executing on our plan, and we will succeed. That is what we do.
    Mr. Clyde. OK.
    Secretary Mayorkas. It is for the very reason--if I may, I 
apologize--it is the for the very reason of which I spoke a 
moment ago, extraordinary men and women.
    Mr. Clyde. OK. Mr. Secretary, you said to Congressman 
Swalwell, you said that you consider COVID to be a threat to 
our homeland, and a serious threat I assume. Is that correct?
    Secretary Mayorkas. Congressman, the pandemic is a threat 
not only to our country, it is a threat that we are tackling 
like never before throughout the world.
    Mr. Clyde. OK. All right. Thank you.
    Secretary Mayorkas. But Congressman Swalwell's question, I 
think, spoke to biological threats writ large, something that 
we in the Department of Homeland Security have historically 
addressed, thanks to Congress and the creation of an office 
that is specifically focused on it.
    Mr. Clyde. Thank you, Mr. Secretary.
    Do you agree that U.S. citizens must present a negative 
COVID-19 test taken within 3 days to enter the country after 
flying internationally? Do you agree with that statement? Yes 
or no?
    Secretary Mayorkas. I believe we require a negative test 
for individuals traveling internationally.
    Mr. Clyde. OK. Great. Yet there are thousands of foreign 
nationals that cross our borders and that are released into our 
communities without us knowing if they have had a COVID-19 test 
or not, whether they test positive or whether they test 
negative.
    So there appears to be a more lenient standard for foreign 
nationals crossing our border illegally than for American 
citizens. So why is that?
    Secretary Mayorkas. That is not true.
    Mr. Clyde. What do you mean it is not true?
    Secretary Mayorkas. It is unequivocally not true, for the 
reasons I have expressed.
    Mr. Clyde. So are we testing every foreign national that 
crosses our border to see whether they have COVID or not?
    Secretary Mayorkas. It is our policy, as I have articulated 
before, Congressman, it is our policy to test individuals who 
are apprehended in between the ports of entry, to test them, 
and if, in fact, they test positive, to quarantine them. That 
is our policy, and we have built practices to execute on that 
policy.
    Mr. Clyde. So can you assure the American people that no 
one who has been apprehended is released into our communities 
that still tests positive for COVID-19?
    Secretary Mayorkas. Congressman, let me be clear. There 
were times earlier when individuals were apprehended and we 
sought to expel them and we were unable to expel them and we 
were compelled to release them and we did not have the 
opportunity to test them. We have addressed that situation.
    Mr. Clyde. So right now, as we speak right now, you are 
telling me that no one is released into our country that is 
COVID-19-positive.
    Secretary Mayorkas. Congressman, allow me to repeat myself, 
if I may.
    Mr. Clyde. Well, that is just a yes-or-no question. Just 
yes or no?
    Secretary Mayorkas. No, it is--Congressman, if I may. The 
situation at the border is complex, and the complexity is 
evidenced by the questions I have been receiving throughout the 
morning.
    So please, if I may, it is our policy to test and to 
quarantine.
    Mr. Clyde. OK. But are you executing to that policy 100 
percent?
    Secretary Mayorkas. We are doing the best we can to ensure 
that the policy is executed 100 percent of the time. That I can 
say.
    Mr. Clyde. OK. The best we can.
    So it is still possible then for foreign nationals who test 
positive for COVID-19 to enter our country? That is what you 
are saying, I guess.
    Secretary Mayorkas. Congressman, we do the best we can in 
everything that we do.
    Mr. Clyde. OK. All right.
    Since the Biden administration took office, thousands of 
people have been released into the border communities. 
According to media reporting, since January 25, 2021, at least 
108 migrants tested positive for COVID-19 after being released 
into the Brownsville, Texas, community, where they proceeded to 
travel to cities throughout the United States.
    The mayor of Yuma, Arizona, told reporters that migrants 
are not being tested for COVID-19 before being released into 
his community, despite assertations made by the administration. 
I just heard what you said.
    So is it the Federal Government's job to enforce our laws 
and not burden States with a public safety crisis resulting 
from Federal policies?
    Secretary Mayorkas. Congressman, it is our responsibility 
to enforce Federal law. The situations of which you spoke are 
precisely the situations that I provided in my answer to your 
prior question.
    There were instances in which individuals were released. 
You mentioned Brownsville, and that is an example of that.
    In Yuma, Arizona, we didn't have the relationship with 
community-based organizations. They did not have the same 
footprint.
    It is precisely why we built the additional practices to 
which I referred earlier this morning, why we have built 
different practices to plug any hole to ensure that our policy, 
to the best of our abilities, our policy that everyone is 
tested and quarantined as needed, and that is what we have 
done.
    What we do is we address a challenge, and if we see an 
element of that challenge that we are not addressing, then we 
know what we must do, and we do it. That is precisely what we 
have done here and across the board in addressing the migration 
of individuals at our Southwest Border.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Nevada for 5 
minutes, Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for being with us today. It is so 
refreshing to have a professional in this field, someone of 
your caliber, to head up Homeland Security. Over the past 4 
years it has been a revolving door. There have been about 6 
different Secretaries, some of them approved, some of them not, 
who knew very little about what should be going on over there.
    We heard a lot from our colleagues across the aisle about 
the immigration problem. We concede that there is one, and we 
are working on fixing it. But I would point out that a lot of 
that problem stems from some of the policies that Donald Trump 
had and from his own incompetence.
    There is evidence from CBP, for one example, is that the 
number of individuals who have been apprehended at the border 
has been on the rise since May 2020. So that is way back in his 
administration. It didn't just start when Joe Biden took over.
    But it is not only in immigration that the incompetence of 
the last administration comes through. I would like to ask you 
about how we are dealing with COVID and PPE.
    For example, Jared Kushner, the son-in-law and senior 
adviser, so-called senior adviser to then President Trump, told 
a roomful of people that providing PPE and dealing with COVID 
was not the role of Government. PPE shortage would be solved by 
the free markets.
    Then, in April 2020, at a briefing, they stated that the 
Strategic National Stockpile was not intended for dissemination 
to the States. They went on to change the mission statement on 
the internet, on their website, because this contradicted 
something else that Kushner was saying.
    Then he had the Project Air Bridge with some of his 
buddies, and who knows what happened with that. Even today, we 
have a survey from the past month that shows 81 percent of 
nurses are having to reuse single-use PPE.
    So I wonder if you could talk to us about how you are 
dealing with that issue, what is happening with this Project 
Air Bridge, how we can work together to be sure that States do 
get the needed equipment to fight this pandemic, and that 
people on the front lines are protected.
    Secretary Mayorkas. Congresswoman, thank you very much.
    As I mentioned previously, we have really put our weight 
behind Operation VOW, Vaccinate Our Workforce. Acting Deputy 
Secretary Pekoske and Drs. Gandhi and Eastman, our medical 
professionals, are very focused on the distribution of the 
vaccine and accessibility of the vaccine and administration of 
the vaccine to our front-line personnel, including the brave 
men and women of the United States Border Patrol.
    If I can, you mentioned the increase in numbers beginning 
in May 2020 at our border. If I may, Congresswoman, they began, 
I believe, in April 2020. One of the difficulties that we face 
with respect to the challenge at the border is the fact that 
our processes that preexisted to address these challenges were 
dismantled in their entirety.
    So we are addressing the numbers while we rebuild our 
capabilities nearly from scratch, while we rebuild lawful 
pathways that the law provides that were similarly torn down, 
and during the time when the infusion of resources into the 
countries of origin to address the root causes had been 
discontinued.
    So the challenge has been made more difficult. Then we 
have, of course, the pandemic and our effort to protect our men 
and women, to protect the American people, and the individuals 
whom we are encountering and placing in our custody.
    Ms. Titus. Thank you very much.
    If I could just, a point of personal privilege. I would 
like to work with you on the UASI funding. This is very 
important--I represent Las Vegas, and it is very important to 
us that some of the changes Trump tried to make to that formula 
be readdressed so that we don't lose that needed funding to 
help us stay prepared for any kind of terrorist attack.
    Secretary Mayorkas. Thank you, Congresswoman. I very much 
look forward to working with you in that regard. I am very 
familiar with the formula that underlies the UASI grants.
    I understand some of the concerns with respect to that 
formula, and I look forward to working with you to ensure that 
the formula is what it needs to be beginning in fiscal year 
2022.
    Ms. Titus. Thank you so much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back.
    The Chair recognizes the gentleman from Florida, Mr. 
Gimenez, for 5 minutes.
    Mr. Gimenez. Thank you, Mr. Chairman.
    Mr. Mayorkas, it is a pleasure to see you here.
    I have got a couple of questions.
    Is it unlawful for someone to enter the United States 
without proper authorization?
    Secretary Mayorkas. I am sorry, without--forgive me, 
without----
    Mr. Gimenez. Proper authorization, whether you are a 
citizen, whether you are an alien, and you have got some kind 
of visa to enter the United States.
    Secretary Mayorkas. An unlawful entry into the United 
States is certainly unlawful, yes.
    Mr. Gimenez. OK. So somebody who doesn't have proper 
authorization entering the United States is an unlawful entry. 
Is that correct?
    Secretary Mayorkas. Yes, that is correct, Congressman.
    Mr. Gimenez. You stated, I believe, on several occasions 
people have asked you, you made a statement to migrants across 
the border that were looking to come into the United States, 
``Don't come now.'' Have you said that?
    Secretary Mayorkas. I don't recall. But I think the message 
is, in fact, not to come to the border, not to take the 
perilous journey.
    The border is not open. We are expelling individuals by 
reason of the public health situation under the CDC's Title 42 
authority.
    We are building--rebuilding, I should say--legal pathways 
for individuals who have claims for relief that the laws of the 
United States recognize and support.
    Mr. Gimenez. So you didn't say don't come now? You are 
saying don't come unless you meet more of these criteria? Is 
that your position?
    Secretary Mayorkas. If you are speaking of individuals who 
are seeking to come to the Southwest Border, the message is do 
not come.
    Mr. Gimenez. Do not come. Unequivocally, do not come.
    Secretary Mayorkas. That is correct.
    Mr. Gimenez. Thank you.
    I had the privilege of being with some of your agents this 
past Monday, and they were quite candid in what they required 
to do their job. No. 1 was personnel.
    You said that--and I am not sure this was you want to 
rightsize or you want to have appropriate number of people 
staffing at Customs and Border Protection.
    Are you going to be asking for additional personnel in your 
budget request to the President?
    Secretary Mayorkas. Yes, I will be. Yes, I have.
    Mr. Gimenez. OK. Thank you.
    The second thing that they asked, and it was pretty 
specific on their order, was finish the wall. I know that the 
President stopped the construction of the wall, even portions 
of the wall that were already appropriated in a bipartisan 
manner.
    So are you going to be asking the President to finish the 
wall, the wall that has already been appropriated by Congress?
    Secretary Mayorkas. No, I will not. If I may speak to that, 
Congressman----
    Mr. Gimenez. Even though your own Customs and Border Patrol 
agents are saying that is definitely something that they could 
use, something that they want?
    Secretary Mayorkas. That is not the response of the United 
States Border Patrol with unanimity. I will tell you from 
experience that that is not the path that individuals on both 
sides of the aisle believe is the correct one.
    One of the individuals, one of the members of the U.S. 
Senate who was a hero in my home growing up, was John McCain. I 
remember when I was a nominee to be the deputy secretary of 
Homeland Security, then-Senator McCain articulated what we 
needed to do to innovate and modernize our defenses along the 
border.
    We didn't, nor should we, rely exclusively on physical 
barriers because the border is not the same across its many 
miles of stretch, and the migration challenges are not the same 
along the many miles of the border on the south and, in fact, 
on the north as well.
    It is a combination of things. It is----
    Mr. Gimenez. Mr. Secretary, I only have a certain amount of 
time.
    So it is funny you say that you don't have unanimity on 
that. I am talking about the portions of the wall that have 
already been funded. Your agents, every single one of the 
agents that I spoke to, said that they would like to have those 
portions finished, that there are portions that were about to 
be rebuilt that were stopped and it made no sense. So I would 
ask you to reconsider what you are saying.
    I agree with you, there are places where the wall is 
appropriate, and there are places where the wall is not 
appropriate.
    Because the final thing they said was they needed 
technology and they needed additional technology. There was 
apparently some other--some kind of technology that they all 
really want. But that was third after building the portions of 
the wall that were basically stopped by the Biden 
administration.
    So I would ask you to reconsider that and talk to your 
border agents, and they will tell you which portions of the 
wall should be built and continue to be built and where 
technology would actually be a better thing. I don't disagree 
that technology in some areas is a much better, much better way 
of handling it than a physical barrier.
    Finally, that is all I have. I am going to yield the 
balance of my time to Mr. Katko.
    Chairman Thompson. You have no time to yield.
    Mr. Gimenez. OK.
    Chairman Thompson. The Chair recognizes the Congresswoman 
from New Jersey, Mrs. Bonnie Watson Coleman.
    Mr. Katko. Mr. Chairman, I just want to commend Mr. Carlos 
Gimenez for trying at least.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Jersey, Mrs. Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I just want to take note of a couple of things.
    No. 1 is that we are talking to an individual who has been 
on the job about 2 months trying to undo the inhumanity and the 
incompetency of a 4-year term before that, and we need to 
recognize that as we are beating him up.
    Second, it is really interesting for me to see that my 
Republican colleagues have so many concerns that children and 
migrants may very well be spreading the coronavirus.
    So let me just start by saying that I am glad to hear that 
they are interested in it and that they are concerned about the 
pandemic, but I would note, though, that not one Republican in 
Congress voted for the American Rescue Plan, which provides 
desperately-needed resources to fight this pandemic and provide 
relief to the American family.
    So it poses a question to me as to whether or not we are 
really feigning concern and care at this point.
    But, Mr. Mayorkas, I would like to switch my area of 
questioning with you. I am the subcommittee Chair of the TSA 
subcommittee, and I want to talk to you about the TSA work 
force.
    I am concerned that the predicate upon which it was 
originally designed, giving the Department flexibility and, 
therefore, not giving the individuals the kind-of same 
protections on the front lines that Title 5 of the U.S. Civil 
Service Act Code provides, has now resulted in individuals who 
have worked with this agency for some 20 years who have never 
seen a decent increase in pay, who don't have the same rights 
and privileges and protections that other unionized employees 
receive.
    That I think is unfair and that I think is unnecessary, and 
I think that we are now entering an administration that has 
greater respect for the value of unionization and the value of 
equity and equality among the work force.
    So I know that some of these things, particularly putting 
these individuals under Title 5, is something that you can do 
administratively, and I would hope that you would. But if not, 
we are also willing to engage in a legislative response to it. 
I, in fact, am a cosponsor of Mr. Thompson's bill that would do 
just that.
    But what I would like to ask you is, are you willing to 
work with us to try to accomplish this from an administrative 
perspective and that we can certainly codify it later on?
    Secretary Mayorkas. Congresswoman, thank you so much.
    I most certainly am. I will tell you that I am very focused 
on this issue. I have spoken with Chairman Thompson about it, I 
have spoken with union leadership about it. I have spoken with 
the personnel throughout the TSA establishment about it during 
a town hall that we had last week.
    It is an issue with which I am familiar by reason of my 
prior service, and I am studying it very carefully and with 
urgency, because I understand the concerns that you have and I 
share them.
    Mrs. Watson Coleman. Thank you very much.
    I am not sure how much more time I have left. But at some 
point I would certainly like you to tell me what you were doing 
to improve upon the backlog of the H-4 visas, because the 
backlog--the former administration's incompetence in dealing 
with this area as well resulted in a backlog, resulted in women 
not having jobs outside of their homes. It has impacted family 
incomes. It has actually robbed us of high-level skills and 
education that would be helpful to us and our economy.
    Secretary Mayorkas. Thank you, Congresswoman. I look 
forward to meeting with you and understanding better your 
concerns in that regard.
    I am very familiar with U.S. Citizenship and Immigration 
Services and its struggling financial situation. I am aware of 
the financial assistance it received from Congress because of 
that.
    Mrs. Watson Coleman. I am a Member of the Appropriations 
Committee, and I need you to know that I am an ally when it 
comes to ensuring that the Department of Homeland Security has 
the resources that it needs in order to be able to accomplish 
its diverse responsibilities.
    I also fully recognize that that agency has been starved. 
It has been starved for talent, and it has been starved of 
manpower and womanpower. I will do anything that I can to 
ensure that you all are treated with the respect that you need 
in order to keep us safe and secure in the homeland.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Kansas, Mr. 
LaTurner, for 5 minutes.
    Mr. LaTurner. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. I 
appreciate your time.
    I want to talk about something fundamental, because that is 
what is on the minds of the people that I represent in Kansas.
    President Biden imposed a so-called deportation moratorium. 
He ceased unilaterally construction of the Southern Border 
wall, terminated the migrant protection protocols.
    His border immigration policies and rhetoric undermine, in 
my opinion, a core American value of American life, and it is 
the rule of law.
    This principle has guided and sustained our country for 
more than 2 centuries. If we reward unlawful migration with the 
greatest prize anywhere in the world, and I think you would 
agree with that, which is American citizenship, we will erode 
the legitimacy of our immigration system, which is the most 
generous system anywhere in the world.
    So, Secretary, what message do you think this is sending to 
the millions around the world who play by the rules, who 
respect our laws, and are waiting their turn to come to our 
country for the chance at a better life?
    Secretary Mayorkas. Congressman, we have had a broken 
immigration system ever since I can remember, and I have never 
heard anyone say otherwise. Yet we haven't been able to fix it 
legislatively. It is my hope that we finally do.
    The migration challenge that we are facing at the Southwest 
Border is not new. We confronted it in 2019 and 2014 and before 
then. It is a reflection of the fact that our system is broken. 
It is a reflection of other facts as well, of which I have 
spoken in my testimony earlier.
    Mr. LaTurner. Mr. Secretary, do you think it is a 
reflection of the rhetoric of President Biden and the policies 
that he has implemented since coming into office? Do you think 
that has had an impact on the increase?
    Secretary Mayorkas. I do not.
    Mr. LaTurner. I just--the American people heard that 
answer, and they are not buying it.
    Mr. Chairman, I would like to yield the remainder of my 
time to Ranking Member Katko.
    Chairman Thompson. The gentleman from New York is 
recognized for the balance of the time.
    Mr. Katko. Thank you, Mr. Chairman.
    Just a couple of things. Mr. Mayorkas, I think you will be 
happy to hear that I have got a question that is not about the 
border. But I have do have to make a couple of observations 
first.
    I want to commend you, first of all, for acknowledging that 
while it is the policy of Homeland Security to have 100 percent 
testing at the border, you are nowhere near there, and I 
appreciate you for acknowledging that. When you get 100 percent 
testing of everyone that comes across the border, I would 
appreciate you just letting us know, because I want to 
personally congratulate you when that happens.
    Second of all, with respect to you not recalling whether or 
not you said, ``Don't come now,'' I am looking at the a White 
House briefing from March 1, and it states, quote, from you, 
saying, ``Don't come now because we will be able to deliver a 
safe and orderly process to them as quickly as possible.''
    Does that refresh your recollection as to whether you said 
before, ``Don't come now''?
    Secretary Mayorkas. Congressman, the point is, the bottom 
line is----
    Mr. Katko. No, I understand. I just wanted to refresh your 
recollection.
    Secretary Mayorkas. The bottom line is that the border is 
not open.
    Mr. Katko. I understand. OK. Thank you.
    Secretary Mayorkas. That we had----
    Mr. Katko. Sir, thank you so much. Thank you very much. I 
would just appreciate it if you would answer the question 
directly.
    Another quick observation, and that was that when I went to 
El Paso this weekend I spoke to probably a hundred different 
Border Patrol agents, some of whom had been assaulted, one of 
whom described the incident within a night or two before where 
they came across, where there was not good fencing, and they 
had been assaulted by people coming across and they were 
injured. There wasn't a single one of those 100 people who 
didn't say that we should finish the barrier because it does 
help keep things under control.
    So I will just offer that up for your consideration and the 
consideration of the administration.
    But the question I have for you, sir, is about 
cybersecurity and the CISA director. As you are aware, CISA 
finds itself on the forefront of not just 1 but 2 potentially 
very significant cyber intrusions facing Federal networks and 
the private sector. As I said in my letter to President Biden 
last week, I am very concerned about the delay in nominating a 
CISA director.
    Can you speak to the delay in naming the nominee? Would you 
agree that now more than ever we need a permanent political 
leadership at CISA?
    Secretary Mayorkas. Congressman, we are very focused on 
filling the vacancies of leadership across the Department. It 
is an issue that I work with the White House on every single 
week. As a matter of fact, had a conversation yesterday on that 
very subject.
    I will say, I will say that, yes, we do need a politically-
appointed, Senate-confirmed leadership in a number of positions 
throughout the Department of Homeland Security. We are very 
fortunate to have extraordinary talent in an acting capacity, 
and CISA is no different, in Brandon Wales.
    Mr. Katko. Yes, he has done a wonderful job, I admit that. 
But acting is not the same as permanent.
    Secretary Mayorkas. Agreed.
    Mr. Katko. Anything I can do to help move that process 
along, let's do that in a partnership, because CISA director is 
critically important.
    Thank you. I yield back, Mr. Chairman.
    Secretary Mayorkas. Thank you. Thank you, Congressman. I 
look forward to that.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from California for 5 
minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman, for holding this 
meeting.
    Thank you, Mr. Secretary, for being with us today.
    Secretary Mayorkas, I want to turn to a topic of deported 
veterans.
    In this country we have people who sign up to serve in the 
military, they can go fight in war, and if they get killed in 
war they become a United States citizens, but if they survive 
and come back home they can still be deported.
    I think it is completely unacceptable. On both sides of the 
aisle, we should all be raising an alarm bell.
    On his first day in office, President Biden proposed a plan 
to overhaul the immigration system, address the root causes of 
migration, and expand legal pathways for immigration.
    What will the Department of Homeland Security do to support 
our non-citizen veterans returning home after service?
    Secretary Mayorkas. Congresswoman, thank you very much for 
your question. I raised this very issue 2 days ago. I think 
your use of the term ``alarm'' is a fair one.
    This is an issue that requires urgent action, and I look 
forward to speaking with Secretary of Veterans Affairs 
McDonough to see what we can do about it.
    We owe the individuals who have served in our Armed Forces 
so very much. Our freedom is because of them.
    I look forward to following up with you in this regard.
    Ms. Barragan. Thank you very much.
    Mr. Secretary, as you are aware, [inaudible] 2021, the 
Department of Homeland Security began the wind-down of the 
Migrant Protection Protocols and began allowing individuals in 
the program to pursue their asylum cases while in the safety of 
the United States.
    This is a welcome first step, and I applaud the Department 
of Homeland Security for moving quickly to shut down this 
horrific program which exposed asylum seekers to violence and 
dangerous conditions.
    However, the process announced so far only applies to 
individuals in MPP with an active case before the immigration 
courts. There are many other people who were subjected to MPP 
that are not covered under the plan that DHS announced, 
particularly asylum seekers who were formerly in MPP.
    DHS has called the current MPP wind-down Phase 1 and has 
stated that asylum seekers who do not have active MPP cases 
should await further instructions.
    Will there be additional phases to the MPP wind-down plan?
    Secretary Mayorkas. Congresswoman, we are looking at that 
very question right now, as you can well imagine. We are 
addressing these issues that impact the Southwest Border in a 
prioritization matrix, and I look forward to conferring with 
you about how we are looking at it, the timing that we are 
thinking of. But first things first, we are going to address 
the challenge that we are confronting right now.
    Ms. Barragan. Thank you, Mr. Secretary.
    Is there any expectation on timing on when that 
announcement might be made?
    Secretary Mayorkas. No. I think right now we are addressing 
the immediate needs of the Southwest Border as we have been 
discussing throughout the hearing.
    Ms. Barragan. Thank you.
    Mr. Secretary, President Biden has made a commitment to 
restore access to asylum at the U.S.-Mexico border, and we 
welcome efforts led by the President and the agency you lead to 
undo the MPP Remain in Mexico policy and to begin the process 
to be able to allow asylum seekers really the rights that they 
are entitled to under the U.S. law.
    I would like to address some of the misrepresentations that 
we have heard about the situation at the border.
    Wouldn't you agree that it is inhumane to put children in 
danger?
    Secretary Mayorkas. I would. I would.
    Ms. Barragan. Isn't it true that in some cases families are 
admitted because of a change in Mexican law, not U.S. policy?
    Secretary Mayorkas. It is our practice under the CDC's 
Title 42 public health authority to expel families. The 
limitation on that is if, in fact, at particular points in time 
Mexico does not have the capacity to receive the families that 
we seek to expel. Then we place those families in immigration 
proceedings, and if, in fact, they do not have a claim for 
relief under the law, they are to be and will be returned.
    Ms. Barragan. Yes. I am referring to a Mexican policy that 
has recently changed where Mexico is refusing to take some 
asylum seekers. Are you aware of that?
    Secretary Mayorkas. I am aware of the change in law, 
Congresswoman. The change in law provides that families with 
children of a particular age are to be in the custody of a 
particular organization, a government organization in Mexico 
rather than the immigration authorities. That is, as I 
understand it, the change in Mexican law.
    Ms. Barragan. Thank you, Mr. Secretary.
    The Mexican law was passed during the Trump administration, 
and they did build capacity to prepare for its implementation.
    With that, Mr. Chairman, I know I am out of time. 
Appreciate the time.
    Thank you for your efforts, Mr. Secretary.
    I yield back.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Michigan for 5 
minutes, Mr. Meijer.
    Mr. Meijer. Thank you, Mr. Chairman and Ranking Member and 
Secretary Mayorkas for joining us.
    I just want to second many of the concerns that my 
colleagues had around our border security and around the strong 
influx of both asylum seekers and migrants more generally at 
the border. It is obviously a pressing challenge, and I hope we 
will continue to work together to address it.
    But I wanted to touch upon another area of focus dealing 
with immigration, and that has to do with the H-2B visa 
program.
    Earlier this month, a bipartisan delegation of Members of 
Congress from Michigan, including myself, sent a letter 
addressed to you regarding that H-2B visa program. These visas 
are incredibly important to the economy of Michigan and to many 
folks who are dealing with especially seasonal tourism workers.
    I think there is a strong need and a collective desire to 
fix this program so we can offer our businesses, especially 
those bouncing back from deep struggles over the past year due 
to COVID and the lockdown restrictions that we have had, to 
make sure that they are well situated in order to come back as 
we are on the upswing this summer.
    So we have many small and seasonal businesses in Michigan 
that rely on H-2B visa holders for employment. They struggle to 
find employment otherwise that is not just seasonal visas. We 
are a State that has a strong domestic tourism component in the 
spring and summer months. So this is a vital component of our 
economy.
    Not too long ago DHS announced that the 33,000 H-2B visa 
cap for the second half of the fiscal year was already reached.
    Now, there still remains a critical labor shortage and a 
need for seasonal business workers across Michigan, in addition 
to the rest of the country. We are experiencing significant 
unemployment in this country more broadly for which, as part of 
the American Rescue Plan, we have a very generous Federal top-
up of extended unemployment insurance.
    But we still need the seasonal workers in order to fulfill 
these jobs, in order to support the hundreds and thousands of 
American citizens whose jobs depend on these tourism sectors, 
especially in parts of northern Michigan.
    So it is essential that we have additional visas be granted 
as soon as possible so we can begin to have those businesses 
plan to reopen for the 2021 summer tourism season. Under the 
law, you have been given the authority to determine if this cap 
of 33,000 is raised.
    So I guess I would like to work with your office--and, 
again, that is why we extended our letter earlier--to advocate 
this cap be raised.
    So I guess my first question to you, does the Department 
currently have a plan or a proposed time line for making a 
determination on this visa cap?
    Secretary Mayorkas. Congressman, thank you very much. Thank 
you for your letter, which I have read.
    I have been studying the H-2B issue. You are correct that 
the annual cap has been reached. The annual cap is 33,000 in 2 
parts, a total of 66,000.
    The Secretary of Homeland Security has the authority to 
waive that limit and issue new H-2B visas. I am taking a very 
close look at that.
    The waiver authority has been exercised many times in the 
past, usually in June, as I understand it in speaking with 
colleagues. I am looking at it with urgency because I 
understand your point about its seasonal nature, of course, and 
the summer months are looming.
    If, in fact, that waiver of authority is exercised, I 
understand that the speed with which it is exercised is vitally 
important to the market of which you speak.
    So I would be very happy to speak with you outside of this 
hearing and confer about the issue of H-2B visas.
    I do think that there is----
    Mr. Meijer. I do thank you, Mr. Secretary.
    Secretary Mayorkas. Oh, I am sorry. I am sorry, 
Congressman.
    I do think there are some reforms needed in that program, 
but perhaps they will not be accomplished in short order 
understanding the urgency with which you speak for the people 
of Michigan.
    Mr. Meijer. Thank you, Mr. Secretary. I am glad that you 
appreciate that a lot of these businesses are hanging on by a 
thread as is. In order to be fully staffed by the time both the 
season is starting and as additional vaccinations and 
restrictions are anticipated to be lifted, that planning 
requires months of work in advance. Obviously, getting those 
visas in and getting the travel and the time line set up is 
critical as well.
    So I am heartened that you appreciate the urgency of the 
matter, and I look forward to working closely with your office 
on this and am grateful that you are willing to work together 
with us to solve this problem, both addressing the short-term 
needs in the upcoming 2021 season and also focusing on what we 
can do in the long term to better reform these programs.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Virginia, Mrs. 
Luria, for 5 minutes.
    Mrs. Luria. Thank you, Mr. Secretary, for joining us today.
    I wanted to shift the discussion to our ports and Customs 
and Border Patrol. In my district, we have the Port of 
Virginia, and I recognize the critical role that Customs and 
Border Protection plays within the transportation [inaudible] 
especially with regards to [in audible] maritime ports and the 
[inaudible] our port container traffic through there.
    But in the last few years, Customs and Border Patrol has 
increasingly relied on the ports and other non-Federal entities 
to provide both facilities and payments of overtime for its 
officers in order to meet their operational needs.
    In my district, for example, the Port of Virginia has had 
to pay approximately half a million dollars annually for the 
reimbursement to Customs and Border Patrol for overtime pay. 
These are services that ostensibly through the customs fees 
that are collected should be able to support our ports without 
having to have an additional non-Federal contribution.
    So I just wanted to ask you today if you would be able to 
provide to our district and also other ports the list of 
unfunded requirements on both the staffing and facilities that 
Customs and Border Patrol would need to be able to meet their 
requirements for both overtime and facilities without asking 
our local communities to make an additional investment in order 
to continue operation of our ports.
    Secretary Mayorkas. Congresswoman, I look forward to 
looking into that and reporting the results out to you and 
meeting with you on this subject.
    It is not one that I am intimately familiar, quite 
candidly, but I will share with you, I know that our fee 
revenue at Customs and Border Protection is down.
    But I am not familiar with the sharing of responsibility, 
if you will, for overtime. I will look into that very quickly 
and circle back with you.
    I appreciate it.
    Mrs. Luria. I appreciate that. Thank you so much. We really 
appreciate the support that Customs and Border Protection 
provides to the Port of Virginia.
    Another issue I wanted to touch on briefly is about FEMA 
and disaster preparedness. We are in a coastal region that is 
frequently experiencing nuisance flooding, sunny day flooding, 
kind-of on-going flooding issues that have become increasingly 
more prevalent.
    I wanted to talk with you about ways that FEMA could assist 
communities that have to deal with these continuing and on-
going issues that are not one-time natural disasters, such as a 
large storm, and how we could work together with the 
communities to deal with [inaudible] onset or continuing 
hazards and how FEMA can be more involved in helping our 
communities address that issue.
    Secretary Mayorkas. So I look forward to meeting with you 
about that as well because that is something that we are 
looking at, especially given climate change and its impacts on 
the Homeland Security and our mission sets and how we can best 
equip local communities to address the impacts of climate 
change, severe weather conditions being one of them.
    So I very much look forward to working with you in that 
regard, and we will schedule a meeting to that end. I thank 
you.
    Mrs. Luria. Well, thank you, Mr. Secretary.
    Last, I am new to this committee but have been serving 
previously also on Armed Services. I am very glad to be serving 
on the Transportation and Maritime Security Subcommittee of 
this committee and am interested in the Coast Guard and the 
continued possibility of expanding Coast Guard operations in 
the Western Pacific in support of enforcing, you know, 
unrecognized Chinese maritime claims and illegal fishery 
activities and all of those different things that are of utmost 
concern.
    So would also like to have a conversation with you about 
how we can further leverage the Coast Guard on these National 
security issues that impact our homeland.
    Secretary Mayorkas. Thank you very much. I look forward to 
that as well.
    I meet regularly with the Commandant, Admiral Schultz. Our 
acting deputy secretary, David Pekoske, hails from an 
illustrious career in the United States Coast Guard. I am very 
familiar with the issues and very much look forward to speaking 
to you about them.
    Mrs. Luria. Thank you, Mr. Secretary.
    I yield back the remainder of my time.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentlelady from Florida, Mrs. 
Cammack, for 5 minutes.
    Mrs. Cammack. Thank you, Mr. Chairman. I appreciate 
everybody's time here today.
    Thank you, Secretary Mayorkas.
    I know we have been in and out of meetings all day today, 
so if this question has been asked previously, I apologize.
    Can you tell me what FEMA stands for?
    Secretary Mayorkas. The Federal Emergency Management 
Administration.
    Mrs. Cammack. Excellent. So since FEMA has been now 
deployed to the border, that would stand to reason that there 
is an emergency on the border, correct?
    Secretary Mayorkas. Congresswoman, perhaps you did not hear 
me when I----
    Mrs. Cammack. A yes or no will suffice.
    Secretary Mayorkas. We have a very serious challenge at the 
border, and we are tackling it.
    Mrs. Cammack. So FEMA being the emergency management 
administration, they deal with emergencies. They are now being 
deployed to the border and it is not an emergency? Is that what 
I am hearing?
    Secretary Mayorkas. Congresswoman, if you will allow me. 
FEMA, the men and women of FEMA have tremendous capabilities, 
operational capabilities to address challenges that we confront 
in a series of our mission sets. We----
    Mrs. Cammack. I am glad you said--I am so sorry. I have to 
reclaim my time because I am very limited. I am glad you said 
that, because the men and women of FEMA are incredible.
    I represent a hurricane-prone State, so this is really 
important to me, especially as the Ranking Member of the 
Emergency Preparedness and Response and Recovery Subcommittee.
    So with everything that we have going on, a global 
pandemic, a border crisis, with everything happening, does FEMA 
have the resources necessary to effectively respond to the 
pandemic, the border crisis, and the upcoming hurricane season, 
in your opinion?
    Secretary Mayorkas. Yes.
    Mrs. Cammack. Yes, they do?
    Secretary Mayorkas. Yes.
    Ms. Cammack. Excellent.
    Secretary Mayorkas. Let me share with you a glowing example 
of that.
    As I said at the outset, the President set an ambitious 
goal for FEMA to set up 100 Federally-supported community 
vaccination centers in 30 days. They stood up 441 in 30 days, 
and the number is over 900 today.
    Their capabilities are extraordinary, and I have tremendous 
confidence in their ability to provide the assistance that they 
are to Health and Human Services in addressing [inaudible] 
handling the issue of the unaccompanied children arriving in 
large numbers at our Southwest Border and their other mission 
sets, tremendous confidence.
    Mrs. Cammack. Excellent.
    So real quick, talking about the infrastructure, and I know 
FEMA is great when it comes to standing up infrastructure; but 
talking about DHS as a whole--and I know you all play a role 
here--do you support the walls around the Capitol region?
    Secretary Mayorkas. What wall? Are you speaking of the 
fencing, Congresswoman?
    Mrs. Cammack. Yes, the 10-foot wall, fencing with razor 
wire around it.
    Secretary Mayorkas. Congresswoman, that is a----
    Mrs. Cammack. It is just a yes or no.
    Secretary Mayorkas. Congresswoman, if I may, that is an 
issue that I have not studied, I have left to the security 
experts with respect to what particular type of physical 
barriers are best suited for the protection of the Capitol 
region.
    Mrs. Cammack. Secretary, and I apologize. I know I am new 
here, and I know you are new here, but as Secretary of DHS----
    Secretary Mayorkas. Well, I am trying to answer your 
question.
    Mrs. Cammack [continuing]. Of Homeland Security, you are 
telling me that you haven't studied whether or not a 10-foot 
fence around the Capitol region is necessary as Secretary of 
Homeland Security?
    Secretary Mayorkas. Congresswoman, I have deferred to the 
experts with respect to the nature of the physical barrier that 
is most effective in protecting the Capitol region, where that 
barrier should be----
    Mrs. Cammack. OK.
    Secretary Mayorkas [continuing]. Whether it should be 
singular in nature, wherever it is, or whether it should vary--
--
    Mrs. Cammack. Secretary Mayorkas, I appreciate that. I am 
going to reclaim my time because I think we can both agree that 
physical barriers do work.
    But I do want to bring it home a little bit because I know 
several of my colleagues have talked about the statistics, the 
numbers of those folks coming over the border. But I just want 
to bring it home a little bit.
    See, I am from a small town out West, and the month before 
I was supposed to graduate high school, which was 2006, one of 
my classmates was kidnapped by an illegal who had been deported 
multiple times.
    I think when you have policies that incentivize folks to 
come over illegally and we don't have the proper mechanisms in 
place to protect our borders, as you say, FEMA has been 
deployed and they are an emergency agency, that kind of impact 
has resounding effects.
    So my question to you--her name was Amber Scott, the young 
lady that was kidnapped by this illegal criminal.
    Chairman Thompson. The gentlelady's time has expired.
    Mrs. Cammack. How many more Ambers have to be kidnapped 
across America before you will take action?
    Chairman Thompson. The gentlelady's time has expired.
    Mr. Secretary, if you want to answer the question, you can.
    Secretary Mayorkas. Mr. Chairman, may I answer that 
question?
    Chairman Thompson. Yes.
    Secretary Mayorkas. Congresswoman, I find that question to 
be extraordinarily disrespectful, disrespectful not only to me, 
but disrespectful to the men and women of the Department of 
Homeland Security and to all the front-line personnel 
throughout this country who dedicate themselves to the safety 
and security of the American people.
    Mrs. Cammack. I am sorry you feel that way. I am sure the 
American people feel very disrespected about the border 
situation they are facing right now.
    With that, I yield back.
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Gottheimer, for 5 minutes.
    Mr. Gottheimer. Thank you, Chairman Thompson, for 
recognizing me.
    Secretary Mayorkas, welcome to the committee. Thank you for 
your service. I look forward to working together to help 
protect our great country.
    With the attack on the U.S. Capitol on the 6th of January, 
we witnessed the merging of a wide range of domestic extremist 
ideologies, including members of groups with international ties 
like the Proud Boys, domestic extremist militia groups like the 
Oath Keepers and Three Percenters, as well as followers of 
QAnon, Stop the Steal, and other movements.
    If I can ask, as head of the Department of Homeland 
Security, do you agree that racially- and ethnically-motivated 
violent extremists present one of the greatest threats to our 
safety and security as Americans?
    Secretary Mayorkas. I certainly do, Congressman.
    Mr. Gottheimer. Thank you.
    If so, how is DHS working to strengthen its understanding 
of these extremist groups and how they organize?
    Secretary Mayorkas. Congressman, we are gathering 
intelligence and information from varied sources. We are 
communicating that information to State, local, Tribal, and 
territorial personnel to ensure that our first responder 
communities across the country are well-equipped with that 
information.
    We have dedicated funding to equip State, local, Tribal, 
territorial organizations with the ability on their own to 
detect and respond to those threats.
    We have a number of different efforts under way. We work in 
close partnership with the Federal Bureau of Investigation in 
the dissemination of products to communities through a joint 
information bulletin.
    We have many efforts under way, and I look forward to 
elaborating with you when we meet outside the context of this 
hearing. We welcome that opportunity.
    Mr. Gottheimer. Thank you so much. I do as well, sir.
    In my home State in New Jersey, the Office of Homeland 
Security and Preparedness has been warning of the threat of 
militia extremist groups for several years now. In fact, it was 
the very first Government entity in the United States to label 
White supremacy as a top-level terror threat. The State's 
Fusion Center also produces analysis and shares intelligence 
related to domestic terrorism threats.
    One thing that has come up over the years now with DHS is 
how to make sure it does a better job disseminating and making 
use of information analysis produced by States like New Jersey 
and other State homeland security agencies to counter domestic 
terror threats.
    Is that something you have plans of doing more of? I just 
wanted to get a sense of what your strategy is there.
    Secretary Mayorkas. Most certainly. Our ability to gather 
together information and intelligence and disseminate it 
effectively to the first responder community throughout the 
country is an essential element of our battle against domestic 
violent extremism.
    We have extraordinary individuals here in the Department of 
Homeland Security who are focused on that. You mentioned, 
Congressman, the Fusion Center in New Jersey, and I am familiar 
with it. I am very familiar with the National Fusion Center 
organization led by Mike Sena, and that is a critical vehicle 
in my mind.
    We have to really resource the fusion centers so that we 
have an architecture across the country to use the information 
advisedly and effectively in countering this very serious 
threat that our homeland faces.
    Mr. Gottheimer. Grateful for that.
    As you probably are aware, it seems that many of these 
domestic terror groups and movements are increasingly 
decentralized and don't always rely on a single leader or 
defined structure.
    What challenges do you see that are unique or particular by 
these threats from a decentralized extremist network? What 
threats does that provide to the homeland and to law 
enforcement? What do you think we should be doing about that?
    Secretary Mayorkas. Congressman, I think the fact that it 
is a decentralized threat, that it is so diffuse, that we are 
speaking of loose affiliations, we are speaking of lone actors, 
we are addressing the fact that the problematic ideology that 
underlies their drive to violent acts is so easily disseminated 
throughout social media, that presents a challenge that is 
really quite difficult.
    I met as recently as yesterday with personnel, my 
colleagues across the Federal Government, to develop strategies 
and best understand the threat and how we can most effectively 
confront it on behalf of the American people.
    Mr. Gottheimer. Thank you, Mr. Secretary. I look forward to 
working together. Thank you so much.
    I yield back.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. Pfluger.
    Mr. Pfluger. Thank you, Mr. Chair.
    Thank you, Mr. Secretary. I appreciate your words saying 
that you will do everything you possibly can to support the CBP 
agents, those in DHS that are doing their level best every 
single day to protect this country.
    I want to clarify something. You said very emphatically 
that the border is secure today. You have also said that it is 
not open. So what you are saying is that we, your own CBP 
agents, are apprehending 100 percent of those who are illegally 
crossing?
    Secretary Mayorkas. The United States Border Patrol does an 
exceptional job in----
    Mr. Pfluger. Are they apprehending 100 percent of the 
illegal crossings?
    Secretary Mayorkas. I don't know of any reason to believe 
that they are apprehending a smaller percentage that has 
historically been the case.
    Mr. Pfluger. OK. So my definition of security----
    Secretary Mayorkas. They do their best, as I do my best----
    Mr. Pfluger. Excuse me, sir. When I look at the definition 
of security, it says that it is the state of being free from 
danger. As a fighter pilot, I would never call something secure 
if there were got-aways. Your agents have told me in the last 2 
months that on average 4,500 to 6,000 got-aways are crossing 
the border every single day.
    The most concerning is the known or suspected terrorists of 
which we know, and from this testimony, those have crossed 
over.
    So are you certain that we have apprehended 100 percent of 
the KSTs that have crossed the border?
    Secretary Mayorkas. Congressman, I have no reason to 
believe that we have not.
    But I must tell you, I am completely unfamiliar with the 
data that you referenced. I am not certain of the accuracy of 
the information that you have.
    I also am very troubled by the definition that you quoted. 
Can you repeat that definition?
    Mr. Pfluger. It is just a simple definition from the 
dictionary.
    I would like to move on with the data, because it is 
certainly not surprising. I would ask, you are you willing to 
release the got-away number on a weekly basis?
    Then, likewise, when it comes to known or suspected 
terrorists, will you commit today to providing a Classified 
brief, a comprehensive brief that gets into the affiliation of 
these terrorists and also speaks to the JTTF or their ICE 
concerns?
    Secretary Mayorkas. Congressman, I will honor my 
obligations to provide this committee with information as the 
primary committee of jurisdiction.
    Mr. Pfluger. Thank you for that. I appreciate that.
    I would like to move into something that is extremely 
concerning.
    On Sunday, Midland, Texas, my home district, without 
notification, without coordination, without any alert to the 
local or State officials or to my office, received an emergency 
intake center with 700--up to 700 UACs between the age of 15 to 
17, with no--saying that they were not going to have any 
criminal or behavioral issues, that they would be there for 2 
to 3 weeks, if they are placed into this situation in Midland.
    What I am wondering is, is that site going to be there for 
2 to 3 weeks? Are there further sites that are going to exist? 
Why was there no coordination with local or State officials 
prior to this happening? How do we verify the age of those 
individuals that are there?
    Secretary Mayorkas. Congressman, it is our responsibility 
to communicate effectively with local communities when we have 
actions under way in them.
    If there was a failure to communicate with local officials 
with respect to our plans to open a facility in Midland, Texas, 
to shelter unaccompanied children, then that is a failure on 
our part. I will follow up and make sure that does not happen 
again.
    Mr. Pfluger. We are very concerned about that failure of 
communication. The folks in my district and along our southern 
part of my own Congressional district lie approximately 100 
miles from the border.
    The reason that I started out with the questioning is 
because we are very worried about the security. When you say 
the border is secure and there are literally hundreds, if not 
thousands of folks that are crossing that are not contacted, 
that are not apprehended, I have major concerns about that.
    We know this because there are drones that see these 
individuals crossing without contact. We know this because of 
the sign cutting along the border where there are not physical 
barriers or technology.
    Mr. Secretary, it is very concerning our policies in the 
last couple of months that have reversed course. I don't have 
to go back into detail for this hearing today on the 
questioning that has already happened.
    Will you commit to doing everything you possibly can to 
secure our border?
    Secretary Mayorkas. Yes, I will. I have, as have the men 
and women of the Department of Homeland Security. We have been 
unwavering in that commitment. Your citation to the past 2 
months in the context of this issue I would respectfully submit 
is misplaced.
    Mr. Pfluger. Well, I appreciate what the Border Patrol, 
Customs and Border Protection agents do. They put their life on 
the line every single day. My utmost respect to them and their 
families because they truly are giving everything they have to 
keep our country safe. More needs to be done.
    Secretary Mayorkas. Thank you. Thank you, Congressman.
    Mr. Pfluger. Thank you.
    Mr. Chairman, thank you.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Malinowski, for 5 minutes.
    While he is coming, we will recognize the gentleman from 
New York for 5 minutes, Mr. Torres.
    Unmute yourself.
    Mr. Torres. I think the Congressman came, so I will defer 
to him.
    Mr. Malinowski. Hi. I am here.
    Am I OK to go, Mr. Chairman?
    Chairman Thompson. Yes, you are.
    Mr. Malinowski. Thank you so much.
    Mr. Secretary, thank you so much more being here with us 
today.
    I will just start with an observation. As an immigrant to 
this country myself, I have been listening to this debate. I 
think it is important that we remember that over the last 4 
years we are talking about illegal immigration, we have seen an 
across-the-board effort to try to limit, shut the door to legal 
immigration to the United States.
    Asylum virtually shut down. Refugee admissions virtually 
shut down for the first time in our modern history since when 
we turned our backs on Jewish refugees fleeing Hitler's Germany 
before the Second World War.
    We have made it harder for folks to get green cards, harder 
to apply for citizenship. We have banned travel and admissions 
from particular countries.
    This is a crisis. This is a moral crisis. It is something 
that has hurt our economy. It hurts our strength and our 
position in the world.
    When I listen to my friends on the other side, I really 
think that they need to decide, as we face questions about the 
Dreamers and about immigration reform, are they still the party 
of Reagan? Are they still the party of John McCain? Are they 
still the party that agreed in 2013 to an immigration reform 
compromise very similar to what President Biden has just put 
forward?
    My Republican colleagues know--they say this very often, 
and they are absolutely right--that we are beginning a contest 
as a country with the Communist Party of China. I wish that 
they would recognize that one of our greatest strengths in that 
contest is that we are the country, the United States, not 
China, we are the country that attracts energy and youth and 
talent from around the world, that millions of people want to 
be American citizens. Millions of people want to be American 
taxpayers, want to be American soldiers.
    Why would we squander that advantage? I hope we don't for 
the sake of promoting fear in the service of political ends.
    So with that comment, Mr. Secretary, just a couple of 
questions in that spirit.
    No. 1, President Biden has pledged to raise the cap on 
refugee admissions after we nearly shut down refugee admissions 
under the Trump administration.
    Can you let us know why there has been a delay in actually 
effecting that order, signing it, and when we might expect to 
see it?
    Secretary Mayorkas. Congressman, thank you very much.
    I know that the President is considering that issue. It is 
a serious issue. He has committed to restoring our leadership 
in the world, including as a leader of--as a place of refuge 
for people fleeing persecution.
    So I will defer to him in his deliberation on that 
important issue. I know he is very committed to it.
    Mr. Malinowski. OK. Thank you.
    One element of this that I think is more under your 
control, USCIS at some point in the last administration--well, 
probably related to COVID--stopped doing in-person interviews 
for refugee applicants, but also continues, as I understand it, 
to refuse to do video interviews, even though it continues 
video interviews for people being deported, not people being 
admitted as refugees.
    Is that something that you can fix? Because there are 
situations where literally hours and days matter right now in 
terms of getting that process restarted.
    Secretary Mayorkas. Congressman, I will have to take a look 
at that to see what U.S. Citizenship and Immigration Services' 
practices are with respect to video interviews of refugee 
applicants. I will look at that and get back to you.
    I am familiar with the pros and cons of video interviews. 
They present tremendous advantages in a number of different 
respects. So I will follow up as quickly as possible.
    Mr. Malinowski. Thank you.
    With very little, limited time, very different issue, big 
controversy last year. DHS units like BORTAC were involved in 
policing civil unrest in the United States.
    Would you agree that that is not necessarily an appropriate 
role for these essentially paramilitary units and that any DHS 
units involved in policing civil unrest should not be wearing 
military uniforms, desert fatigues, should have identifying 
insignia as law enforcement does in this country?
    Secretary Mayorkas. Congressman, I am looking very 
carefully at what occurred in Portland, the deployment of 
different resources throughout the Department of Homeland 
Security. What I would like to do is give my personnel an 
opportunity to address the issues and questions that I have, 
and then I will circle back with you. I want to be respectful 
of my work force, but it is an issue that I am very focused on.
    Mr. Malinowski. Thank you so much.
    I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from New York, Mr. 
Garbarino, for 5 minutes.
    Mr. Garbarino. Thank you, Mr. Chair.
    Thank you, Mr. Secretary, for coming today and testifying.
    First question. Mr. Secretary, as you know, MS-13 is a 
transnational criminal organization whose members have 
terrorized and murdered people all over the United States and 
many people in my district over the past few years. It is the 
largest and most violent street gang on Long Island. I 
represent parts of Long Island.
    Its leadership is based in El Salvador, Mexico, Guatemala, 
and Honduras. The gang has thousands of members across the 
United States, comprised primarily of immigrants from Central 
America.
    Just yesterday multiple media outlets reported that at 
least 4 people on the FBI's terrorist watch list have been 
arrested at the Southern Border.
    What is DHS doing to secure our border and carefully screen 
migrants to ensure dangerous terrorists, like MS-13 gang 
members who murdered innocent people in my district, are not 
permitted to enter this country?
    Secretary Mayorkas. Congressman, we have a multi-layered 
screening protocol at the border, at all ports of entry. We 
screen individuals who seek to enter our country not only by 
land, but also by air and by sea.
    I would be very pleased, because I am so very proud, to 
share with you outside the context of this hearing everything 
that we do to screen individuals who are seeking to enter the 
United States and make sure that those who pose a danger to our 
communities do not enter the United States.
    We have very rigorous screening procedures in place, and 
our people are very equipped to execute those procedures.
    Mr. Garbarino. I appreciate that, Mr. Secretary.
    We talked about a little before, you know, this year is not 
the only year that people from the terrorist watch list or 
FBI's most wanted list have tried to cross the border. I 
believe in 2018 there were 6, 2019 there were zero, 2020 there 
were, I think, 3.
    But those are the whole-year statistics. We are now in 
only--it is only March 17, and we have already had 4.
    Is that concerning, that more people are trying to get in 
now? Or what is with the increase in numbers?
    Secretary Mayorkas. Congressman, I am concerned if one 
tries to come over any length of time. That is my job, and that 
is the job of the people of the Department of Homeland 
Security.
    Mr. Garbarino. OK, Mr. Secretary. Just as long as we keep 
up. Because MS-13 has been knocked back a little bit through 
increased enforcement in my district. I don't need them getting 
their foothold back in. It was not good for my district. It 
wasn't good for New York. It is not good for the country. So I 
appreciate that----
    Secretary Mayorkas. Congressman, I didn't mean to 
interrupt, but I prosecuted MS-13 gang members. I prosecuted 
many different types of gang members in my work as an assistant 
United States attorney and as the United States attorney across 
the country in the Central District of California.
    I would be very pleased to discuss with you the strategies 
that we are employing and the strategies that I have in mind to 
tackle this threat which has been too persistent for too many 
years.
    Mr. Garbarino. I appreciate that, Mr. Secretary.
    I am going to switch gears real quick. I am also the 
Ranking Member on the Cybersecurity committee. Just a quick 
question.
    Can you explain why there was no Congressional notification 
of the White House's announcement today to establish another 
unified coordination group in light of the Microsoft Exchange 
vulnerability?
    Secretary Mayorkas. Congressman, I am not familiar with the 
communication channel, what it was and what it wasn't.
    Certainly we have been amplifying the threat of 
cybersecurity throughout the country since January 20. We also 
have been amplifying the concerns around this second 
exploitation, the second threat to Microsoft.
    So I can't speak any more than that, but I would be very 
happy to follow up with you.
    Mr. Garbarino. OK. We usually--I know Congress--the 
committee is usually notified when these are announced. I don't 
believe we received any notification. So just in the future 
making sure that we stay on top of that.
    But I have one final question.
    In 2015, my predecessor, Congressman Pete King, introduced 
the First Responder Anthrax Preparedness Act, which became 
Public Law 114-268. You might not have it with you now, but can 
you provide us with a status update as to the implementation of 
that pilot program.
    Secretary Mayorkas. I would be very pleased to. I certainly 
don't have it at my disposal, but I look forward to following 
up with you, Congressman.
    Mr. Garbarino. I look forward to your answers. Thank you 
very much.
    I yield back.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. Thank you very much.
    Just for the record, we have very seldom received any 
notification on what the White House is doing, whether it is a 
Democrat or a Republican. I agree with my colleague from New 
York, it would be nice to know. But the practice is just not 
something that is ordinarily done. So maybe that is something 
we can take up.
    The Chair recognizes the gentleman from New York again, Mr. 
Torres, for 5 minutes.
    Mr. Torres. Thank you, Mr. Chair.
    Mr. Secretary, I have a few yes-or-no questions about the 
border crisis, which as of late has been the subject of 
political demagoguery.
    Isn't it true that there was a border crisis in 2019, not 
so long ago, during the Trump administration?
    Secretary Mayorkas. The numbers of individuals encountered 
at the border was extremely large in 2019.
    Mr. Torres. That is a yes.
    Isn't it true that there was a border crisis before then, 
in 2014, during the Obama administration?
    Secretary Mayorkas. The numbers were considerable then as 
well.
    Mr. Torres. Yes. Now there is one in 2021.
    Is it fair to say, contrary to politically-motivated 
storylines, that the border crisis is more of a cyclical 
occurrence than a unique consequence of Biden administration 
policy?
    Secretary Mayorkas. I would say it is episodic, 
Congressman, and we have experienced episodes of increased 
migration for many, many years, throughout many years.
    Mr. Torres. In both Democratic and Republican 
administrations?
    Secretary Mayorkas. Oh, absolutely. It speaks so profoundly 
of the need to once and for all fix our broken immigration 
system.
    Mr. Torres. I have a few yes-or-no questions about policies 
that might have caused or compounded the migrant surge.
    Isn't it true that the Trump administration cut 
humanitarian assistance meant to address the root causes of 
migration from Central America?
    Secretary Mayorkas. It did, Congressman.
    Mr. Torres. Isn't it true that the Trump administration 
canceled the Central American Minors program which would have 
enabled children to apply for asylum from their home country 
without migrating to the U.S.-Mexico border?
    Secretary Mayorkas. Yes, Congressman, it did.
    Mr. Torres. Isn't it true that during the Trump 
administration families might have been too fearful to come 
forward and take custody of children in Federal custody?
    Secretary Mayorkas. Congressman, if you are speaking of the 
memorandum----
    Mr. Torres. Yes.
    Secretary Mayorkas [continuing]. Between the Health and 
Human Services and Immigration and Customs Enforcement, yes, 
the pernicious effect of that memorandum was, in fact, to chill 
relatives, sponsors, from coming forward to shelter 
unaccompanied children indeed.
    Mr. Torres. So is it fair to say that the seeds of the 
present border crisis were planted long before you assumed 
office?
    Secretary Mayorkas. I would say, Congressman, that the 
challenge that we are confronting at the border is made far 
more difficult by reason of the factors that you have 
identified and some others as well.
    Mr. Torres. I have a question about the 287(g) program.
    In August 2020, then-candidate Joe Biden committed to 
ending the 287(g) program which allows State and local law 
enforcement to collaborate with ICE.
    Do you intend to fulfill that promise and end the 287(g) 
program?
    Secretary Mayorkas. I am looking very closely at the 287(g) 
program and really reestablishing a healthy relationship with 
State and local law enforcement throughout the country. I am 
very proud of the support from the law enforcement community 
that I received when I was a nominee to be the Secretary of 
Homeland Security----
    Mr. Torres. Mr. Secretary, do you intend to end it? Are you 
going to modify it? What is the plan?
    Secretary Mayorkas. I have got to take a close look at it. 
I am very well aware of the President's commitment. But it is 
something that I need to turn to, Congressman.
    Mr. Torres. Is there a review under way?
    Secretary Mayorkas. There is, Congressman.
    Mr. Torres. What is the time line for that review?
    Secretary Mayorkas. As soon as possible, Congressman. I am 
sorry I can't give you a more definite answer.
    As this hearing has evidenced, there is a great deal of 
work to be done across the Department, and we are doing it all.
    Mr. Torres. As you know, in January, President Biden issued 
an Executive Order imposing a moratorium on almost all 
deportations. That Executive Order was subsequently put on hold 
by a court.
    In February, my understanding is that ICE issued new 
guidance on deportations. The new guidance on deportation, is 
it essentially the same as the original Executive Order or are 
there differences?
    Secretary Mayorkas. If I may, there was an announcement 
from the Department of Homeland Security that removals from the 
country would be put on pause, individuals would remain in 
detention, but that removals would be put on pause for a period 
of 100 days as the issues were studied. You correctly noted 
that a court enjoined that pause.
    Then, on January 20, concurrently on January 20, then-
Acting Secretary Pekoske issued a memorandum of new enforcement 
guidelines that are temporary until I promulgate guidelines.
    Guidance was subsequently issued that revived those January 
20 enforcement priorities, and I am studying the issues.
    I intend to engage with the work force, I intend to engage 
with this committee, and I intend to engage with the community 
as I develop guidelines to promulgate.
    Chairman Thompson. The gentleman from New York's time has 
expired.
    The Chair recognizes the gentleman from California for 5 
minutes, Mr. McClintock.
    Mr. McClintock. Well, thank you, Mr. Chairman, for allowing 
me to join you today.
    Secretary Mayorkas, thank you for being here on a marathon 
hearing.
    Is it true that DHS is planning to reopen all of the MPP 
cases?
    Secretary Mayorkas. I don't--I am not familiar with that, 
Congressman. I will have to take a look at that and get back to 
you. I apologize.
    We are certainly processing individuals with active cases 
in an orderly way through discrete ports of entry. We have, 
indeed, commenced that process, and it is proving quite 
successful.
    Mr. McClintock. I thought one of the Executive Orders was 
to basically invite the MPP applicants into the country?
    Secretary Mayorkas. Congressman, as I have indicated, what 
we have done is we have developed a safe, orderly, and humane 
way for individuals with active cases in the MPP program to----
    Mr. McClintock. How many are we talking about?
    Secretary Mayorkas. Yes, Congressman?
    Mr. McClintock. How many?
    Secretary Mayorkas. To be processed through the ports of 
entry so that they can pursue their claims under the law in the 
United States.
    Mr. McClintock. So I assume the answer is yes, you are 
bringing them in. How many?
    Secretary Mayorkas. I will get for you the numbers that we 
have admitted who have claims for relief under the law in the 
United States already made.
    Mr. McClintock. All right.
    Do you agree with the Trump regulation prohibiting aliens 
with DUI convictions, when the DUI resulted in serious bodily 
injury or death of another person, making them ineligible for 
asylum?
    Secretary Mayorkas. I am not familiar. Is there a 
regulation on point, Congressman, to address this?
    Mr. McClintock. Yes. Specifically discussing who is 
eligible for asylum, the Trump administration promulgated a 
regulation saying if you got a DUI conviction, for example, 
that resulted in serious bodily injury or death of another 
person, you are not eligible for asylum.
    Do you agree with that policy?
    Secretary Mayorkas. I am not familiar with that regulation, 
but I will make this statement quite clearly: Individuals who 
pose a public safety threat will not remain in the United 
States.
    Mr. McClintock. Does that include DUI convictions?
    Secretary Mayorkas. It can.
    Mr. McClintock. Does it include child abuse, child neglect, 
child abandonment?
    Secretary Mayorkas. It can.
    Mr. McClintock. Well, I mean, ``yes, it can,'' the 
implication is, ``or it cannot''?
    Secretary Mayorkas. Well, actually, Congressman, having 
been a prosecutor for 12 years, I will not equate a DUI--an 
individual who is guilty of two DUIs, for example, or one DUI 
in the last 12 months that resulted in the death of an 
individual, with an individual who has been in the country for 
30 years, committed a DUI 27 years ago, has lived an upstanding 
life since then, has contributed to the community, and has 3 
U.S. citizen children.
    I believe the analysis with respect to those 2 cases can be 
different. They may or may not yield the same or different 
result.
    Mr. McClintock. Mr. Secretary, my time is limited.
    Secretary Mayorkas. Sorry.
    Mr. McClintock. If I may, I would like to get, once you 
review that regulation, get the administration's position on 
it.
    I have been trying to parse the President's message, 
``Don't come now.'' That certainly implies, ``Do come later.'' 
I am just wondering, how many illegal immigrants do you 
anticipate admitting into the United States this year?
    Secretary Mayorkas. Congressman, allow me to answer this 
question. It is, do not come. What the President was speaking 
of is the fact that we are very focused on developing lawful--
--
    Mr. McClintock. How many illegal immigrants do you 
anticipate admitting----
    Secretary Mayorkas [continuing]. Safe, orderly, and humane 
ways of entering the United States to make claims that United 
States law recognizes and that Congress passed.
    Mr. McClintock. How many? How many this year?
    Secretary Mayorkas. I am sorry, what is your question, 
Congressman? I apologize.
    Mr. McClintock. How many illegal immigrants do you 
anticipate admitting into the United States this year?
    Secretary Mayorkas. Congressman, the border right now is 
not open. We are expelling single adults----
    Mr. McClintock. Well, with all due respect, every interview 
I have seen with these individuals coming across the border say 
they are responding to the changed policies the administration 
has announced and implemented. They hear from their friends and 
families that they have been successfully admitted.
    So the message that you are sending is pretty loud and 
clear to the enormous number of people now heading north to the 
border. I just wonder how American workers----
    Chairman Thompson. The gentleman's time has expired.
    Secretary Mayorkas. I must----
    Chairman Thompson. The Chair recognizes the gentlelady from 
Texas.
    Secretary Mayorkas. If I may, Mr. Chairman, I respectfully 
and strongly disagree.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Texas, Ms. Escobar.
    Ms. Escobar. Thank you so much, Mr. Chairman.
    My community has been mentioned a number of times during 
this hearing, and Minority members of this committee flew to my 
community on Monday. So I am very grateful for the opportunity 
you have given me to participate.
    Secretary Mayorkas, it is great to see you. Thank you for 
your testimony today and for the competent leadership you are 
finally providing the Department of Homeland Security.
    I represent El Paso, Texas, a community that is deeply 
impacted by the Department of Homeland Security, by its 
successes or its failures.
    I just want a word to all of my colleagues who are eager to 
come to El Paso. Please check in with me. I would love to 
connect you.
    You know, it is easy to connect with law enforcement. Would 
love to connect you with the advocates and attorneys and all 
the folks working on the humanitarian end of this multifaceted 
challenge that we have on the border. Only by understanding all 
these facets can we bring forward legitimate, credible 
solutions.
    El Paso is on the front lines. It has been. We were the 
site of the test to separate families, children from their 
families, and many other policies.
    I think all of us, especially El Pasoans, can agree that 
this is unsustainable for everyone involved, for the migrants, 
for the agents, the nonprofits, and the volunteers.
    So I want to focus on solutions.
    My Republican colleagues, especially on this committee, are 
focusing on trying to return to the Trump era status quo.
    So, Mr. Secretary, I want to take those recommendations 
that they have to their logical conclusion, and I am going to 
ask that you be as succinct as possible because I have got a 
lot to try to get through in my 3\1/2\ minutes left.
    Mr. Secretary, did migrants stop their journey northward 
while Donald Trump was President?
    Secretary Mayorkas. No, Congresswoman, they did not.
    Ms. Escobar. They also say that you should continue 
spending billions of dollars that have been taken from our 
military on building and maintaining a wall.
    Mr. Secretary, on Sunday I met an MSNBC reporter at the 
wall in El Paso. Just before I arrived, the MSNBC film crew 
filmed adult men climbing over the wall with a makeshift 
ladder. They were later apprehended by Border Patrol.
    But, Mr. Secretary, do walls stop people from coming to the 
United States?
    Secretary Mayorkas. They do not, Congresswoman. The 
security of the border requires a multifaceted approach--
physical barriers, individual personnel, and technology. The 
use of technology should be exploited in the best sense of that 
term. Its capacity is enormous.
    Ms. Escobar. Thank you, Mr. Secretary.
    My Republican colleagues and my Democratic colleagues 
alike, we all feel immense concern about vulnerable souls and 
their journey northward being targeted and victimized by 
cartels. But at the same time, my Republican colleagues are 
asking that you reinstate MPP.
    Are you aware, sir, that the families, the women, children, 
vulnerable populations who have been subjected to MMP, were 
targets of and victims of crime from those cartels and criminal 
organizations while they waited for their asylum hearings in a 
land that was not their own?
    Secretary Mayorkas. I am very familiar with that, 
Congresswoman. Quite frankly, I am very familiar with what 
happened to very young children, many under the age of 10, 12, 
who were expelled by the prior administration and what happened 
to them in the hands of traffickers or otherwise dropped off in 
a country with which they were unfamiliar.
    Ms. Escobar. Thank you, sir.
    I have 1 minute left, and I am going to try to get through 
as many as possible.
    My Republican colleagues would like to see the continuation 
of Title 42 expulsions. I am not a fan.
    Is Mexico going to accept folks that America is expelling 
into their country indefinitely? I mean, can we expect Mexico 
to forever just take everyone, continue to accept everyone that 
we expel, or might they at some point tell us no?
    Secretary Mayorkas. Congresswoman, the expulsion authority 
is not an immigration authority. I just want to be clear. It is 
a public health authority of the CDC. We work very closely with 
Mexico in addressing the public health imperative.
    Ms. Escobar. So, Mr. Secretary, just 2 last statements that 
I would like for you to follow up with me and my office about.
    The first, we have gotten reports of families who were 
expelled under Title 42 in the Rio Grande Valley, flown to El 
Paso, and then expelled from El Paso into Ciudad Juarez.
    I want to know why that is happening, how many families 
that has happened to, what the plan is. So I would like an 
explanation, please, on that front.
    Second, I would like your commitment to working with me on 
a binational COVID plan for border communities like mine so 
that we can again reopen our ports of entry and get the flow 
going back and forth in a safe way that maintains our 
significance and importance to the American economy.
    Do I have your commitment to working with me on that and 
getting me that information, sir?
    Secretary Mayorkas. You most certainly do, Congresswoman. 
Thank you.
    Ms. Escobar. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The gentlelady from Texas yields back.
    Mr. Secretary, let me thank you for what has been a 4-hour-
and-2-minute introductory session for you to the Homeland 
Security Committee. Let me thank you for your testimony and the 
Members for their questions.
    The Members of the committee may have additional questions 
for the witness, and we ask that you respond expeditiously in 
writing, as you have already committed, to those questions.
    Without objection, the committee's record shall be kept 
open for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    Secretary Mayorkas. Thank you.
    Chairman Thompson. Thank you.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson for Alejandro N. Mayorkas
    Question 1. In July 2020, GAO reported on numerous deficiencies 
related to CBP's medical care for those in its custody. The COVID-19 
pandemic has heightened the importance of providing timely and quality 
medical care to those in CBP's custody. Please describe your plans to 
improve medical care in CBP facilities.
    Answer. U.S. Customs and Border Protection (CBP) places the highest 
priority on the well-being of individuals in CBP custody. CBP has 
significantly expanded and enhanced its medical support capabilities in 
recent years. This medical support capability has been developed in 
coordination with, and has been reviewed by, multiple internal and 
external expert stakeholders. The Government Accountability Office 
(GAO) report issued in July 2020 identified recommendations which CBP 
was either already addressing or has addressed since the report.
    Since the publication of the GAO report, CBP has continued to 
enhance and expand its medical support capabilities, to include 
significant efforts to address COVID-19 issues in relation to CBP 
operations, CBP personnel, and persons in CBP custody. CBP has expanded 
its contract medical support from a small number of medical providers 
at a few facilities in Rio Grande Valley (RGV) to over 900 contract 
medical personnel, with over 350 on duty any given day providing 24/7 
medical support to persons in custody at over 70 CBP facilities along 
the Southwest Border (SWB). CBP's comprehensive medical support 
construct includes health intake interviews (including COVID-19 
considerations and temperature checks), medical assessments, medical 
encounters, referrals to local health systems, follow-up care, enhanced 
medical monitoring, medication management, public health/infectious 
disease (including COVID-19) support, and medical summaries. CBP 
continues to coordinate closely with internal and external stakeholders 
to facilitate and enhance medical support for persons in custody.
    Question 2. USCIS has reported that the average processing time for 
citizenship applications has doubled since 2015 and, at the end of 
fiscal year 2019, USCIS reported that it had a pending caseload of 5.7 
million cases. What steps will you take to reduce USCIS's case backlog 
and ensure USCIS carries out its mission to efficiently and fairly 
adjudicate requests for immigration benefits?
    Answer. U.S. Citizenship and Immigration Services (USCIS) made some 
progress in addressing the pending caseload in fiscal year 2019, 
resulting in a growth rate of less than 1 percent--the smallest growth 
since 2012. This was due to increases in completions for 
naturalizations and adjustments of status, additional staffing and a 4 
percent decrease in receipts. USCIS adjudicated 8.2 million 
applications, petitions, and requests in fiscal year 2019. For a 
comprehensive overview on USCIS filing volumes, trends, and statistics 
on the work USCIS completed through fiscal year 2020 you may review the 
2020 USCIS Statistical Annual Report. The report is available at: 
https://www.uscis.gov/sites/default/files/document/reports/2020-USCIS-
Statistical-Annual-Report.pdf.
    Fiscal year 2020 and fiscal year 2021 presented unforeseen 
obstacles due to the COVID-19 pandemic. In an effort to protect our 
communities and employees from exposure to COVID-19, USCIS temporarily 
suspended nearly all in-person services for several months in 2020. Our 
workforce continued to perform mission-essential duties that did not 
involve face-to-face contact with the public, and we provided emergency 
in-person services for limited situations. Additionally, during the 
outbreak of the pandemic, USCIS saw a significant drop in new receipt 
filings, which dramatically affected revenue and resulted in a hiring 
freeze and the threat of administrative furlough of nearly 70 percent 
of the USCIS workforce. USCIS was ultimately able to cancel the 
administrative furlough.
    When USCIS began reopening offices to the public, the agency 
implemented health and safety protocols--as recommended by the Centers 
for Disease Control and Prevention (CDC)--including social distancing 
guidelines and the use of mandatory face coverings as well as other 
measures to mitigate COVID-19 risks. The safety of our workforce and 
applicants remains our highest priority as we continue to follow CDC's 
guidelines. This has, however, also reduced our capacity for interview-
dependent work and the ability to collect biometrics at USCIS 
Application Support Centers.
    Resource constraints and staffing remain a significant challenge to 
addressing and reducing our pending caseload. The ``Emergency Stopgap 
USCIS Stabilization Act'' expanded the benefit types eligible for 
premium processing and increased flexibility regarding how USCIS can 
spend premium processing funds.\1\ USCIS is exploring mechanisms to 
expand the availability of premium processing as provided by the USCIS 
Stabilization Act. Moreover, after a careful review and analysis of our 
current and projected financial situation, on April 1, 2021, USCIS 
lifted the agency-wide hiring freeze put in place in spring of 2020. 
Currently, USCIS has approximately 2,000 vacancies across the agency, 
and will work to fill those positions as quickly as possible.
---------------------------------------------------------------------------
    \1\ See Pub. Law No. 116-159: https://www.Congress.gov/bill/116th-
congress/house-bill/8337/, signed into law on October 1, 2020.
---------------------------------------------------------------------------
    Despite the current challenges, USCIS continues to focus on efforts 
to increase efficiency such as expanding electronic filing, increasing 
the volume of virtual interviews, and allowing biometrics reuse when 
possible, among other strategies. In addition to these efforts, USCIS 
is taking the following actions and initiatives to address the pending 
caseload:
  <bullet> Redistributing workloads.--USCIS continuously monitors 
        workloads to reprioritize and redistribute resources to improve 
        efficiencies. For example, USCIS sets targets and closely 
        monitors workloads across field offices to limit processing 
        time disparities across geographic locations. In addition, 
        USCIS is moving toward an approach to transfer workloads from 
        one location to another when additional capacity exists or to 
        meet changing demands.
  <bullet> Asylum innovation.--USCIS has implemented asylum caseload 
        initiatives to maximize efficiency, deter non-meritorious 
        applications, and target specific cases for immediate 
        processing by: (1) Developing case management tools and 
        streamlined adjudication processes for cases that are ripe for 
        administrative closure; (2) centralizing fraud and security 
        sweeps to identify cases for potential vulnerabilities; and (3) 
        deploying text analytics for automated detection of potential 
        fraud across affirmative asylum applications.
  <bullet> Increasing officer availability for adjudications.--USCIS 
        has increased available annual adjudication hours within 
        existing staffing levels by identifying and reassigning 
        administrative and non-adjudicative tasks previously performed 
        by officers to non-adjudicative USCIS staff. This approach 
        allows officers to focus on adjudicative tasks such as 
        evaluating eligibility requirements, detecting potential fraud 
        or National security issues, and making fair and lawful 
        determinations. This approach was piloted in several locations 
        in fiscal year 2019 and ultimately implemented across USCIS 
        field offices in fiscal year 2020.
  <bullet> Digitizing paper filings.--USCIS is undertaking scanning 
        initiatives across many product lines, including some immigrant 
        and nonimmigrant petitions, and nonimmigrant status granting 
        applications and ancillary benefits. Digitizing these files 
        will expand adjudicative access and capacity across USCIS 
        increasing efficiency in processing these petitions as visas 
        become available. USCIS anticipates increased digitization will 
        reduce storage and postage costs associated with housing and 
        moving paper files.
    While navigating many challenges in fiscal year 2020 and fiscal 
year 2021, USCIS remains committed to improving processes to provide 
better and more timely services to applicants.
    Question 3. Law enforcement experts have stated that when 
immigrants and their families live in fear that any interaction with 
local authorities could lead to arrest and deportation, they are less 
likely to come forward as witnesses, provide crime tips, and seek 
police protection. A recent GAO report, GAO-21-186, also found ICE 
failed to adequately oversee and manage both iterations of the 287(g) 
program. Please describe your plans for the 287(g) program, both the 
Warrant Service Officer Model and the Prison Enforcement Model. How 
will you enforce oversight of these models if they are continued?
    Answer. The Illegal Immigration Reform and Immigrant Responsibility 
Act of 1996 added subsection 287(g) to the Immigration and Nationality 
Act. This section of the law authorizes U.S. Immigration and Customs 
Enforcement (ICE) to delegate certain authorities to designated State 
and local law enforcement officers to perform limited immigration 
enforcement functions under a signed memorandum of agreement. Under its 
287(g) authority, ICE utilizes the Jail Enforcement Model and the 
Warrant Service Officer model. The U.S. Department of Homeland Security 
(DHS), including ICE, is committed to improving its enforcement 
policies and operations in every way possible. As part of this 
commitment, we are conducting a comprehensive review of the 287(g) 
program. In the mean time, ICE is working to address the administrative 
recommendations made by GAO.
    Question 4a. What are the Department's plans regarding the 
continued use of private contracts for immigration detention 
facilities?
    Answer. ICE is carefully evaluating its detention policies and 
practices, including the use of private operators for immigration 
detention. Around 10 percent of ICE's detention footprint is contained 
within the 5 ICE Service Processing Centers (SPCs) owned by ICE, but 
the SPCs are operated by private detention contractors that provide 
security, food, and other services. The remaining ICE facilities in the 
detention network are either contractor, State, or locally operated. 
Eliminating the use of private operators to manage the ICE detained 
population would require significant changes in ICE operations.
    Question 4b. In 2020, DHS signed a series of 10-year contracts for 
bed space in privately-owned and -operated immigration detention 
facilities. Will the Department re-evaluate these recently-signed 
contracts to ensure they fit within the Department's priorities?
    Answer. ICE carefully reviews all contracts for bed space 
requirements subject to performance, need, and funding prior to 
initiating any contract action. Any decision to re-evaluate contracts 
will take into consideration the Department's priorities in meeting its 
National security, public safety, and border security mission and in 
accordance with each contract's terms and conditions.
    Question 4c. Please also provide the committee with all contracts, 
emails, and other documents pertaining to ICE detention contracts, 
including contract renewals and emergency shelter contracts, from 
fiscal year 2017 to the present.
    Answer. ICE is currently working to meet the following requirements 
in H.R. 116-458, p. 38:

``Not later than 90 days after the date of enactment of this Act, ICE 
is directed to publish on a publicly accessible website a consolidated 
compilation of contract documents for each of the facilities it uses 
for immigration detention purposes, including the most current and 
complete contract modification or addendum, any subcontracts, and all 
bid solicitation requests. The Committee also directs ICE to update 
this compilation on a monthly basis. For any documents requiring 
redaction, ICE shall provide to the Committees on Appropriations, 
Judiciary, and Oversight a written explanation for each such redaction 
along with an unredacted version of each such document.''

    ICE is currently working to redact and post contractual documents 
to a publicly accessible website per H.R. 116-458. ICE will provide 
this information to you directly as well.
    Regarding your request for `` . . . emails, and other documents 
pertaining to ICE detention contracts,'' additional clarification and 
context is requested in order for ICE to adequately address the 
request.
   Questions From Ranking Member John Katko for Alejandro N. Mayorkas
    Question 1. COVID-19 has forced the traveling public, the private 
sector, and DHS port of entry officials to reevaluate and adjust travel 
accommodations and norms to mitigate the spread of germs and other 
harmful pathogens. Can you describe how DHS is leveraging and 
modernizing its technological infrastructure, particularly, with the 
use of contactless technology solutions, at air, land, and sea ports of 
entry to address those areas of concern?
    Answer. CBP continues to evaluate and review new technologies to 
improve and enhance the entry process. For example, on February 16, 
2021, CBP announced the expansion of Simplified Arrival at 8 
PreClearance locations throughout Canada, beginning in Toronto Pearson 
International Airport. Simplified Arrival is an enhanced international 
arrival process that uses biometric facial comparison technology to 
automate the manual document checks that are already required for 
admission into the United States. This process provides travelers with 
a touchless experience that further secures and streamlines 
international arrivals while providing fewer touchpoints that could 
potentially spread disease.
    CBP has partnered with industry to allow travelers to use Mobile 
Passport Control (MPC) applications, which provides them the 
opportunity to submit their information via smartphone on arrival at a 
U.S. port of entry (POE) and go to specially designated MPC lanes for 
inspection, thereby minimizing touchpoints in arrival processing.
    A CBP-built MPC application will deploy in fiscal year and will 
eventually incorporate facial recognition capabilities, intelligent 
queuing, baggage carousel information, and anticipated wait times.
    A Global Entry e-Gate pilot at Dallas Fort Worth International 
Airport began the week of April 12, 2021, incorporating facial 
verification technology to expedite the passage of Global Entry 
travelers without having to visit a kiosk. Other locations are 
incorporating facial verification into existing Global Entry kiosks, 
reducing the number of touchpoints for arrival processing.
    Question 2. I am concerned with the number of political vacancies 
across the Department at all levels, including components. Can you 
please provide a list of all the political positions within the 
Department and components--PAS, PA, Non-Career SES and Schedule C, and 
indicate if the positions are filled (with the names of those filling 
the position), or are vacant?
    Answer. As with all transition periods, some titles are still in 
flux and positions are not yet filled. We will continue to fill these 
positions using appropriate, diligent processes.
    As of March 17, 2021:
  <bullet> Presidentially Appointed with Senate Confirmation (PAS)
    <bullet> On Board: 3
    <bullet> Vacant: 15
  <bullet> Presidentially Appointed (PA)
    <bullet> On Board: 2
    <bullet> Vacant: 3
  <bullet> Non-Career Senior Executive Service
    <bullet> On Board: 37
    <bullet> Vacant: 59
  <bullet> Schedule C
    <bullet> On Board: 16
    <bullet> Vacant: 84
* Minor discrepancies per new position titles still being solidified.
    Please see the document attached.
    Questions From Honorable Clay Higgins for Alejandro N. Mayorkas
    Question 1. How do you define the mission of FEMA, the agency 
tasked with responding to disasters in our Nation?
    Answer. The Federal Emergency Management Agency's (FEMA's) mission 
is defined in 6 U.S.C. 311 et seq. Section 503(b)(1) of the Homeland 
Security Act, Pub. Law No. 107-296 as amended, provides that FEMA's 
primary mission is ``reduc[ing] the loss of life and property and 
protect[ing] the Nation from all hazards, including natural disasters, 
acts of terrorism, and other man-made disasters, by leading and 
supporting the Nation in a risk-based, comprehensive emergency 
management system of preparedness, protection, response, recovery, and 
mitigation.'' FEMA executes this mission consistent with the mission 
statement of ``helping people before, during, and after disasters.'' 
FEMA coordinates and collaborates with other Federal departments and 
agencies to support the Nation's disaster and emergency management 
needs.
    Question 2. Where is FEMA currently deployed to on our Southern 
Border and what role are they playing?
    Answer. On March 13, 2021, the Secretary of Homeland Security 
directed FEMA to support the two lead Federal agencies CBP and the U.S. 
Department of Health and Human Services' (HHS) Office of Refugee 
Resettlement (ORR). The scope of the support consists of two lines of 
effort:
    1. Operational support to establish Emergency Intake Sites (EIS) to 
        provide immediate decompression of Border Patrol facilities on 
        the SWB. The EIS provide a safe and sanitary setting plus basic 
        services, such as cots, hot meals, showers, and clean clothes 
        to unaccompanied children. As of April 8, 2021, EIS are located 
        in Texas and California. As of April 16, FEMA has fewer than 60 
        personnel assigned to several EIS sites and embedded with HHS 
        operations in Washington, DC.
    2. Technical assistance to expand bed capacity in HHS-ORR's network 
        of Temporary Influx Care Facilities.
    Question 3. Is the Disaster Relief Fund being tapped for FEMA's 
deployment to our Southern Border to address the humanitarian crisis? 
If so, how much?
    Answer. The Disaster Relief Fund (DRF) is not being used to fund 
any of this work. Costs incurred by FEMA will be reimbursed via 
Interagency Agreements between FEMA and HHS, and between FEMA and CBP.
    Question 4. Why has FEMA, whose mission is to help ``people before, 
during, and after disasters'' been deployed to the border?
    Answer. On June 2, 2014, President Obama directed then-Secretary of 
Homeland Security Jeh Johnson to coordinate efforts across the 
Executive branch to respond to the humanitarian mission necessitated by 
an influx of unaccompanied children pursuant to the Homeland Security 
Act of 2002 and Homeland Security Presidential Directive-5, Management 
of Domestic Incidents. Consistent with the 2014 Presidential 
Memorandum, on March 13, 2021, Secretary Alejandro Mayorkas directed 
FEMA to increase DHS's support to HHS to ensure unity of effort in the 
transfer of unaccompanied children to HHS custody during the recent 
influx. FEMA is providing this coordination and technical support to 
HHS and CBP under the Economy Act.
    Question 5. Is there currently a crisis at our Southern Border? Why 
or why not?
    Question 6. If not, will you commit to sending FEMA to places where 
their services are needed to assist the American people, such as 
Louisiana's third district, where countless Americans are homeless, 
displaced, and need FEMA housing?
    Answer. The administration is committed to establishing a well-
managed and secure border while also treating people fairly and 
humanely.
    FEMA serves in support of this humanitarian effort as directed on 
March 13, 2021. FEMA continues to integrate with and support HHS ORR in 
a Government-wide effort to safely receive, shelter, and transfer 
unaccompanied children who make the dangerous journey to the SWB. These 
collaborative efforts will decompress Border Patrol stations and help 
HHS increase capacity to care for the recent influx of unaccompanied 
children at the SWB.
    FEMA is actively engaged with HHS to quickly expand capacity for 
safe, sanitary, and secure shelter, and to help provide food, water, 
and basic medical care.
    FEMA has been assisting Hurricane Laura and Delta survivors since 
August 2020 and continues its efforts to provide temporary housing to 
applicants and moving them toward their respective permanent housing 
solutions.
    In Louisiana, FEMA has prioritized direct housing applicants, 
currently being housed in non-congregate sheltering, in hotels in New 
Orleans and Lafayette. FEMA teams are working closely with the 
Louisiana Department of Children and Family Services to assist in 
housing these applicants.
    Additionally, many rental properties damaged by the hurricanes have 
been repaired and are becoming available for applicants. FEMA is 
working with those vendors to match family components, such as size, 
ages and gender, with available solutions.
    Question 7. Do you believe the Biden administration's stance on the 
enforcement of our immigration laws and promises of possible amnesty 
had an impact on the volume of illegal immigration at our Southern 
Border?
    Question 8. Why do you think there has there been a 173 percent 
increase in encounters at the Southwest Border since last February 
under the Biden administration?
    Answer. The Biden-Harris administration has been clear that we need 
to address this challenge beyond our borders by creating additional 
lawful pathways for migrants and individuals seeking protection to come 
to the United States. At the same time, we must work collaboratively 
with other countries in our region to manage migration and the 
challenge and responsibility of offering humanitarian protection in a 
more regular, orderly, and humane manner.
    Since April 2020, the number of encounters at the Southwest Border 
has increased due to on-going violence, natural disasters, food 
insecurity, and poverty in Central America and Mexico. This resulted in 
a substantial strain on the processing, transportation, and holding 
capacity of the U.S. Border Patrol (USBP), which was only exacerbated 
by the COVID-19 global pandemic. In following CDC recommendations to 
allow for social distancing, temporary holding capacity within USBP 
facilities was limited by up to 75 percent in certain instances. 
Compounding this challenge was the lack of long-term planning and a 
comprehensive strategic framework by the prior administration to 
address the root causes of the migration. They terminated the Central 
American Minors program and cut hundreds of millions of dollars in 
foreign aid to the Northern Triangle countries of Guatemala, El 
Salvador, and Honduras. As a result, the surge in unaccompanied 
children presented a serious challenge for DHS and our colleagues at 
the Department of Health and Human Services (HHS). Simply put, the 
previous administration dismantled our Nation's immigration system. 
Addressing the factors that cause individuals and families to flee 
their homes in the first place and attempt the dangerous journey to our 
Southern Border is both aligned with our National interest and our 
values as a Nation.
    Question 9. Have we tested all individuals that have been in DHS 
custody prior to their release into the United States?
    Answer. CBP works with local health systems, DHS, ICE, and HHS to 
facilitate COVID-19 testing as appropriate. This includes: Referrals of 
persons with COVID-19 concerns to local health systems for definitive 
testing and diagnosis; coordination with local governments/non-
governmental organizations (NGO's) for testing of persons released from 
CBP custody; coordination with DHS and ICE for testing of persons 
released from CBP custody in locations without local government/NGO 
testing capability; and coordination with ICE and HHS regarding testing 
of unaccompanied children transferred to HHS/ORR care.
    For those in ICE custody, all new admissions to ICE detention 
facilities receive COVID-19 testing within 12 hours of arrival, or 24 
hours if circumstances require.
    Additionally, in accordance with ICE detention standards, on May 4, 
2020, ICE issued the COVID-19 checklist, which is intended to provide 
ICE and contracted staff with steps to take prior to transferring, 
removing, or releasing a noncitizen from ICE custody to further 
mitigate the spread of COVID-19. The checklist includes specific 
questions regarding discussion of the release with the relevant State, 
local, Tribal, and/or territorial public health department to 
coordinate continuation of care; providing detainees an opportunity to 
place several free-of-charge phone calls to family, friends, community 
groups, and attorneys to secure public or private transportation and 
the facilitation of safe transport; access to information on community 
resources to ensure continued shelter; and the provision of personal 
protective equipment (mask) upon release.
    If ICE must release an ill or isolated detained individual, health 
staff immediately notify State or local public health agencies within 
the facility's jurisdiction to coordinate further monitoring and 
contact tracing. Similarly, detained individuals who are mandated to be 
released after testing positive for COVID-19, but before the CDC's 
recommended isolation period has been completed, are provided with 
information regarding the risks of COVID-19 infection and transmission, 
as well as contact information for local health departments. In 
addition, local health departments within the facility's jurisdiction 
are provided with the detained individual's post-release information 
for future monitoring and contact tracing. Furthermore, all individuals 
released from ICE custody are provided with COVID-19 prevention 
information, hand hygiene supplies, and face masks.
    Question 10. If a migrant tests positive for COVID-19 in DHS 
custody, are they allowed entry into the United States while they have 
the virus?
    Answer. Individuals in CBP custody are already present in the 
United States.
    The following applies when a migrant tests positive for COVID-19:
  <bullet> Anyone in DHS custody who tests positive for COVID-19 is 
        immediately quarantined.
  <bullet> Noncitizens entering ICE facilities are tested, and those 
        who test positive are quarantined.
  <bullet> DHS has developed a partnership model, working with 
        community-based organizations, cities, and counties, to test 
        and quarantine families released from custody. DHS (FEMA) will 
        reimburse 100 percent of the expenses incurred.
  <bullet> DHS coordinates with States and local governments directly 
        when they have a process to test and quarantine family units.
  <bullet> DHS is building additional capacity to test individuals in 
        CBP custody when there is not capacity to do so elsewhere.
    Question 11. Were migrants ever held under bridges or in parking 
lots to be processed under the Biden administration?
    Answer. The health and safety of the American public and all those 
we encounter remains a top priority. Amidst the COVID-19 pandemic, CBP 
is seeking to minimize exposure to COVID-19 for employees and those in 
CBP custody. In order to expand facility capacity and reduce exposure, 
CBP introduced the use of Temporary Outdoor Processing Sites in open-
air environments to mitigate exposure to communicable diseases. The 
implementation of outdoor intake sites is an expansion to CBP's current 
processing capabilities. The sites are not used for holding or housing 
of migrants beyond what is initially required for processing. The 
ability to process subjects in an outdoor setting as soon as they are 
apprehended limits potential exposure to agents and others encountered.
    Question 12. Please describe, step-by-step, the process that 
migrants go through leading up to being released into the United States 
from CBP custody.
    Answer. Upon arrival or encounter at or between POEs, the 
inspection process includes additional document checks/verification, 
interview, biometric collection, and systems checks. Any noncitizen 
determined to be inadmissible will be processed for appropriate removal 
proceedings. Any noncitizen who is processed for expedited removal and 
who expresses an intention to apply for asylum or claims a fear of 
persecution or torture will be referred to USCIS for a ``credible 
fear'' interview. Because CBP has limited space in holding facilities, 
once CBP processing is complete, CBP requests placement for noncitizen 
adults and family units with ICE for an appropriate custody 
determination.
    Should ICE decline to detain any noncitizen and CBP determines, in 
its discretion, that the noncitizen may be safely released from 
custody, that migrant may be paroled or released on their own 
recognizance into the United States to await removal proceedings and 
issued a Notice to Appear (NTA), and in some cases, may be released 
under prosecutorial discretion and instructed to report to the ICE 
office nearest their final destination in the United States, where they 
will be issued an NTA.
    CBP works with city and county leaders, as well as public health 
officials, to provide COVID-19 testing and isolation and quarantine, as 
needed, for all migrants released from CBP facilities.
    Question 13. Is the world currently experiencing a pandemic? Does 
that include other nations such as Mexico, Guatemala, Honduras, 
Venezuela, Cuba, China, and Iran?
    Answer. Both the CDC and the World Health Organization have 
categorized the COVID-19 event as a global pandemic. This is further 
supported by data showing rates of transmission, infection, and 
mortality across the global landscape.
    Question 14. Why are Americans being told to stay home and keep 
their kids home from school while people crossing the border illegally 
from other nations are allowed to enter after testing positive for 
coronavirus?
    Answer. The policies regarding phased reopening of services and 
facilities such as schools are determined by State and local 
governments, based on the science-driven guidelines from the CDC. DHS 
does not issue guidance regarding the status of community-based 
services and facilities.
    COVID-19 tests for noncitizens entering the United States are 
conducted through a multi-layer framework developed and implemented in 
coordination with Federal, State, local, and non-Governmental partners. 
If a noncitizen tests positive while in DHS custody, they are isolated 
and/or transported to local medical facilities in accordance with 
standard Federal, State, and local protocols.
    Question 15. How many single adults have been released on their own 
recognizance from CBP custody since January 20, 2021?
    Question 16. Has CBP released anyone on their own recognizance with 
criminal histories? If so, how many and what were the crimes?
    Answer. CBP has released 1,608 single adult noncitizens on an NTA/
Own Recognizance between January 21, 2021 and March 17, 2021.
    CBP makes decisions about releases on a case-by-case basis. 
Approximately 0.3 percent, or 92, of Border Patrol apprehensions that 
resulted in an individual being released on their own recognizance from 
January 20 through March 31, 2021 had a criminal history. Nearly three-
quarters of criminal charges of the 92 individuals related to prior 
immigration violations. The remainder related to criminal convictions 
for offenses such as theft, assault, or driving under the influence.
    Question 17. Has ICE released anyone from custody that actively had 
COVID-19? If so, how many and why?
    Answer. In general, when considering whether releasing a noncitizen 
from ICE custody is appropriate, the agency considers important factors 
prior to the noncitizen's release including the health, safety, and 
welfare of the detainee and community. All decisions regarding the 
noncitizen's movement, further isolation, and release are made in 
accordance with CDC guidelines. In instances where a noncitizen is 
granted relief from removal or has paid a bond, the noncitizen must be 
released from ICE custody and cannot continue to be detained solely 
because they have a medical condition. ICE only has authority to detain 
individuals for immigration purposes and cannot hold any detainees 
ordered released by a judge.
    When an individual being released tests positive for COVID-19, 
facility medical staff counsel the individual on CDC-recommended 
guidelines, such as wearing personal protective equipment and 
quarantining. Furthermore, if ICE must release an ill or isolated 
detainee, the individual's sponsor, if applicable, and local public 
health officials are notified so they may coordinate further 
monitoring, if required.
    Since March 2020, ICE has released approximately 830 noncitizens 
from custody after they tested positive for COVID-19, but before they 
completed the CDC's 10-day required isolation period.\2\
---------------------------------------------------------------------------
    \2\ ICE release data is current as of April 2021.
---------------------------------------------------------------------------
    Question 18. How do you plan to expand temporary CBP capacity and 
ICE capacity to detain any criminals crossing the border illegally 
subject to mandatory detention, as the weather gets warmer and with it, 
further increases in volume at the border?
    Answer. By the end of April 2021, there will be 4 operational soft-
sided facilities (SSF) in the following locations: Rio Grande Valley 
Sector (capacity: 1,000); Del Rio Sector (capacity: 500); Yuma Sector 
(capacity: 500); Tucson Sector (capacity: 500).
    While these temporary facilities are intended for family units and 
unaccompanied children, the additional capacity provided through the 
SSFs allows permanent CBP facilities to remain available for single 
adults and criminal noncitizens awaiting prosecution. Additional SSF 
deployments may be considered in the future, as determined by 
operational need and priority.
    Additionally, CBP is planning, designing, and/or constructing the 
following permanent Centralized Processing Centers, which will provide 
additional capacity for family units, unaccompanied children, and 
single adults: Rio Grande Valley Sector (operational in January 2022; 
capacity: 1,200); Tucson Sector (operational in October 2022; capacity: 
500); Yuma Sector (operational in December 2022; capacity: 500); and El 
Paso Sector (operational in October 2023; capacity: 1,100).
    ICE currently has an extensive network of over 200 single adult 
detention facilities capable of housing single adult noncitizens. This 
network has an unfunded capacity of over 56,000 and a funded capacity 
of 34,000. With ICE's current detained population at over 15,000, ICE 
maintains a strong level of existing capacity.
    ICE detains certain noncitizens in accordance with U.S. immigration 
laws.\3\ Noncitizens are detained to secure their presence for 
immigration proceedings and/or removal from the United States, with 
detention resources focused on those who represent a threat to public 
safety, for whom detention is mandatory by law, or who may be a flight 
risk; it is not a punitive measure.
---------------------------------------------------------------------------
    \3\ The mandatory detention requirements include: INA  
235(b)(1)(B)(IV) (8 U.S.C.  1225(b)(1)(B)(IV)): which sets forth that 
noncitizens claiming credible fear ``shall be detained pending a final 
determination of credible fear of persecution and, if found not to have 
such a fear, until removed;'' INA  212(d)(5) (8 U.S.C.  1182(d)(5)), 
which specifies that: such noncitizens may only be paroled on a case-
by-case basis for ``urgent humanitarian reasons'' or ``significant 
public benefit,'' requiring an individualized assessment, 8 C.F.R.   
212.5(b), 235.3(b)(2)(iii) (limiting release during expedited removal 
process or after final expedited removal order to where it is 
``required to meet a medical emergency or is necessary for a legitimate 
law enforcement objective.''), 235.3(b)(4)(ii) (same for cases pending 
credible fear determination); INA  236(c) (8 U.S.C.  1226(c)): which 
mandates the detention of certain categories of criminal and terrorist 
noncitizens during the pendency of removal proceedings noncitizens may 
not be released in the exercise of discretion during the pendency of 
removal proceedings even if potentially higher-risk for serious illness 
from COVID-19; INA  236A (8 USC  1226a): which mandates detention of 
noncitizens certified as terrorists by the Secretary; INA  238(a)(2) 
(8 U.S.C.  1231(a)(2)): which mandates detention for the expedited 
removal (Administrative Removals) of non-lawful permanent resident 
noncitizens convicted of committing aggravated felonies; and INA  
241(a)(2), 8 U.S.C.  1231(a)(2): which dictates that certain criminal 
and terrorist noncitizens who are subject to a final order of removal 
may not be released during the 90-day removal period.
---------------------------------------------------------------------------
    ICE has a robust ground transportation network along the SWB and 
has modified two of its ground contracts (in El Paso and the RGV) and 
its air contract to allow CBP to issue task orders directly with the 
vendor for any CBP needs.
    ICE has also embedded Enforcement and Removal Operations personnel, 
ground transportation assets, and Alternatives to Detention contractors 
directly into CBP sectors to provide as much proactive assistance as 
possible.
    Question 19a. There are media reports that the number of people 
taken into custody by ICE and the number of deportations fell by a 
significant amount during the first few months of the Biden 
administration, when compared to the last 3 months of the Trump 
administration. We were told by your Department that ICE activities 
wouldn't decrease in frequency, but simply shift to new priorities, 
which couches public safety threats as people with aggravated felonies 
or worse.
    How do you explain this significant drop in enforcement actions by 
ICE?
    Answer. On February 18, 2021, ICE Acting Director Tae Johnson 
issued Interim Guidance: Civil Immigration Enforcement and Removal 
Priorities, which establishes interim guidance in support of the 
interim civil immigration enforcement and removal priorities set forth 
in then-Acting Secretary Pekoske's January 20, 2021 memorandum, Review 
of and Interim Revision to Civil Immigration Enforcement and Removal 
Policies and Priorities. The February 18, 2021 memorandum provides that 
ICE will focus its limited enforcement and removal resources on 
presumed priority cases that meet certain National security, border 
security, or public safety criteria. Cases that do not meet the 
criteria of these 3 categories may still be enforcement priorities but 
will require pre-approval. This interim guidance applies to all civil 
immigration enforcement and removal decisions, including deciding when 
and under what circumstances ICE officers and agents should issue a 
detainer, detain or release a noncitizen, issue an NTA, or execute a 
final order of removal.
    Question 19b. How are you ensuring that criminals who have pled 
down to lesser crimes are still removed due to the threat they pose to 
the American people? Many sexual assaults get pled down below an 
aggravated felony. Those heinous crimes often cause lasting trauma to 
victims. Where do the perpetrators of those crimes that have been pled 
down fit into the new ICE priorities?
    Answer. In accordance with the aforementioned February 18, 2021, 
interim guidance, a noncitizen is presumed to be a public safety 
enforcement and removal priority if he or she poses a threat to public 
safety, and (1) he or she has been convicted of an aggravated felony as 
defined in section 101(a)(43) of the Immigration and Nationality Act, 
or (2) he or she has been convicted of an offense for which an element 
was active participation in a criminal street gang, as defined in 18 
U.S.C.  521(a), or is not younger than 16 years of age and 
intentionally participated in an organized criminal gang or 
transnational criminal organization to further the illegal activity of 
the gang or transnational criminal organization.
    It is important to note that the interim priorities do not require 
or prohibit the arrest, detention, or removal of any noncitizen. 
Instead, ICE officers and agents are expected to exercise their 
discretion thoughtfully, consistent with ICE's important National 
security, border security, and public safety mission. Any civil 
immigration enforcement or removal actions that do not meet the above 
criteria for presumed priority cases will require preapproval from the 
ICE field office director or special agent in charge. In deciding to 
undertake an enforcement action or removal, the ICE officer or agent 
must consider, in consultation with his or her leadership, the nature 
and recency of the noncitizen's convictions, the type and length of 
sentences imposed, whether the enforcement action is otherwise an 
appropriate use of ICE's limited resources, and other relevant factors.
    Question 20a. On February 21, 2021, the Washington Times published 
an article entitled, ``EXCLUSIVE: Homeland Security plans to gut 
immigration enforcement arm: `Administrative abolishment' means less 
enforcement.'' According to the article, DHS plans to convert ICE 
deportation officers into ``criminal investigators.''
    Is this true?
    Question 20b. Will you commit to briefing the committee before any 
current or future consideration of implementing such a change occurs?
    Question 20c. Have there been any discussion in the Department or 
at ICE regarding administratively converting most or all deportation 
officers classified as GS-1801s, into criminal investigators, 
classified as GS-1811s?
    Answer. Secretary Mayorkas has been engaging closely and regularly 
with the ICE workforce in order to understand their concerns and 
address their needs. The Secretary's engagements with the ICE workforce 
have included an all-hands virtual town hall with ICE personnel, 7 in-
person town halls in ICE field offices across the country, 2 virtual 
town halls with ICE field office directors and special agents in 
charge, and numerous other discussions. In those discussions, Secretary 
Mayorkas has communicated that DHS would consider making such changes 
if doing so would serve ICE's critical National security and public 
safety mission.
     Questions From Honorable Kat Cammack for Alejandro N. Mayorkas
    Question 1a. Since the Nation-wide emergency was declared on March 
13, 2020, and subsequent disaster declarations were approved for all 50 
States, DC, and 5 territories, FEMA has played an extraordinary role in 
the COVID-19 response. As we continue to fight this pandemic, what role 
should FEMA play moving forward?
    Answer. FEMA's role in the pandemic response changed on March 19, 
2020, when a Nation-wide emergency was declared under the Stafford Act. 
Prior to the declaration of that emergency and subsequent major 
disaster declarations, the agency was supporting HHS, consistent with 
DHS's overall role in coordination of incident management under the 
Homeland Security Act and HSPD-5.
    In alignment with President Biden's plan to respond to COVID-19, 
FEMA is currently working with other Federal agencies and with State, 
Tribal, and territorial authorities, and private-sector partners to 
assist, augment, and expedite vaccinations in the United States. 
Specifically, FEMA is supporting this goal by providing Federal support 
through the deployment of Federal clinical and non-clinical personnel; 
the provision of equipment, supplies, and technical assistance; and the 
awarding of expedited financial assistance to States, Tribes, and 
territories. FEMA, through the Community Vaccination Center (CVC) 
Federal pilot program, is also working with interagency partners to 
provide a supplemental allocation of vaccines above and beyond State 
allocations, along with site build-out and staffing, to reach 
vulnerable populations. As of April 9, 2021, there are 30 Federally-
managed CVC pilot sites across the country. FEMA is also providing 
support to States, Tribes, and territories in the form of personnel, 
equipment, and/or financial assistance to aid in the administration of 
vaccine at State, Tribe, or territory sites. As of April 1, there were 
1,244 of these Federally-supported CVC sites Nation-wide. FEMA 
continues to take deliberate and proactive steps, working closely with 
our State, local, Tribal, territorial (SLTT), Federal, non-profit and 
private-sector partners to safeguard our ability to respond to and 
recover from future disasters that may arise during this pandemic. FEMA 
regions will continue to provide technical assistance and coordination 
for a range of program areas with their respective SLTT partners.
    Question 1b. What role should FEMA play in future pandemics?
    Answer. FEMA will continue to support the goals of the National 
Biodefense Strategy and the National Response Framework (NRF) to ensure 
effective, whole-of-Government preparedness and response for 
significant biological events and threats. As described in the NRF, 
FEMA will continue to coordinate with and support HHS as the lead 
Federal agency for Emergency Support Function No. 8, Public Health and 
Medical Services. The NRF guides how the Nation responds to all types 
of disasters and emergencies and will continue to be supported by the 
Response Federal Interagency Operational Plan which includes incident 
specific annexes such as the Biological Incident Annex (BIA).
    The BIA, last updated in 2017, serves as the Federal organizing 
framework for responding to and recovering from a range of biological 
threats. In late 2020, FEMA initiated a scheduled review of the BIA 
with interagency partners and in close coordination with HHS. The 
revision, scheduled for completion in early fall 2021, will incorporate 
new laws and policy including the CARES Act, and will include both best 
practices and lessons learned from recent biological incidents, 
including the COVID-19 response. FEMA will initiate a scheduled update 
to the Pandemic Crisis Action Plan nested under the BIA to help ensure 
the Nation is prepared for future emerging infectious diseases 
including those with pandemic potential. The revised Pandemic Crisis 
Action Plan will be complete in mid-2022.
    Question 1c. Has FEMA had and does FEMA have adequate resources for 
pandemic response?
    Answer. Thanks to the administration and Congress, FEMA has 
adequate resources to support the pandemic response. Additionally, in 
FEMA's latest DRF Monthly Report to Congress, FEMA projected a fiscal 
year 2021 ending balance of approximately $2.6 billion. Absent 
significant new catastrophic incident(s), or significant unexpected 
COVID-19 funding needs, the DRF has sufficient funding to support 
response and recovery needs for COVID-19 as well as other disasters 
through September 30, 2021. As always, FEMA will continue to monitor 
DRF resource needs and update the administration and Congress on the 
status of both DRF resources and potential funding needs.
    Question 2. During the 2017 and 2018 disaster seasons, concerns 
were raised about staffing shortages at FEMA. While leading the COVID-
19 pandemic response, FEMA has simultaneously continued to respond to 
multiple disasters including wildfires, hurricanes, and the most recent 
major disaster in Texas. Additionally, FEMA has been tasked with 
responding to the border crisis. How have these multiple mission sets 
impacted the existing workforce at FEMA? Does FEMA have the resources 
it needs to effectively respond to the pandemic, the border crisis, and 
to the upcoming storm season?
    Answer. As of April 8, 2021, FEMA is supporting 119 Presidentially-
declared disasters while also supporting HHS's efforts on the SWB. 
Currently, FEMA has more than 10,200 responders deployed in incident 
management and support roles both in person and virtually. 
Comparatively, FEMA had more than 10,400 FEMA personnel deployed in 
2017 at the height of the responses to Hurricanes Harvey, Irma, and 
Maria, and the California wildfires.
    FEMA has never deployed more personnel to disasters so early in the 
year, but achieving goals on vaccine administration and recovering from 
COVID-19 remain essential and enduring priorities for the agency. FEMA 
is coordinating with regional, State, Tribal, and territorial partners 
in support of current deployment activities while actively monitoring 
flood risks, spring storm risks, and posturing for the upcoming 2021 
hurricane and wildfire seasons.
    FEMA is expanding its workforce to meet the increased disaster 
activity and mission sets, while also working with other Federal 
agencies and partners to supplement our support to communities. FEMA 
continues to prioritize hiring, onboarding, and training a diverse 
workforce that is ready to support the agency and its mission. Since 
2017, FEMA has hired an additional 3,000 staff for the disaster 
workforce. The agency has also taken many key steps to build additional 
capacity, including onboarding more than 160 local-hire personnel 
directly from the communities being supported to fill temporary non-
clinical positions with more local-hire programs rolling out 
Nationally. FEMA continues working with other Federal agencies for 
staffing and additional resources, including activating and deploying 
more than 250 DHS Surge Capacity Force (SCF) members since February 
2021 for vaccination efforts. Currently, FEMA is working with other 
Federal agencies to identify additional SCF members who are available 
to deploy in the near future in addition to coordinating with 
AmeriCorps National Civilian Community Corps and the Peace Corps to 
deploy more than 370 personnel to non-clinical vaccination positions.
    FEMA will continue to balance mission and staffing resource needs 
to support current operations, including support for the SWB, while 
building readiness for emergent incidents and ensuring delivery of our 
life-saving and life-sustaining programs to disaster survivors.
   Questions From Honorable August Pfluger for Alejandro N. Mayorkas
    Question 1. How many Special Interest Aliens (SIAs) has DHS 
apprehended crossing the border on a monthly basis from March 2020 
through today? How many SIAs did DHS apprehend crossing the border 
during the previous 3 fiscal years? Have any of these individuals been 
released or are all SIAs currently in custody? If any have been 
released, what is their background which qualifies them for this 
status? If none have been released, will the Department release any of 
these individuals in the future?
    Answer. Please see attachment.
    Ensuring National security is a top priority for DHS. Cases with a 
potential National security interest are complex and, while the terms 
Special Interest Alien (SIA) and Known and Suspected Terrorist (KST)\4\ 
have become frequently used as part of border security discussions, DHS 
notes that an SIA is not the same as a KST. Rather, the terms are two 
separate terms used to describe different types of potential threats. 
The term SIA is a broad term for a non-U.S. person who, based on an 
analysis of travel patterns, may potentially pose a National security 
risk to the United States or its interests and should be further 
evaluated accordingly by DHS personnel. Particularly, these individuals 
or groups may employ travel patterns known, or evaluated, to possibly 
have a nexus to terrorism but does not mean that all SIAs are National 
security threats or ``terrorists.'' Rather, an SIA's travel and 
behavior may necessitate heightened screening and further 
investigation.\5\
---------------------------------------------------------------------------
    \4\ KST is a term commonly used by law enforcement and intelligence 
agencies. A known terrorist is an individual who has been arrested, 
charged by information, indicted for, or convicted of a crime related 
to terrorism and/or terrorist activities by U.S. Government or foreign 
government authorities or identified as a terrorist or a member of a 
terrorist organization pursuant to statute, Executive Order, or 
international legal obligation pursuant to a United Nations Security 
Council Resolution. A suspected terrorist is an individual who is 
reasonably suspected to be engaging in, has engaged in, or intends to 
engage in conduct constituting, in preparation for, in aid of, or 
related to terrorism and/or terrorist activities. The use of KST is 
generally accepted to refer to someone for whom we have a reasonable 
suspicion to believe has or likely will be engaged in terrorist 
activity, as that term is defined in U.S. law.
    \5\ https://www.dhs.gov/news/2019/01/07/mythfact-known-and-
suspected-terroristsspecial-interest-aliens.
---------------------------------------------------------------------------
    A noncitizen who is an SIA may or may not be an appropriate subject 
for ICE detention based on individual case factors. ICE exercises its 
discretion in making custody decisions on a case-by-case basis, 
primarily considering risk of flight and risk to public safety. In 
cases where ICE determines that release is appropriate, ICE may employ 
release mechanisms including a grant of parole, an Order of 
Recognizance, an Order of Supervision, or a bond issued by ICE. In some 
cases, if eligible for bond, an immigration judge may also order an SIA 
released from custody. These releases may also include enrollment in an 
Alternatives to Detention program. In cases where an SIA presents a 
threat, DHS will take all necessary steps to ensure the safety of the 
public and U.S. National security interests. From March 2020 through 
March 2021, CBP identified 1,538 SIAs at the United States border, and 
868 SIAs were released from ICE custody.\6\ As of March 31, 2021, there 
were 95 SIAs in ICE custody.\7\ Due to the unique factors and sensitive 
information associated with each case, DHS is unable to provide an 
individual background for each SIA.
---------------------------------------------------------------------------
    \6\ Fiscal year 2020 data is current from March 1, 2020 through 
September 30, 2020. Fiscal year 2021 data is current from October 1, 
2020 through March 31, 2021.
    \7\ Fiscal year 2021 detention is a snapshot of March 31, 2021. ICE 
custody excludes Department of Health and Human Services Office of 
Refugee Resettlement transfers/facilities, as well as U.S. Marshals 
Service prisoners. A CBP Office of Field Operations (OFO) Special 
Interest Alien Apprehension is only counted as ``Booked into ICE 
Custody'' if there is a book-in related to that encounter. It is 
possible that an alien has a book-in to ICE custody prior to the CBP 
OFO Special Interest Alien Apprehension on the same case. These are 
categorized as ``Not Booked into ICE Custody'' as the book-in does not 
relate to the CBP OFO Special Interest Alien Apprehension.
---------------------------------------------------------------------------
    Question 2. How many ``got-aways'' has DHS recorded on a monthly 
basis from March 2020 through today?
    Have your practices and procedures for recording these numbers 
changed from the prior administration?
    Answer. No, the practices and procedures have not changed.
    Question 3. Please provide a monthly breakdown of the number of CBP 
agents patrolling the border from March 2020 through today, including 
how many agents have been pulled from their normally-assigned patrol 
posts to process incoming migrants.
    Answer. CBP's United States Border Patrol (USBP) is funded for 
19,555 Border Patrol agents. Of these, approximately 16,700 are 
assigned to the SWB, approximately 2,000 are assigned along the 
Northern Border (NBO), and approximately 262 are assigned to Coastal 
Borders (CBO). On any given day, there are approximately 15,000 Border 
Patrol agents on duty and responsible for border security.
    A significant number of agents are assigned to patrol duties on any 
given day, but agents often perform multiple assignments in the same 
day, i.e., agents frequently perform both patrol and processing duties 
in the same day. The duty assignments of available agents directly 
correspond to the activity along the border as well as the current 
population in CBP's custody, among other factors. As the number of 
enforcement encounters increases and/or the in-custody population 
grows, the more agents must be assigned to processing duties, resulting 
in fewer agents available for patrol duties.
    Processing incorporates numerous functions, to include actual 
processing of cases, but also includes transportation of migrants 
apprehended in the field, intake screening, inventorying property, 
escorting and caring for those in CBP's custody, and hospital watch. 
Furthermore, these duties increase as the demographics in our custody 
change. Caring for unaccompanied children in CBP's custody requires 
more agents than do single adults.
    In April 2020, the USBP dedicated approximately 5-10 percent of the 
available agents to support duties related to processing. In December 
2020, this percentage had increased to 15-20 percent.
    In January, February, and March 2021, USBP experienced a 
significant surge in encounters and a significant spike in the number 
of unaccompanied children being apprehended and held in custody. By 
February 2021 the USBP reassigned nearly 40 percent of the available 
agents to support processing duties. In addition to adjusting the 
assignments of agents to processing, specifically along the SWB, USBP 
has temporarily reassigned 331 agents from the Northern Border and 
Coastal Border to the SWB to provide focused support to processing 
duties. By the end of April 2021, this number will increase to 474. 
USBP has also coordinated with CBP's Office of Field Operations to 
receive additional support. Two hundred and sixty-nine CBP officers 
will be temporarily reassigned to the SWB to support processing duties.
                                 ______
                                 
                              ATTACHMENT 1
[Attachment 1 is For Official Use Only and has been retained in 
committee files.]

                                                  ATTACHMENT 2
----------------------------------------------------------------------------------------------------------------
           Component                      Title           Appointment Type      Last Name          First Name
----------------------------------------------------------------------------------------------------------------
TSA............................  Administrator, TSA....  PAS (EX-II)......  Pekoske..........  Dave.
HQ/OIG.........................  Inspector General.....  PAS (EX-IV)......  Cuffari..........  Joseph.
HQ/CRCL........................  Advisor...............  Schedule C.......  Abdelall.........  Brenda.
USCIS..........................  Chief of Policy and     Noncareer SES....  Baran............  Amanda.
                                  Strategy.
HQ/OS..........................  White House Liaison...  Schedule C.......  Bivona...........  John.
CBP............................  Chief of Staff........  Noncareer SES....  Clavel...........  Marquerite.
FEMA...........................  Chief of Staff........  Noncareer SES....  Coen.............  Michael.
HQ/PLCY........................  Assistant Secretary     Noncareer SES....  Cohen............  John.
                                  for Counterterrorism
                                  and Threat Prevention.
HQ/CRCL........................  Officer for Civil       Noncareer SES....  Culliton-Gonzalez  Katherine.
                                  Rights and Civil
                                  Liberties.
HQ/OGC.........................  Deputy General Counsel  Noncareer SES....  Das..............  Sharmistha.
                                  (Regulatory,
                                  Oversight and
                                  Litigation).
CISA...........................  Executive Assistant     Noncareer SES....  Goldstein........  Eric.
                                  Director for
                                  Cybersecurity.
HQ/PLCY........................  Deputy Assistant        Noncareer SES....  Hunter...........  Adam.
                                  Secretary for
                                  Immigration Policy.
HQ/PLCY........................  Chief of Staff........  Noncareer SES....  Meyer............  Joel.
FEMA...........................  Director of             Schedule C.......  Montell..........  Sarah.
                                  Intergovernmental
                                  Affairs.
HQ/OS..........................  Chief of Staff........  Noncareer SES....  Olick............  Karen.
ICE............................  Chief of Staff........  Noncareer SES....  Perry............  Timothy.
HQ/PLCY........................  Assistant Secretary     Noncareer SES....  Shahoulian.......  David.
                                  for Border Security
                                  and Immigration.
ICE............................  Principal Legal         Noncareer SES....  Trasvina.........  John.
                                  Advisor.
HQ/OS..........................  Counselor (Special      Schedule C.......  Ulloa............  Isabella.
                                  Projects).
HQ/CWMD........................  Chief Medical Officer.  PA (EX-IV).......  Gandhi...........  Pritesh.
HQ/OS..........................  Senior Counselor        Noncareer SES....  Kelley...........  Angela.
                                  (Immigration and
                                  Border Security).
HQ/OLA.........................  Director of             Schedule C.......  Patel............  Rina.
                                  Legislative Affairs.
USCIS..........................  Chief Counsel.........  Noncareer SES....  Tabaddor.........  Afsaneh.
HQ/OPA.........................  Communications          Schedule C.......  Peck.............  Sarah.
                                  Director.
TSA............................  Assistant               Noncareer TSES...  Lopez............  Alexa.
                                  Administrator for
                                  Strategic
                                  Communications and
                                  Public Affairs.
ICE............................  Assistant Director,     Noncareer SES....  Trickler-McNulty.  Claire.
                                  Office of Detention
                                  Policy and Planning.
HQ/MGMT/OCIO...................  Chief Information       Noncareer SES....  Hysen............  Eric.
                                  Officer.
HQ/OS..........................  Secretary.............  PAS (EX-I).......  Mayorkas.........  Alejandro.
USCIS..........................  Chief of Staff........  Noncareer SES....  Escobar Carrillo.  Felicia.
HQ/OPA.........................  Assistant Secretary     PA (EX-IV).......  Espinosa.........  Marsha.
                                  for Public Affairs.
HQ/OGC.........................  Deputy General Counsel  Noncareer SES....  Daskal...........  Jennifer.
                                  (Cyber and
                                  Technology).
HQ/OLA.........................  Deputy Assistant        Noncareer SES....  Geer.............  Harlan.
                                  Secretary for
                                  Legislative Affairs
                                  (Senate).
ICE............................  Deputy Chief of Staff.  Schedule C.......  Houser...........  Jason.
HQ/OS..........................  Senior Counselor to     Noncareer SES....  Vinograd.........  Samantha.
                                  the Secretary
                                  (National Security/
                                  International
                                  Affairs).
HQ/OS..........................  Senior Advisor........  Noncareer SES....  Sunstein.........  Cass.
HQ/OS..........................  Counselor               Schedule C.......  Krishnaswami.....  Charanya.
                                  (Immigration).
HQ/OLA.........................  Director of             Schedule C.......  Shenkle..........  Abigail.
                                  Legislative Affairs.
HQ/OS..........................  Senior Counselor        Noncareer SES....  Maurer...........  Tim.
                                  (Cybersecurity).
CISA...........................  Executive Assistant     Noncareer SES....  Mussington.......  Brian David.
                                  Director for
                                  Infrastructure
                                  Security.
CISA...........................  Deputy Director, CISA.  Noncareer SES....  Natarajan........  Nitin.
HQ/MGMT........................  Senior Advisor........  Noncareer SES....  Braun............  Jacob.
HQ/OS..........................  Director of Trips and   Schedule C.......  Feder............  Steven.
                                  Advance.
FEMA...........................  Director, External      Noncareer SES....  Knighten.........  Justin.
                                  Affairs and
                                  Communications.
HQ/OS..........................  Deputy White House      Schedule C.......  Lowe.............  Faith.
                                  Liaison.
HQ/OPA.........................  Deputy Director of      Schedule C.......  Robbins..........  Mary.
                                  Speechwriting.
HQ/OPA.........................  Director of Strategic   Schedule C.......  Robinson.........  Brent.
                                  Engagement.
HQ/OLA.........................  Senior Advisor........  Noncareer SES....  Brane............  Michelle.
HQ/OLA.........................  Senior Advisor........  Noncareer SES....  Carnes...........  Alexandra.
HQ/OS..........................  Senior Counselor        Noncareer SES....  Fong.............  Heather.
                                  (State and Local Law
                                  Enforcement).
HQ/PLCY........................  Assistant Secretary     Noncareer SES....  McGovern.........  Mary Helen.
                                  for Trade and
                                  Economic Security.
CBP............................  Chief Operating         Noncareer SES....  Nunez-Neto.......  Blas.
                                  Officer.
USCIS..........................  Senior Advisor,         Schedule C.......  Gonzalez.........  Brenda.
                                  External Affairs.
TSA............................  Chief of Staff........  Noncareer TSES...  Canevari.........  Holly.
ICE............................  Senior Advisor for      Schedule C.......  Farooque.........  Omer.
                                  Strategic
                                  Communication.
HQ/CISOMB......................  Citizenship and         Noncareer SES....  Coven............  Phyllis.
                                  Immigration Services
                                  Ombudsman.
CBP............................  Executive Director,     Noncareer SES....  Feasley..........  Ashley.
                                  Policy and Planning.
CISA...........................  Senior Advisor for      Schedule C.......  Vogt.............  Amy.
                                  Public Affairs.
HQ/OGC.........................  Deputy General Counsel  Noncareer SES....  Jawetz...........  Tom.
                                  (Immigration).
----------------------------------------------------------------------------------------------------------------

        ATTACHMENT 3.--USBP SOUTHWEST BORDER GOT-AWAYS BY MONTH

                      MARCH 1, 2020--MARCH 31, 2021
 Data Source: GPRA (Unofficial) Fiscal Year 2020 as of End-of-Year Date;
                     Fiscal Year 2021TD as of 4/7/21
------------------------------------------------------------------------
            Fiscal Year                       Month            Got-aways
------------------------------------------------------------------------
Fiscal Year 2020:                   March....................     13,509
                                    April....................      5,923
                                    May......................      6,681
                                    June.....................      8,681
                                    July.....................     10,213
                                    August...................     11,604
                                    September................     13,366
Fiscal Year 2021TD:
                                    October..................     19,909
                                    November.................     21,206
                                    December.................     22,516
                                    January..................     18,300
                                    February.................     23,831
                                    March....................     37,569
                                   -------------------------------------
      SBO Total...................  .........................    213,308
------------------------------------------------------------------------

                                 <all>
</pre></body></html>
